<html>
<title> - CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA ANNUAL REPORT 2003</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA
                             ANNUAL REPORT
                                  2003

=======================================================================

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 2, 2003

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov


                                 ______

89-486              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House                                Senate

JIM LEACH, Iowa, Chairman            CHUCK HAGEL, Nebraska, Co-Chairman
DOUG BEREUTER, Nebraska              CRAIG THOMAS, Wyoming
DAVID DREIER, California             SAM BROWNBACK, Kansas
FRANK WOLF, Virginia                 PAT ROBERTS, Kansas
JOE PITTS, Pennsylvania              GORDON SMITH, Oregon
SANDER LEVIN, Michigan               MAX BAUCUS, Montana
MARCY KAPTUR, Ohio                   CARL LEVIN, Michigan
SHERROD BROWN, Ohio                  DIANNE FEINSTEIN, California
DAVID WU, Oregon                     BYRON DORGAN, North Dakota

                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State*
                 GRANT ALDONAS, Department of Commerce*
               D. CAMERON FINDLAY, Department of Labor**
                   LORNE CRANER, Department of State*
                   JAMES KELLY, Department of State*

                      John Foarde, Staff Director

                  David Dorman, Deputy Staff Director

* Appointed in the 107th Congress; not yet formally appointed in 
  the 108th Congress.

** Resigned July 2003.

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page
I. Executive Summary and List of Recommendations.................     1

II. Introduction.................................................     5

III. Monitoring Compliance With Human Rights.....................    13
    (a) Rights of Criminal Suspects and Defendants...............    14
    (b) Protection of Internationally-Recognized Labor Rights....    23
    (c) Freedom of Religion......................................    28
    (d) Freedom of Expression....................................    33
    (e) Economic, Social, and Cultural Rights....................    42
    (f) Freedom of Residence and Travel..........................    50

IV. Maintaining Lists of Victims of Human Rights Abuses..........    53

V. Development of Rule of Law and Civil Society..................    54
    (a) Nongovernmental Organizations and the Development of 
      Civil Society..............................................    55
    (b) Legislative Reform and Transparency......................    57
    (c) The Judicial System......................................    62
    (d) Commercial Rule of Law and the Impact of the WTO.........    62
    (e) Legal Restraints on Government Power.....................    69

VI. Corporate Social Responsibility..............................    73

VII. Tibet.......................................................    77

VIII. Recent Developments in Hong Kong...........................    82

IX. Appendix: Commission Activities in 2002 and 2003.............    85

X. Endnotes......................................................    89
          CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                       2003 ANNUAL REPORT

            I. Executive Summary and List of Recommendations

    The Commission finds that human rights conditions in China 
have not improved overall in the past year. The Chinese 
government continues to violate China's own constitution and 
laws and international norms and standards protecting human 
rights. The Commission recognizes that some developments are 
underway in China, particularly in the area of legal reform, 
that could provide the foundation for stronger protection of 
rights in the future. However, these changes have been 
incremental, and their overall impact has been limited. Such 
limitations illustrate the complexity of the obstacles the 
Chinese people face in their continuing effort to build an 
accountable government that respects basic human rights and 
freedoms.
    Chinese citizens are detained and imprisoned for peacefully 
exercising their rights to freedom of expression, association, 
and belief. Law enforcement authorities routinely ignore 
Chinese domestic law, or exploit loopholes in the law, to 
detain suspects and defendants for periods greater than Chinese 
law or international human rights norms and standards permit.
    China's poor record of protecting the internationally 
recognized rights of its workers has not changed significantly 
in the past year. Chinese workers cannot form or join 
independent trade unions, and workers who seek redress for 
wrongs committed by their employers often face harassment and 
criminal charges. Moreover, child labor continues to be a 
problem in some sectors of the economy, and forced labor by 
prisoners is common. Although the government has begun to 
modify its policy of discrimination against migrant workers 
from rural areas, these workers still face serious 
disadvantages as they seek employment away from their home 
regions. Workplace health and safety conditions are poor in 
many Chinese workplaces. Fatalities among mine workers are 
especially common. Despite having enacted new and relatively 
progressive laws designed to improve health and safety 
standards, the Chinese government lacks the will or capacity to 
enforce these laws.
    Scores of Christian, Muslim, and Tibetan Buddhist 
worshippers have been arrested or detained during 2003. Chinese 
Catholics, Protestants, Muslims, and Buddhists seeking to 
practice their faith outside officially-sanctioned churches, 
mosques, and temples are subject to harassment and repression. 
Government authorities continue to repress spiritual groups, 
including the Falun Gong spiritual movement, chiefly through 
the use of anti-cult laws.
    Chinese citizens do not enjoy freedom of speech or freedom 
of the press. The Chinese government suppresses freedom of 
expression in a manner that directly contravenes not only 
international human rights norms and standards, but also 
China's own constitution. Some individuals and groups that 
cannot obtain government authorization manage to publish on a 
small scale, but only by employing methods that risk 
administrative and criminal punishment.
    China's new family planning law retains the broad elements 
of China's long-held policies on birth limitation. These 
include mandatory restrictions on absolute reproductive freedom 
and the use of coercive measures, specifically severe economic 
sanctions, to limit births. However, the new law also mandates 
prenatal and maternal health care and services for women.
    The Chinese government is taking significant steps to 
address HIV/AIDS, but progress has been hard to achieve and 
public ignorance of the disease remains widespread. Public 
health policies in some provinces have fostered the spread of 
HIV/AIDS and have left patients and orphans in dire distress. 
Complaints by these victims have been met with fear and 
forceful repression.
    China has built a progressive legal framework to protect 
women's rights and interests, but loopholes remain, and 
implementation of existing laws and regulations has been 
imperfect, leaving Chinese women vulnerable to pervasive abuse, 
discrimination, and harassment at home and in the workplace.
    Recent policy changes in China indicate progress toward 
scaling back the restrictive residency registration (hukou) 
system, allowing rural migrants in urban areas to more easily 
obtain status as legal residents. In a welcome development, the 
Chinese government abolished an often abused administrative 
detention procedure called ``custody and repatriation'' in 
response to public outrage over official complicity in the 
death of a detainee. But local governments often fail to 
implement central government policy directives adequately, and 
ingrained discriminatory attitudes and practices toward 
migrants impede reform.
    China has continued its efforts to reform and strengthen 
basic legal institutions. Experimental efforts by local 
people's congresses and local administrative bodies, if 
sustained and further expanded, could improve China's human 
rights performance by improving the accountability of public 
officials and transforming expectations 
regarding the role of public opinion in governance. The Chinese 
government has made progress in its effort to improve the 
capacity, efficiency, and competence of its judiciary and is 
considering reforms that may enhance judicial independence in 
limited respects. Accession to the WTO has had a positive 
impact in the areas of legislative and regulatory reforms by 
raising awareness of the importance of transparency at all 
levels of government. It is also helping to drive positive 
reforms in China's judiciary.
    Despite the long-term promise of these changes, their 
overall impact remains limited at present. Although local 
governments have attempted to provide more information to their 
citizens and have begun to open their processes to public 
scrutiny, public hearings and real consideration of input by 
the public are limited in practice. The judiciary continues to 
be plagued by complex and interrelated problems, including a 
shortage of qualified judges, pervasive corruption, and 
significant limits on independence.
    Legal restraints on government power remain weak in 
practice. Nevertheless, Chinese citizens are using existing 
legal mechanisms to challenge state action in increasing 
numbers and are exhibiting signs of greater empowerment in 
confronting the state in some areas. Prompted in part by an 
official focus on constitutional development, Chinese citizens 
engaged in a spirited discussion of constitutionalism for much 
of the year. In mid-2003, however, central authorities became 
concerned about the scope of this promising discourse and 
prohibited discussion of constitutional amendments and 
political reform in the media or in unapproved academic forums 
until further notice.
    The Chinese government opened a preliminary dialogue with 
envoys of the Dalai Lama during late 2002 and 2003. The Dalai 
Lama's unique stature positions him to help ensure the survival 
and development of Tibetan culture, while contributing to 
China's stability and prosperity. Although the envoys' visits 
are a positive step, repression of ethnic Tibetans continues 
and the environment for Tibetan culture and religion is not 
improving.

                            Recommendations

    The Commission works to implement its recommendations until 
they are achieved. Thus, in addition to the recommendations 
made in the 2002 report, the Commission makes the following 
recommendations for 2003:

Human Rights for the Chinese People
        <bullet> The Chinese government made significant and 
        far-reaching commitments on human rights matters during 
        the December 2002 U.S.-China human rights dialogue. The 
        President and the Congress should increase diplomatic 
        efforts to hold the Chinese government to these 
        commitments, particularly the release of those 
        arbitrarily detained, and the unconditional invitations 
        to the UN Special Rapporteur on Torture and the UN 
        Working Group on Arbitrary Detention.
        <bullet> U.S. government efforts to ensure that prison 
        labor-made goods do not enter the United States have 
        been hampered by a general lack of information and 
        cooperation from the Chinese government. The President 
        should direct that the Task Force on Prohibition of 
        Importation of Products of Forced or Prison Labor from 
        the People's Republic of China (created by Title V of 
        P.L. 106-286) develop a database of known Chinese 
        prison factories to be used to bar the entry of goods 
        produced in whole or part in those facilities. The 
        database should also be used to develop lists of 
        Chinese exporters handling goods from these prison 
        manufacturing facilities.
        <bullet> Without urgent action, China faces an HIV/AIDS 
        catastrophe, yet the Chinese government response has 
        been tepid. The President and the Congress should 
        continue to raise HIV/AIDS issues at the highest levels 
        of the Chinese leadership during all bilateral 
        meetings, citing the epidemic as an international 
        concern that cannot be solved without the action of 
        China's most senior leaders.
        <bullet> The right to choose one's place of residence 
        and to travel inside one's country is not only a basic 
        human right but also fosters the labor mobility needed 
        to build a modern economy. The Congress and the 
        President should urge the Chinese government to take 
        additional measures to repeal residency restrictions 
        (hukou) and to continue to take concrete measures 
        toward ending discrimination against and abuse of 
        internal migrants.
        <bullet> U.S. government programs focused on Tibetans 
        in China have done much to improve conditions, but need 
        additional resources. The Congress should increase 
        funding for U.S. non-governmental organizations (NGOs) 
        to develop programs that improve the health, education, 
        and economic conditions of ethnic Tibetans living in 
        Tibetan areas of China, and create direct, sustainable 
        benefits for Tibetans without encouraging an influx of 
        non-Tibetans into these areas.

Religious Freedom for China's Faithful
        <bullet> The freedom to practice one's religious faith 
        is an essential right. The President and the Congress 
        should urge the Chinese government to reschedule 
        without restrictions previously-promised visits to 
        China by the U.S. International Commission on Religious 
        Freedom and the UN Special Rapporteur on Religious 
        Intolerance.
        <bullet> China's officially sanctioned religious 
        associations unfairly restrict the ability of Chinese 
        believers to practice their religions freely, and many 
        believers have been imprisoned for practicing religion 
        outside the government-controlled system. The Congress 
        and the President should press the Chinese government 
        to permit free religious practice outside these 
        official religious associations and release all those 
        imprisoned for their 
        religious beliefs.

Labor Rights for China's Workers
        <bullet> Chinese workers are frequently unaware of 
        their rights under Chinese law and China's 
        international commitments. To help bridge this gap, the 
        President and the Congress should expand existing 
        worker rights education programs, emphasizing 
        curriculum development and training in peer education 
        techniques, and should provide funding for legal 
        clinics that take on cases involving worker rights 
        under Chinese law.
        <bullet> U.S. government efforts to foster corporate 
        social responsibility at home and abroad lack focus, 
        coordination, and policy guidance. The President should 
        establish a Coordinator for Corporate Social 
        Responsibility to coordinate interagency policy and 
        programs and work with private sector actors.

Free Flow of Information for China's Citizens
        <bullet> The Chinese government exploits administrative 
        restraints to chill free expression and control the 
        media. The President and the Congress should urge the 
        Chinese government to eliminate these restraints on 
        publishing.
        <bullet> China's government continues to prevent its 
        citizens from accessing news from sources it does not 
        control, particularly from Chinese language sources. 
        The President and the Congress should urge Chinese 
        authorities to cease detaining journalists and writers, 
        to stop blocking news broadcasts and Web sites, and to 
        grant journalist visas and full accreditation to at 
        least two native Mandarin speaking reporters from Voice 
        of America's Chinese Branch. The Congress should fund 
        programs to develop technologies to enable Internet 
        users in China to access news, education, government, 
        and human rights Web sites that China's government 
        currently blocks.

Rule of Law and Civil Society for China's Citizens
        <bullet> A vibrant civil society and the rule of law 
        help a country develop politically, economically, 
        socially, and culturally. The President should request, 
        and the Congress should provide, significant additional 
        funds to support U.S. government and U.S. NGO programs 
        working to build the institutions of civil society and 
        rule of law in China.
        <bullet> As the overall U.S. government effort 
        supporting rule of law programs increases, certain 
        small-scale U.S. programs will have an impact beyond 
        their size and funding. The President and the Congress 
        should augment existing U.S. programs by making it a 
        priority to create a permanent Resident Legal Advisor 
        position at the U.S. Embassy in Beijing, and to 
        increase funding for the Rule of Law Small Grants 
        Program.

    The Commission's Executive Branch members have participated 
in and supported the work of the Commission, including the 
preparation of this report. However, the views and 
recommendations 
expressed in the report do not necessarily reflect the views of 
individual Executive Branch members or the Administration.
    This report was approved by a vote of 21 to 1.<dagger>

                            II. Introduction

    The Commission has closely examined the specific human 
rights and rule of law issues listed in Section 302 of the 
United States-China Relations Act of 2002,\1\ and presents its 
findings in Sections III through IX of this report. Beyond 
these specific rights and issues, the Commission has considered 
a number of underlying factors that might affect the future 
development of human rights and the rule of law in China. 
Without understanding such dynamics, any attempt to influence 
the future of human rights and rule of law in China will be 
ineffective. With this in mind, this report presents a short 
introduction to some of these factors: the evolution of China's 
position on international human rights, the recent rise of new 
political leaders, the steady development of new human and 
organizational resources for improvements in rights and law, 
and worsening corruption in the context of the Communist 
Party's monopoly on power.

               China's Evolving Position on Human Rights

    Two forces have dominated China's rejectionist position on 
human rights since 1949: internationalist Marxist ideology, 
which reached its zenith in the 1950s and 1960s, and 
nationalism, now gaining strength as the market economy 
develops and contradicts the ideals and economic assumptions of 
Marxism.
    Nationalist emotion has often driven the Chinese government 
to reject Western criticism of its human rights record. The 
strength of such nationalist sentiment springs from the strong 
sense among Chinese elites that the West took unfair advantage 
of its weakness in the 19th and 20th centuries. The Qing 
Dynasty faced the rising powers of the West at a time when it 
was suffering from the decay common at the end of dynastic 
cycles. Overpopulation, economic and military weakness, a 
corrupt bureaucracy, and popular rebellion made the empire an 
easy mark for Western powers. Events forced a people who saw 
themselves as the cultural and political center of the world to 
confront repeated invasions and humiliations at the hands of 
soldiers, traders, and missionaries from beyond the borders of 
Chinese civilization. This experience ultimately produced an 
angry and powerful nationalism expressed in the convulsions of 
the Boxer Rebellion, the May Fourth Movement of 1919, and, more 
recently, riots at U.S. diplomatic and consular missions in 
China after the accidental bombing of the Chinese Embassy in 
Belgrade in May 1999.
    In an address to the World Conference on Human Rights in 
1993, Vice Foreign Minister Liu Huaqiu expressed China's 
nationalist rejection of human rights criticisms this way:

          To wantonly accuse another country of abuse of human 
        rights and to impose the human rights criteria of one's 
        own country or region on other countries or regions 
        [is] tantamount to an infringement upon the sovereignty 
        of other countries and interference in the latter's 
        internal affairs, which could result in political 
        instability and unrest. . . . As a people who used to 
        suffer tremendously from aggression by big powers but 
        now enjoys independence, the Chinese have come to 
        realize fully that state sovereignty is the basis for 
        the realization of citizens' human rights.\2\

    After 1949, China readily embraced the Soviet Union's 
official Marxist line rejecting human rights as a capitalist 
strategy to protect private property. The anti-rights synergy 
of Marxism and 
nationalism provided China's leaders with a retort to Western 
criticisms of their human rights practices. In this spirit of 
official hostility, three Chinese theorists wrote ``How Marxism 
Views the `Human Rights' Question'' in the Communist Party 
daily Red Flag in 1979. The article responded to the calls for 
reform posted on the ``Democracy Wall'' by asserting that 
``human rights is always a bourgeois slogan.'' \3\ The authors 
asked sarcastically:

          First of all, let us analyze what kind of ``human 
        rights'' the people who raise the cry of ``human 
        rights'' really want. . . . They declare without 
        reservation that ``at present it is especially 
        necessary to . . . advocate the study of the culture 
        and civilization which grew out of Christianity under 
        the guidance of its teachings of `peace, forgiveness, 
        understanding, and brotherly love' '' and so on. . . . 
        The Chinese people already have experience with the 
        ideas and teaching for which they clamor: they are a 
        hodgepodge of capitalism and imperialism.\4\

    The Marxist equation of foreign religion with foreign 
aggression fueled severe and unrelenting religious repression 
even after China began to reform and open up to the world in 
the late 1970s. Communist Party leaders enacted laws limiting 
religious education in general, and prohibiting religious 
education of the young in particular, to protect the Leninist 
state's monopoly on education and information. But as Chinese 
socialism faded, the laws and regulations restricting religious 
organization and practice gained strength and found a new focus 
on the potential threats to Chinese sovereignty posed by 
domestic religious groups with foreign connections. Chinese 
officials administering these laws and regulations understand 
that popular religious movements in the past were often 
associated with periods of dynastic decline. This reinforced 
their suspicions of the growing religiosity among many Chinese 
people.
    Nationalist sentiment based on lingering historical 
resentments and old Marxist arguments continue to make the 
Chinese state inhospitable to the development of a true human 
rights consciousness. At the beginning of the 21st century, 
this ingrained resistance to the international consensus on 
protecting individual dignity, welfare, and safety against the 
arbitrary acts of a powerful state sets China apart from the 
mainstream of modern nations. Many believe that the Communist 
Party's arguments about human rights are designed to justify 
policies that the Party would pursue in any case. In this view, 
the Party's arguments are a tactic to deflect the focus of 
criticism away from its own policies and on to the West, a 
practice that also fuels nationalism.
    By the late 1970s, the cruelties of the Cultural Revolution 
convinced China's leaders of the need for certain human rights 
protections even in socialist states. After Deng Xiaoping 
adopted the policy of ``reform and opening up'' in 1978, China 
gradually took steps to join the international discussion on 
human rights. China began from a low starting point, since most 
government officials and many Chinese intellectuals still 
professed belief in the anti-rights dogmas of Marxism. As the 
theorists cited above wrote in Red Flag in 1979:

          The Chinese Constitution sets forth clear guidelines 
        for the upholding of the [four] cardinal principles of 
        socialism, the dictatorship of the proletariat, the 
        leadership of the Party, and Marxism, Leninism and Mao 
        Zedong Thought. They represent the will and interests 
        of the people of the entire nation. The people must 
        abide by them, and if they deviate from them their 
        democratic rights are out of the question.\5\

    Deng and other Party leaders first used reformist language 
at the Third Plenum of the Eleventh Central Committee in 
December 1978, but those who understood these early words as a 
signal for change would be silenced. One of the first to 
respond was Wei Jingsheng, then an unknown electrician, but 
later to become one of the most prominent of China's democracy 
activists. Wei's bold criticism of the Marxist line on human 
rights\6\ led to his arrest, trial and conviction in 1979 on 
charges of ``counterrevolution'' and disclosing state secrets. 
Wei received a 15-year prison sentence.\7\
    It was not until Chinese leaders faced a torrent of 
international criticism after the brutal suppression of the 
democracy movement in Tiananmen Square in 1989 that they began 
to abandon the rejectionist Marxist rhetoric on human rights. 
The government would finally express rhetorical support for the 
human rights movement in its 1991 ``White Paper on Human 
Rights'':

          The issue of human rights has become one of great 
        significance and common concern in the world community. 
        The series of declarations and conventions adopted by 
        the United Nations have [sic] won the support and 
        respect of many countries. . . . However, the evolution 
        of the situation in regard to human rights is 
        circumscribed by the historical, social, economic, and 
        cultural conditions of various nations, and involves a 
        process of historical development.\8\

    The White Paper framed the issue in new, evolutionary 
terms. Rather than rejecting civil and political rights as part 
of a transitory stage of bourgeois capitalism, the authors 
argued that human rights are more appropriate to developed than 
to developing 
nations. This idea may be short lived: as China assumes an 
increasingly powerful role on the world stage, nationalist 
pride may discourage reliance on the assertion that China's 
``backward'' economic and cultural status allows the government 
to contravene international human rights norms and standards.
    A more troublesome aspect of the White Paper's viewpoint is 
the relativist claim that the idea of human rights is an aspect 
of Western culture and not a universal standard. Along these 
lines, some commentators outside of Asia have suggested 
recently that a distinctively ``Chinese'' discourse on human 
rights exists and deserves deference. Moreover, they argue that 
it may suit China better than the international standards laid 
out in the Universal Declaration on Human Rights. In the 1990s, 
Chinese officials employed this argument as an all-purpose tool 
to deflect international criticism of their country's human 
rights practices. The United Nations Charter and the Universal 
Declaration on Human Rights first expressed the international 
consensus on basic human rights in the 1940s. The UN 
representative of the Republic of China, P.C. Chang, served as 
vice chairman of the Human Rights Commission during the 
drafting of the Universal Declaration. His belief in the 
importance of the Declaration helped make it possible for the 
General Assembly to adopt it unanimously in December 1948.
    The unanimous, multinational genesis of the Universal 
Declaration, together with numerous contemporary statements, 
demonstrates the UN General Assembly's acceptance of a 
universally agreed-on set of minimum human rights standards. 
The General Assembly did not codify the substantive norms of 
any particular state or region in unanimously adopting the 
Universal Declaration. Instead, it reflected international 
consensus on the minimum standards by which all states should 
abide, without limiting any state from doing better than these 
standards within its own distinctive political and economic 
system.
    Until the Chinese people acquire the open, transparent, and 
democratic means to influence their government's position on 
human rights, no one should assume that they do not wish to 
enjoy all the rights expressed in the Universal Declaration, or 
other international covenants, conventions and agreements.

           Insights into the Thinking of China's New Leaders

    China's political structure was modeled on the centralized 
and unitary party-state that Vladimir Lenin advocated and 
implemented in the Soviet Union. As a natural result of this 
authoritarian structure, China's reforms since 1979 have been 
top-down in concept and implementation, beginning with a bold 
economic program of ``reform and opening up to the outside 
world'' enunciated by Deng Xiaoping. Although the relationship 
between market reforms and democratic development is neither 
clear nor certain, a similar authoritarian structure was the 
starting point for market-oriented economic changes, and then 
democratic reforms, in Taiwan and South Korea. While China's 
future path is impossible to predict, the openness of China's 
leadership to political reforms that could weaken the absolute 
control of the Communist Party has been a matter of debate, 
both in China and the West.
    Political leaders, scholars, and analysts outside China 
know relatively little about the new generation of men (and a 
few women) who have entered the top Chinese leadership ranks 
since the 16th Communist Party Congress, held in November 2002. 
Some resources exist that may provide insights into their 
interests and factional affiliations. Disidai (The Fourth 
Generation), a book recently published outside China by a 
former Chinese government insider, Zhang Liang, writing under 
the pseudonym Zong Hairen, offers a view of the histories, 
alliances, and political views of China's new leaders.\9\
    The book, while probably as much a political tract as a 
factual account, nonetheless gives the reader a sense of the 
issues of concern in intra-Party politics. It includes what 
purport to be actual dossiers compiled by the Communist Party's 
Organization Department to evaluate candidates for membership 
in the Standing Committee of the Politburo, the nine-person 
group that rules China. Although human rights issues do not 
figure prominently in Zhang's analysis,\10\ the dossiers do 
suggest attitudes toward government and governance that imply a 
positive stance on citizens' rights. For example, the book 
quotes China's new premier Wen Jiabao as saying, ``When doing 
anything in the countryside, we must respect the wishes of the 
peasants, respect their autonomy in production, and absolutely 
not use force and orders against them.'' \11\ The generality of 
statements like this does not necessarily indicate what Premier 
Wen thinks about human rights and the rule of law, but such 
statements do reflect an appreciation for the rights and 
dignity of rural citizens, a concept not associated with 
China's leaders in the recent past.
    The views of President Hu Jintao on issues relating to 
human rights protections and the rule of law are the least 
evident in either public documents or the material included in 
Disidai. However, as noted in Section V(e) of this report, 
President Hu's focus on the Chinese Constitution has revived 
hopes in China's law reform community that new constitutional 
mechanisms may be developed to protect individual rights and 
restrain the government's arbitrary exercise of power, despite 
the possibility that Hu may simply see these reforms as a means 
to enhance the power and legitimacy of the Communist Party. In 
addition, press accounts of his short tenure in office have 
included hints of his sympathies. For example, the South China 
Morning Post reported in April that Hu had intervened 
personally to limit punishment of the liberal paper that 
published an article by progressive Party elder, Li Rui, urging 
sweeping democratic reform.
    Excerpts of speeches included in the dossiers summarized in 
Zhang Liang's book portray other new leaders as having spoken 
in favor of policies helpful to the development of the rule of 
law, including Wu Guanzheng, a Communist Youth League ally of 
Hu Jintao who heads the Party's Central Discipline and 
Inspection Commission and sits on the Politburo's nine-member 
Standing Committee; Wu Yi, now both Politburo member and 
Minister of Health; and Li Changchun, a member of the Politburo 
Standing Committee.
    However, while some in China's new leadership group seem to 
favor progress toward minimum international human rights norms 
and standards and the rule of law in China, these potentially 
more progressive voices are unlikely to dominate the repressive 
policy preferences of others in the Party and government. As 
one U.S. scholar observes, the new Politburo represents what 
must be a deliberate balance of power between ``hardliners'' and 
``progressives.'' 
    Former Chinese official and businessman Fang Jue, famous 
for his daring 1998 challenge to the Party entitled ``China 
Needs a New Transformation--The Platform of the Democratic 
Faction,'' agrees that the new leadership is a careful balance 
between opposing groups. Fang was one of a group of mid-level 
officials and former officials advocating political reform in 
China at the time of the 15th Party Congress in 1998. He was 
first jailed at that time for 4 years, on what many say were 
trumped up charges. Released in 2002, he was re-arrested 
shortly before the 16th Party Congress in November 2002, held 
for 82 days, then expelled from China in January 2003. He has 
recently written a sophisticated analysis of the political 
coloration of the new leaders and the relationships among 
them.\12\ His breakdown of the new Politburo members finds:

        <bullet> 2 Progressives: Hu Jintao and Wen Jiabao
        <bullet> 2 Moderates: Li Changchun and Wu Guanzhang
        <bullet> 5 Conservatives: Zeng Qinghong, Wu Bangguo, 
        Jia Qinglin, Huang Ju, and Luo Gan

    Fang believes that this configuration will prevent both 
progressives and conservatives from taking control. Fang notes 
that, apart from the Politburo, conservatives dominate the 
second tier of positions in the Party, making it quite unlikely 
that the more progressively-oriented Hu and Wen will be able to 
push through significant political reform.

              Human and Institutional Resources for Change

    Promising resources for change in China include both people 
and new institutions. Academics in China today are particularly 
influential because of the strong traditional tie between 
teacher and student, which often lasts a lifetime. The respect 
and admiration of former students may explain tolerance for the 
views of some senior scholars. For instance, despite his 
progressive views on topics ranging from federalism to 
constitutional review, Professor Jiang Ping of the University 
of Politics and Law remains active in legal academe and speaks 
frequently at conferences on law reform issues. In the volatile 
world of inner-Party politics, powerful bonds grow up between 
older and younger cadres, with the result that senior retired 
officials may express critical views with some impunity. Li 
Rui, former secretary of Mao Zedong, speaking at the November 
2002 Party Congress, suggested far-reaching political reforms, 
including the establishment of a constitutional court and an 
end to Party interference in the judiciary. But when his ideas 
were subsequently published in a Chinese newspaper, the Party 
expressed its displeasure by closing the paper. Li Rui remained 
unrepentant: ``I am 86 years old. I don't care what people 
think of me.'' \13\
    The development of new institutions and mechanisms 
permitting comparatively free-ranging intellectual discussion 
by a privileged group [see Section III(d) below] is among the 
greatest changes in China since the mid-1970s. From prominent 
universities in large urban areas to small local teachers 
colleges, academic centers have become relatively safe places 
for the expression and discussion of new ideas that were once 
considered radical or dangerous. Some schools now incorporate 
elements of constitutionalism and comparative law into their 
curricula.\14\
    In addition to their traditional degree programs, many of 
these institutions have established research centers where 
scholars focus on and debate issues such as constitutional law, 
criminal jurisprudence, the legislative process, justice for 
the victims of environmental pollution, and public health. Law 
schools in China are also involved in this trend. An increasing 
number of law schools have established clinical legal education 
programs, and some support legal aid initiatives for the poor. 
In addition to academic institutions, policy institutes 
(``think tanks'') have proliferated in China since the 1970s, 
with analysts and scholars studying and debating the issues and 
options in such areas as foreign policy, national security and 
military affairs, and social and economic development. 
Government agencies still control and fund these institutions 
to varying degrees, but the analysts working in them seem to 
operate under relatively few constraints. The Central Party 
School, which serves as the Communist Party's own ``think 
tank,'' employs a permanent long-term research staff, many 
members of which also teach in the Party's mid-career 
development program for cadres destined for senior positions.
    As discussed in Section V(a) below, China's nongovernmental 
sector is also growing, although at a modest rate, with 
continued requirements for government sponsorship, and without the 
advantages of clear legal and tax rules. While state regulation 
of ``civil society'' in China is still evolving, Commission staff 
members have observed a profusion of grassroots efforts to build 
service and advocacy groups at many levels. As Tiananmen Square 
leader Wang Dan has observed, real change may come first from 
this sector, propelled by citizen demand rather than initiative 
from above.

    Worsening Corruption in the Context of the CCP Monopoly on Power

    Official corruption is likely to obstruct the efforts of 
reformers to realize the constitutional promise to ``rule China 
according to law.'' Although the Communist Party claims to 
recognize the threat to government legitimacy posed by 
corruption, the Party has yet to submit itself and all its 
members to equal justice under the same rules that apply to 
other Chinese citizens.\15\
    Concern about official corruption continues to be strong 
today. Communist Party leaders recall that endemic corruption 
in the Kuomintang regime in the late 1940s fueled popular 
discontent and helped bring the Communist Party to power. The 
angry messages that flood Chinese Internet bulletin boards when 
the news media reports a corruption scandal reflects Chinese 
citizens' own perceptions of their government's inability or 
unwillingness to cope with domestic corruption.\16\ Popular 
support for anticorruption campaigns is high, and the Chinese 
press routinely publishes accounts of successful campaigns and 
new initiatives against corruption.
    The size of the problem, and the Chinese government's 
strategies for fighting it, can also be seen in the statistics 
published in the work reports of Party and state entities 
assigned to combat corruption. In March 2003, then-Procurator-
General Han Zhubin\17\ reported to the National People's 
Congress (NPC) that the procuratorate (China's prosecutorial 
agency) had investigated 207,103 cases involving embezzlement, 
bribery, and other crimes involving government officials.\18\ 
The procuratorate also prosecuted 84,395 employees of state-
owned enterprises for committing economic crimes and 554 
government employees who had formed corrupt liaisons with 
criminal gangs.\19\ At the end of March 2003, Chief Justice 
Xiao Yang boasted that the people's courts closed 99,306 cases 
of embezzlement and bribery and punished 83,308 corrupt 
officials in the same period.\20\ In April, Minister of 
Supervision Li Zhilun noted that between 1997 and 2001, 860,000 
corruption cases were filed against Communist Party members, 
resulting in 846,000 Party disciplinary actions and more than 
137,000 Party expulsions.\21\
    China's new political leaders have also addressed in public 
the problem of corruption. President Hu, for example, urged in 
early 2003 that former President Jiang Zemin's theory of the 
``Three Represents'' should be used as a guide to strike hard 
against corruption.\22\ And Party officials introduced measures 
in early 2003 
proposing new rules that prohibit cadres from intervening in 
bids for construction projects, transferring land-use rights 
for commercial purposes, or profiting from real estate business 
activities.\23\ Whether these measures are adopted and enforced 
remains to be seen, but the debate over their necessity 
illustrates the seriousness with which the Party takes the 
problems caused by official corruption.
    To address new kinds of corrupt behavior resulting from the 
market-oriented economic reforms of the 1990s, the NPC added a 
substantial group of ``economic and financial crimes'' to the 
revised Criminal Law in 1997. These offenses include 
embezzlement,\24\ misappropriation of public funds,\25\ 
extortion,\26\ bribery,\27\ illegal gains,\28\ smuggling,\29\ 
and obstruction of tax collection and enforcement.\30\ The 
investigation and enforcement of this new list of ``white 
collar crimes'' are duties of the Ministry of Supervision, the 
Supreme People's Procuratorate and the Ministry of Public 
Security.
    The extensive apparatus designed to combat corruption 
suffers, however, from a fatal flaw: the lack of an institution 
with the distinct political authority and legal jurisdiction to 
police the Party itself. While the structure laid out in the 
Party constitution seems to set up a system of local and 
provincial party congresses electing the members of the 
congresses higher up, in fact control of those in power at each 
level is in the hands of the next higher unit.\31\ The whole 
structure is operated according to the principle of 
``democratic centralism,'' \32\ so that power and supervision 
flow from the top down rather than from the bottom up. As in 
the Soviet Union, this structure rules out effective outside 
supervision of Party activities.
    For the Communist Party, the most important instrument for 
controlling corruption lies outside the criminal justice 
system. The Central Discipline and Inspection Commission 
(CDIC), which serves the Party's Central Committee, was created 
to check unacceptable behavior and breaches of ``discipline'' 
by Party members, including graft and corruption. The CDIC's 
Work Report for 2002 urges that ``the Party should exercise 
self-discipline and be strict with its members,'' \33\ which 
reflects quite a different tone from that of the criminal anti-
corruption provisions.
    Party leaders seem to put great faith in the CDIC as the 
best method of overcoming corruption and restoring the faith of 
the Chinese people in the Party's rectitude. The CDIC's very 
existence, however, has resulted in an entrenched system of 
unequal justice. Government agencies may not charge Party 
members with criminal violations without obtaining prior 
approval from the relevant Party committee. Even if the CDIC or 
its local branch seeks to refer a case to the procuratorate for 
criminal prosecution, the local committee must approve. As a 
result, corruption laws are applied differently to Party cadres 
and other defendants. The case of Tao Siju, former Minister of 
Public Security, who was implicated in a high-profile smuggling 
case in Xiamen, provides an example of a case in which a high-
level Party leader was treated with lenience while his co-
conspirators and underlings received the draconian penalties 
prescribed in the 1997 revision of the Criminal Law.\34\
    This case, and many others like it, suggest that the 
frenetic succession of state and Party anti-corruption 
campaigns cannot solve the problem of corruption in China. The 
Party's monopoly on power, its reluctance to open itself up to 
the scrutiny of a critical media, its inclination to try to 
hide high-level corruption that might undermine popular faith 
in the Party and thus social stability, and its refusal to 
submit to equal legal liability for crimes of corruption have 
created an environment in which corruption can thrive. These 
conditions have allowed the CDIC itself, designed as a tool to 
purify the party, to be used as a political weapon in intra-
Party intrigues.

              III. Monitoring Compliance With Human Rights

    The Commission's Executive Branch members have participated 
in and supported the work of the Commission, including the 
preparation of this report. However, the views and recommen- 
dations expressed in the report do not necessarily reflect the 
views of individual Executive Branch members or the Administration.

           III(a) Rights of Criminal Suspects and Defendants


                                FINDINGS


        <bullet> The Chinese government continues to detain and 
        imprison Chinese citizens for peacefully exercising 
        their rights to freedom of expression, association, and 
        belief in violation of China's own Constitution and 
        laws, as well as international human rights norms and 
        standards.
        <bullet> Chinese prosecutors frequently charge persons 
        engaged in such nonviolent conduct with crimes of 
        endangering state security, including subversion or 
        incitement to subvert state power, and often invoke 
        ``protection of state secrets'' to deny defendants an 
        open trial and access to legal counsel.
        <bullet> Chinese authorities routinely ignore Chinese 
        domestic law, or exploit loopholes in it, to detain 
        suspects and defendants both before and after trial for 
        periods greater than Chinese law and international 
        human rights norms and standards permit.
        <bullet> Spirited public discussion is taking place in 
        China on a wide range of criminal justice issues, 
        including such topics as the death penalty and whether 
        China should adopt a bail system.

China's Strike-Hard Anti-Crime Campaign
    Detailed information about the treatment of suspects and 
defendants at all stages of China's opaque criminal justice 
process (and administrative detention process) is limited. 
Nevertheless, some sense of the size of China's criminal 
justice system may be gleaned from government announcements 
about periodic anti-crime campaigns and government-published 
statistics.
    China's current ``strike hard'' campaign against crime, 
launched in April 2001, continued unabated over the past year. 
``Strike hard'' campaigns have been associated with harsh anti-
crime tactics, violations of criminal procedure, and wrongful 
convictions.\35\ In June 2003, President Hu Jintao praised the 
``remarkable successes'' achieved in the campaign and stressed 
the importance of continued vigilance in cracking down on 
crime. From 1998 through the end of 2002, Chinese courts tried 
2.83 million criminal cases, a 16 percent increase over the 
previous 5-year period, and sentenced 3.22 million defendants, 
an 18 percent increase. More than 800,000 defendants, or 
approximately 25 percent of the total, received penalties 
ranging from at least 5 years in prison to the death 
sentence.\36\ According to official Chinese statistics, the 
conviction rate during this period was approximately 99 
percent.\37\
    In 2003, China's criminal code included 65 capital 
offenses, including financial crimes such as counterfeiting 
currency, embezzlement, and corruption.\38\ The Chinese 
government does not disclose the number of death sentences 
carried out each year because it considers the number to be a 
state secret. Outside estimates of the number of executions in 
China range from 4,000 to more than 15,000.\39\ Convicted 
criminals are often executed after summary trials with no 
opportunity for appeal.

Political Crimes
    Although the Chinese Constitution recognizes the rights to 
freedom of assembly, expression, and association,\40\ the 
Chinese government continues to routinely detain and arrest 
individuals for engaging in the nonviolent expression of these 
rights. Chinese law enforcement and security authorities often 
charge these individuals with crimes of ``endangering state 
security,'' such as ``subversion'' or ``incitement to 
subversion,'' or in the case of Tibetans and Uighurs, 
``inciting splittism.'' As detailed below, Chinese government 
authorities use these vague crimes to detain and charge 
individuals whose conduct they find threatening.\41\ Chinese 
citizens who lead peaceful labor protests, form political 
parties, or post articles on the Internet that relate to 
political reform have been convicted of subversion.
    According to Han Zhubin, the former head of the Supreme 
People's Procuratorate, the procuratorate has made a priority 
of cracking down on crimes threatening state security in recent 
years. From 1998 through the end of 2002, procurators approved 
the arrest of 3,402 criminal suspects and prosecuted 3,550 
individuals on charges of crimes of threatening state 
security.\42\ These statistics do not include political 
dissidents in administrative detention or psychiatric 
facilities and also exclude arrests and prosecutions for 
contravening laws and regulations against ``heretical sects'' 
(e.g., Falun Gong).\43\ In 2001 and 2002, intermediate-level 
courts tried more than 1,600 people for endangering state 
security.\44\ According to John Kamm of the Dui Hua Foundation, 
a U.S. NGO, ``the great majority of cases of endangering state 
security for which we have information involve non-violent 
expression and association.'' \45\
    In the most notable subversion cases over the past 12 
months:

        <bullet> A court in Liaoyang Province convicted Yao 
        Fuxin and Xiao Yunliang of subversion in May 2003 for 
        leading the Liaoyang labor protests in 2002, and 
        sentenced them to 7 and 4 years of imprisonment, 
        respectively. The two men were detained for 
        approximately 10 months before trial. The Liaoning 
        Higher People's Court rejected their appeals in mid-
        2003.
        <bullet> A court in Chengdu, Sichuan Province, 
        convicted Huang Qi, an Internet entrepreneur and 
        activist, of incitement to subvert state power in May 
        2003 for his alleged involvement with politically 
        sensitive postings on a Web site that he had developed, 
        www.6-4tianwang.com (now defunct). Huang was sentenced 
        to 5 years imprisonment, and his appeal is pending.
        <bullet> Four members of a discussion group--Xu Wei, 
        Jin Haike, Yang Zili, and Zhang Honghai--were detained 
        in March 2001 and tried in September 2001 for 
        subversion. They posted articles on the Internet 
        expressing concern over current events and social 
        conditions. In May 2003, a court found them guilty, 
        sentencing Xu and Jin to 10 years in prison, and Yang 
        and Zhang to 8 years each.
        <bullet> A court found lawyer Zhao Changqing guilty of 
        incitement to subvert state power and sentenced him to 
        5 years imprisonment in a secret trial in July 
        2003.\46\ Zhao had been detained since November 2002 
        after he drafted an open letter to the 16th Party 
        Congress that was signed by 192 activists from 17 
        provinces. The letter made several political demands, 
        including the release of all political prisoners and a 
        reassessment of the 1989 democracy movement. Public 
        security officials had taken at least six other 
        signatories of the letter into custody by the end of 
        2002.\47\ Human Rights in China, a U.S. NGO, has 
        submitted a petition on Zhao's behalf to the UN Working 
        Group on Arbitrary Detention.
        <bullet> Authorities detained Liu Di, a student and 
        Internet activist, in November 2002. In December, she 
        was arrested under suspicion of incitement to subvert 
        state power. Liu was accused of posting essays on the 
        Internet criticizing government Internet restrictions 
        and expressing sympathy for fellow Internet activist 
        Huang Qi. Human Rights in China also has submitted a 
        petition on her behalf to the UN Working Group on 
        Arbitrary Detention.

    Prosecutors also often charge political activists and 
members of religious and spiritual groups such as Falun Gong 
with nonpolitical crimes. Prosecutors have relied on charges of 
``disturbing the public order'' to arrest and try thousands of 
adherents to unauthorized religions or spiritual movements. 
Fang Jue, a former official and prominent advocate of political 
reform, spent 4 years in prison for allegedly committing 
economic crimes. Labor leaders are often charged with 
``disturbing the public order'' or ``organizing an illegal 
procession.'' \48\
    The Chinese government has also taken advantage of the 
global war on terrorism to persecute both Uighurs in 
northwestern China and political dissidents. In February 2003, 
Wang Bingzhang, a U.S. permanent resident and veteran pro-
democracy activist, was convicted of ``leading a terrorism 
organization'' and ``spying'' and sentenced to life 
imprisonment. The Guangdong Higher People's Court rejected his 
appeal. In June 2003, the Chinese government accused two 
overseas dissidents of ``violent terrorist activities'' 
relating to an alleged plot to drop thousands of pro-democracy 
leaflets over Tiananmen Square and the Beijing airport via 
remote-controlled balloons.
    Courts rarely acquit defendants charged with political 
crimes (or those charged with nonpolitical crimes to punish 
political activities). As John Kamm notes, ``prosecutions in 
[endangering state security] cases almost always result in 
convictions, and parole and sentence reduction for prisoners 
convicted of endangering state security are rarely handed out.'' \49\ 
The number of individuals serving time in Chinese prisons for 
political crimes is higher today than at any time since the end 
of 1992.\50\
    Moreover, prospects are poor for criminal defendants who 
appeal their convictions. Lower courts often seek guidance from 
higher courts regarding legal issues in cases before them.\51\ 
Consequently, many judgments made in the lower courts reflect 
the views of the appellate judges, making success at the 
appellate level much less likely. Defendants in politically 
sensitive cases have little hope of a favorable result on 
appeal.

Arbitrary Detention in the Criminal Process
    According to official Chinese statistics on cases from 1998 
through 2002, law enforcement authorities detained 308,182 
people for periods longer than permitted under Chinese law.\52\ 
In contravention of international human rights norms and 
standards, Chinese law does not give detained individuals the 
right to be brought promptly before a judge or to challenge the 
lawfulness of their detention and arrest.\53\ Recognizing that 
unlawful custodial detention has generated significant public 
anger in China, the Supreme People's Procuratorate recently 
established two hotlines and an e-mail address for public complaints 
about such unlawful detentions.\54\ In addition, the National People's 
Congress (NPC) is reportedly reviewing proposals to strengthen 
laws designed to prevent extended detention.\55\

            Pre-trial detention
    Law enforcement authorities often hold criminal suspects 
and defendants in pre-trial detention for periods exceeding 
those permitted by both Chinese law and international human 
rights norms and standards. The International Covenant on Civil 
and Political Rights (ICCPR) provides that ``it shall not be 
the general rule that persons awaiting trial shall be detained 
in custody,'' yet pre-trial detention in China is the norm. 
Judges rarely grant petitions from defense lawyers seeking to 
``obtain a guarantor pending trial'' (qubao houshen), a type of 
non-custodial detention.\56\ Detainees routinely languish in 
detention centers for as long as a year, and sometimes longer, 
before a court formally charges and tries them.
    The case of pro-democracy activist Yang Jianli, a U.S. 
permanent resident, provides an egregious recent example of 
unlawful pre-trial detention. In April 2002, Yang traveled to 
China using a borrowed passport and false identity documents to 
interview and lend support to striking workers in northeast 
China. Public security officials took Yang into custody and 
held him incommunicado for more than 14 months. Yang was 
indicted for illegal entry into China and espionage in July 
2003. Chinese authorities have refused to permit family members 
to visit or correspond with him. Moreover, Chinese officials 
refused his lawyer's repeated requests to meet with him until 
July 2003, more than a year after his detention. In June 2003, 
the UN Working Group on Arbitrary Detention concluded that the 
Chinese government's detention of Yang was arbitrary and 
violated international law.\57\ Yang was tried in secret on 
August 4. No verdict was issued after the 3-hour trial. Yang's 
brother and sister traveled to Beijing for the trial but were 
barred from the court.\58\

            Post-trial detention
    Authorities in China frequently detain defendants for long 
periods after trial while awaiting judgment, particularly in 
``sensitive cases.'' The PRC Criminal Procedure Law (CPL) 
provides that courts must pronounce the judgment no later than 
2\1/2\ months after accepting a case of public prosecution.\59\ 
Internet activist Huang Qi spent nearly 2 years in detention 
awaiting the court's verdict in his case. Tried for subversion 
in September 2001, Internet activists Xu Wei, Yang Zili, Jin 
Haike, and Zhang Honghai 
remained in custody for more than 18 months awaiting their 
verdicts.\60\ Authorities in Liaoyang Province held labor 
protest leaders Yao Fuxin and Xiao Yunliang after their trial 
in contravention of the CPL. They were tried in mid-January 
2003, but did not learn of their verdict until early May 2003. 
The Chinese government is currently holding criminal defense 
lawyer Zhang Jianzhong in violation of the CPL. Seven months 
after Zhang's trial in February 2003, the Beijing Intermediate 
People's Court has yet to render a verdict in the case.

            Disappearances
    Public security and law enforcement authorities 
periodically 
detain dissidents before significant public anniversaries or 
meetings, such as the 16th Party Congress held in November 
2002. For example, the sister of democracy activist Fang Jue 
reported him missing in early November 2002, just before the 
Party Congress began. Authorities held Fang incommunicado, 
without charging him with a crime, until they expelled him from 
China in January 2003. Fang believes that he is the first 
Chinese citizen arrested and expelled from China without a 
trial or any other legal process.\61\
    Democracy activist Wang Bingzhang was missing for 6 months 
before Chinese government authorities admitted in December 2002 
that they had arrested him on terrorism and spying charges. 
Public security authorities apparently detained Wang and two 
other expatriate dissidents who were traveling with him for 6 
months but denied any knowledge of their whereabouts. After being 
released, the two dissidents traveling with Wang claimed that 
Chinese agents abducted the three in Vietnam in June 2002 and 
forcibly took them into China, where they were held 
incommunicado. Wang subsequently was convicted of terrorism and 
espionage and is currently serving a life sentence. In July 
2003, the UN Working Group on Arbitrary Detention declared that 
Wang's arrest and imprisonment violated international law.

Administrative Detention
    Public security officials have the power to send 
individuals to ``re-education through labor'' (laojiao) for 
terms of up to 3 years, with the possibility of a 1-year 
extension, subject to only minimal judicial checks that are 
rarely invoked in practice.\62\ Police also have the power to 
commit drug users to detoxification centers and re-education 
centers.\63\
    Although routine, these forms of detention, which are 
carried out pursuant to administrative regulations, violate 
China's Constitution and law, as well as international human 
rights norms and standards that require prompt judicial review 
for detainees.\64\ Such unfettered police power can have 
disastrous consequences for others besides the detainee. In 
mid-2003, a 3-year-old girl named Li Siyi died alone at home of 
thirst or starvation when public security officials sent her 
mother--her only caregiver--to a detoxification center to serve 
a 3-month sentence. The mother pleaded with the authorities to 
help find someone to care for her child, but her pleas went 
unheeded.\65\
    Law enforcement authorities also have the power to commit 
individuals to psychiatric facilities called  ankang  (``Peace 
and Health''). Although  ankang  are intended for the custody 
and treatment of severely mentally ill offenders, they have 
also been used to detain individuals who are mentally sound, 
but have somehow run afoul of persons in power. The courts have 
no visible role in the process of committing offenders to  
ankang.\66\ One of the three main types of individuals whom 
police commit to ankang are ``political maniacs'' (zhengzhi 
fengzi), a category that includes those who ``shout reactionary 
slogans, write reactionary banners and reactionary letters, 
make anti-government speeches in public, and express opinions 
on important domestic and international affairs.'' \67\ This 
category can easily be applied to mentally stable individuals 
who simply express dissenting political views. Veteran human 
rights activist Wang Wanxing remains detained in an ankang 
center in Beijing for attempting in June 1992 to unfurl a 
banner in Tiananmen Square to commemorate the third anniversary 
of the 1989 Tiananmen crackdown.\68\ In 2001, the UN Working 
Group on Arbitrary Detention concluded that the Chinese 
government had detained Wang arbitrarily after he peacefully 
expressed his right to freedom of opinion and expression.\69\ 
Authorities have reportedly detained hundreds of Falun Gong 
practitioners, whom they have found to be suffering from ``evil 
cult-induced mental disorders,'' in mental asylums and ankang 
facilities throughout the country.\70\ According to some 
reports, thousands of Falun Gong practitioners have also been 
sentenced to re-education through labor.\71\
    Until June 2003, public security officials also had the 
power to detain anyone lacking an identification card, 
temporary residence permit, or work permit under a 1982 
regulation entitled ``Measures for the Custody and Repatriation 
of Vagrant Beggars in Cities.'' \72\ Exiled activist Tong Yi 
testified before a Commission roundtable in June 2003 that 
official mistreatment of detainees was rampant in the more than 
800 custody and repatriation centers in China.\73\ Controversy 
over the regulation boiled over in the spring of 2003, after 
the Shenzhen newspaper Southern Metropolitan Daily revealed 
that a university graduate student named Sun Zhigang had been 
mistakenly detained under the regulations and beaten to death 
while in custody.\74\ In response to public pressure, which 
included legal petitions [see Section V(e)], the State Council 
repealed the custody and repatriation regulation and issued a 
new regulation entitled ``Measures on the Administration of Aid 
to Indigent Vagrants and Beggars in Cities.'' \75\ The new 
regulation authorizes the Ministry of Civil Affairs, rather 
than the Ministry of Public Security, to manage shelters that 
are intended to provide temporary assistance to indigent 
vagrants and beggars. The regulation outlaws forced detention 
and labor, extortion, and other abuses, and requires local 
governments to fund the shelters.\76\ While many outside China 
welcome this positive reform, some have noted that the 
government designed the original 1982 vagrancy regulation as a 
``welfare'' measure. The success of the new measure will depend 
on the effectiveness and thoroughness of its implementation.

Access to Counsel
    Only about one in three criminal defendants in China has 
legal representation.\77\ The Chinese government often deprives 
defendants in political cases of their legal right to counsel. 
The Yang Jianli case illustrates the lengths the Chinese 
authorities often will go to deny a criminal suspect the right 
to counsel. In violation of Chinese law, public security 
authorities never issued a written notification of detention to 
Yang's family. Because defense lawyers often require a 
detention notice before they will accept a case, this official 
misconduct prevented Yang's family from hiring counsel for him 
until February 2003.\78\ Law enforcement authorities repeatedly 
denied the requests of Yang's lawyer to see his client on the 
grounds that the case involved state secrets.\79\ Under the 
CPL, if a case involves state secrets, a lawyer must obtain 
approval from the investigating authorities before meeting with 
his or her client.\80\ Thus, invoking the state secrets 
provision provides officials with a convenient method to deny 
suspects and defendants access to legal counsel without 
independent review by a judge. In the case of Yang Jianli, the 
authorities acquiesced to an initial meeting between the lawyer 
and Yang just 1 month before the trial.
    Chinese criminal defense attorneys may face intimidation, 
harassment, or prosecution if they offend procurators or other 
government authorities while vigorously defending a client in a 
sensitive case.\81\ More than 100 lawyers have been prosecuted 
since 1997 under Article 306 of the criminal law for 
``perjury'' or ``evidence fabrication by lawyers.'' \82\ Zhang 
Jianzhong, one of the best-known criminal defense lawyers in 
China, was detained on Article 306 charges, but prosecuted 
under Article 307, a general perjury and evidence fabrication 
provision.\83\ This intimidation has had serious consequences 
for the criminal justice system and the rights of criminal 
defendants. As the Commission noted in a May 2003 topic paper, 
the percentage of criminal cases in which defendants have legal 
representation has declined in recent years, in part because 
lawyers consider criminal defense to be high-risk work.
    Lawyers specializing in criminal defense cases are not the 
only advocates that the public security authorities persecute. 
Any lawyer who takes up a cause deemed ``sensitive'' runs the 
risk of official harassment and sometimes prosecution. In 
August 2003, Shanghai authorities formally tried Zheng Enchong, 
a lawyer who had been assisting displaced families affected by 
redevelopment projects, on charges of ``stealing state 
secrets.'' \84\ The verdict in Zheng's case had not been 
announced as of late September 2003. In July 2003, the 
International Commission of Jurists, an international lawyers 
group, wrote the Chinese government to condemn Zheng's arrest 
and detention as well as a 2001 government decision to revoke 
his law license.\85\

Torture and Abuse in Custody
    Even though Chinese law prohibits the use of torture to 
obtain confessions, the use of electric shock, beatings, sleep 
deprivation, mental abuse, and other forms of torture remains 
widespread in China, chiefly during the investigative stage of 
the criminal process.\86\ Senior Chinese officials recognize 
that torture and coerced confessions corrupt the criminal 
justice system and undermine legitimate law enforcement goals, 
but the government has taken few practical steps to address 
this chronic problem. Former detainees report numerous 
instances of torture and other forms of abuse in detention 
centers and prisons.\87\ Internet activist Xu Wei, who was 
sentenced in May 2003 to 10 years in prison, complained to the 
court that he had been beaten in custody and tortured with 
electric shock to his genitals, causing long-term numbness in 
his lower body.\88\ Longstanding allegations of rampant abuse 
and ill-treatment in custody and repatriation centers were 
confirmed in 2003 after the beating death of Sun Zhigang in a 
custody and repatriation center in Guangzhou.\89\
    Since the official repression of the Falun Gong movement 
began in 1999, Falun Gong organizations outside China have 
reported several hundred deaths of practitioners in Chinese 
custody as a result of torture, abuse and neglect.\90\ Zhao 
Ming, a Falun Gong practitioner, reported that he was punched, 
beaten with electric batons, and deprived of sleep while being 
held in a re-education through labor camp in Beijing from June 
2000 to March 2002.\91\ In March 2003, a court in Yangzhou 
city, Jiangsu Province, sentenced Charles Li, a U.S. citizen 
and Falun Gong practitioner, to 3 years in prison for 
attempting to sabotage state-controlled television broadcast 
facilities. Mr. Li admitted the basic facts as alleged by the 
prosecutor, but he denied that he had intended to do harm or 
commit sabotage. Credible reports suggest that prison 
authorities have subjected Mr. Li to both mental and physical 
abuse due to his Falun Gong beliefs.
    Since the 1980s, numerous credible foreign press accounts 
have detailed the practice of state-sanctioned removal and sale 
of the internal organs of executed prisoners. For example, an 
article in the Observer in 2000 described how hundreds of 
foreign patients with kidney diseases traveled to dilapidated 
hospitals in Chongqing in hopes of a kidney transplant.\92\ 
Sources quoted in the article said they were told explicitly 
that the kidneys would come from executed prisoners. A June 
2000 article in the International Herald Tribune reported that 
the travel of patients from one Southeast Asian country to 
China resulted from a 1998 visit of doctors from a military 
hospital in Chongqing. The doctors spoke to potential 
transplant recipients about prices and procedures for going to 
China for a transplant.\93\
    Reports on this topic are unusual in the Chinese press, but 
one expose, ``Where Did My Brother's Body Go,'' appeared in a 
small paper in Jiangxi Province in 2001, and subsequently also 
appeared on the Web site of the People's Daily.\94\ The article 
described a woman's plan to sue the government for selling her 
brother's organs without his permission. The brother had been 
executed for criminal offenses. Yao Xiaohong, the author of the 
article, was subsequently fired for violating ``editorial 
rules.'' \95\ Many wondered how this article found its way onto 
the official paper's Web site, but an unnamed Chinese 
journalist explained to a Western journalist that ``there are 
people who are against this practice. . . . Sometimes in China, 
things sneak through the cracks.'' \96\ In August 2003, the 
Standing Committee of the Shenzhen People's Congress passed 
China's first regulations on organ transplants, but the new 
regulations do not specifically govern transplants of organs 
from executed prisoners.\97\

Public Trials
    Although the Criminal Procedure Law requires that trials be 
held in public, courts frequently ignore this requirement, 
particularly in politically sensitive cases.\98\ The CPL 
permits some exceptions, notably in cases involving state 
secrets. Wang Bingzhang's trial was conducted in secret under 
the state secrets exception. U.S. consular officials requested 
permission to attend Wang's appeal hearing, but the court 
denied the request. The courts also tried Tibetans Tenzin Deleg 
and Lobsang Dondrub in secret, and restricted attendance at the 
trials of both Zhang Jianzhong and Zheng Enchong.\99\ Yang 
Jianli's trial was held behind closed doors because it also 
purportedly involved state secrets. The Chinese government 
denied a request from the U.S. Embassy to observe the 
trial.\100\
    Authorities put Yang Bin, a Dutch orchid tycoon born in 
China, on trial in Shenyang on fraud and bribery charges in 
early 2003. The court granted a handful of his relatives and 
employees permission to attend the hearing, but court officials 
ordered court employees to stay away.\101\ The authorities 
permitted a Dutch consular official to attend the trial, 
apparently pursuant to a bilateral consular convention 
permitting consular officials to attend trials involving Dutch 
citizens.\102\ Chinese courts permitted U.S. consular officials 
to attend the trial and appeal hearing in a recent case 
involving Charles Li. The courts likely cooperated because the 
U.S.-PRC Consular Convention requires both countries to permit 
consular officers to attend trials or other legal proceedings 
involving defendants who are nationals of the other 
country.\103\

Public Discussion and Debate About Criminal Justice Issues
    Spirited debates about some criminal justice issues are 
taking place in China today. In December 2002, for example, the 
Institute of Law at the Chinese Academy of Social Sciences, the 
Danish Institute of Human Rights, and Xiangtan University 
jointly sponsored a conference on the death penalty at Xiangtan 
University in Hunan Province. Chinese scholars participating in 
the conference presented a range of positions and arguments, 
from limiting the death penalty to outright abolition.\104\ 
According to a report of an interview with Tian Wenchang, among 
China's most well-known criminal defense lawyers, arguments in 
favor of reducing the number of executions have also been heard 
in government circles.\105\ The newspaper Southern Weekend 
published an in-depth report about the conference, thereby 
moving the debate about capital punishment from academic 
circles into the public domain. The issue was reportedly hotly 
debated in Internet chat rooms.\106\
    In March 2003, the Great Britain-China Center, the Renmin 
University Law School Criminal Procedure Center, and the 
Dongcheng District Procuratorate of Beijing jointly sponsored a 
conference on bail reform at which more than 100 participants 
discussed the similarities and differences between the British 
system of bail and China's practice of ``obtaining a guarantor 
pending trial'' (qubao houshen). Participants included not only 
prominent criminal procedure scholars and well-known criminal 
defense lawyers but also officials from the Supreme People's 
Procuratorate and lower-level procuratorates, the Supreme 
People's Court, the Legislative Affairs Commission of the NPC 
Standing Committee, and the State Council's Office of 
Legislative Affairs.\107\ According to press accounts, the 
conference began by examining the problem of illegal prolonged 
detention as well as the high rate of pre-trial detention in 
China.\108\
    In September 2003, the American Bar Association Asia Law 
Initiative, in cooperation with the All China Lawyers 
Association, sponsored a Beijing conference on the role of 
criminal defense lawyers. The conference included lawyers, 
academic experts, judges, and law enforcement officials from 
both the United States and China, and addressed a range of 
topics related to criminal defense.

      III(b) Protection of Internationally-Recognized Labor Rights


                                FINDINGS


        <bullet> China's poor record in protecting the 
        internationally-recognized rights of its own workers 
        has not changed significantly in the past year.
        <bullet> Workplace health and safety is poor in many 
        Chinese workplaces. Fatalities among mine workers are 
        especially high. 
        Although China now has better laws to improve health 
        and safety standards, government authorities lack the 
        will or capacity to enforce the law.
        <bullet> Restrictions on the ability of Chinese workers 
        to form and join independent trade unions limit 
        workers' ability to assert not only their 
        internationally recognized labor rights but also their 
        rights under China's Constitution and laws.

Overview
    The Commission's 2002 Annual Report found working 
conditions and respect for basic, internationally recognized 
worker rights in China to be well below international norms in 
numerous respects. It also found that working conditions and 
respect for worker rights in China were frequently in violation 
of China's own laws, especially those governing wages and 
overtime pay, work hours and overtime hours, and workplace 
health and safety. Over the last year, these conditions have 
remained largely unchanged.
    The Chinese government continues to deny its citizens the 
right to freely organize and to bargain collectively and 
continues to 
imprison labor leaders and actively suppress efforts of workers 
to represent their own interests. Worker unrest continued in 
2003, often in association with the closing of state-owned 
enterprises. Although no reports reached Western news media 
about massive worker demonstrations of the scale that occurred 
in northeast China in 2002, numerous reports in 2003 described 
smaller-scale protests by workers whose rights were ignored by 
management at collapsing state-owned companies. The government 
suppressed these protests with the same techniques used in 
northeast China in 2002. In addition, the Chinese government 
continues state-sanctioned discrimination against migrant 
workers and practices forced and prison labor. Child labor 
continues to be a significant problem in China.

International Labor Organization
    Through the International Labor Organization (ILO), of 
which China is a member, most nations of the world have 
acknowledged the existence of a basic floor of international 
standards for the rights of workers--the rights to associate 
and to bargain collectively, elimination of forced labor, 
effective abolition of child labor, and nondiscrimination. The 
ILO's Declaration on Fundamental Principles and Rights at Work 
re-affirms the commitment of ILO Members to those basic rights.
    Guidance on the full scope of the rights and principles 
enumerated in the Declaration is provided by the ILO's eight 
core conventions.\109\ Many countries, including the United 
States, have not ratified all of the ILO's core conventions, 
but the Declaration states, ``even if they have not ratified 
the [ILO] Conventions . . . [ILO Members] have an obligation 
arising from the very fact of membership in the Organization to 
respect, to promote and to realize, in good faith and in 
accordance with the Constitution, the principles concerning the 
fundamental rights which are the subject of those 
Conventions.''
    With the exception of the ILO provisions relating to 
freedom of association and collective bargaining, Chinese labor 
law generally incorporates the basic obligations from the ILO's 
eight core conventions. The Chinese government's failure to 
enforce existing laws, however, makes this incorporation 
largely irrelevant when considering actual working conditions 
in China.

Freedom of Association and Collective Bargaining
    The Chinese government denies its citizens the freedom to 
associate and forbids them from forming independent trade 
unions. The government has made no progress in the past year 
toward respecting this right, and continues to use the All-
China Federation of Trade Unions (ACFTU) as a tool of Communist 
Party control of union activity. China continues the practice 
of imprisoning labor leaders as a means of repressing 
independent labor activity.
    The inability of Chinese workers to organize independent 
labor unions prevents them from defending their own interests. 
For working conditions in China to improve significantly, 
workers require greater freedom of association in law and in 
practice. In the short term, however, greater awareness by 
Chinese workers of the limited rights already available to them 
could yield some workplace improvements.
    Workers and labor experts in China and elsewhere recognize 
that the ACFTU, the only legal labor organization in China, is 
ineffective as a voice for worker rights. Article 11 of China's 
Trade Union Law states that all basic level unions must be 
approved by the next higher level of union, ensuring state 
control of any locally-formed worker organizations. In 
testimony at a July 2003 Commission roundtable, Phil Fishman of 
the AFL-CIO stated that ``. . . institutionally the ACFTU is a 
creature of the Chinese state and Communist Party and is 
obligated by its own rules to act as a transmission belt for 
Party and state policy.'' \110\
    Chinese workers are generally unaware of the limited rights 
to organize already available to them. These rights are 
contained in the Trade Union Law but are implicit rather than 
explicit. The law requires all worker organizations to 
affiliate with the ACFTU, but does not state explicitly that 
the ACFTU must be involved in the establishment of new 
unions.\111\ This allows, in theory, for workers to organize a 
union chapter and then seek affiliation. This has not, however, 
happened to date, and would likely be very difficult in 
practice.
    Han Dongfang, Director of the China Labour Bulletin, a Hong 
Kong-based publication, testified to a November 2002 Commission 
roundtable that government efforts to improve workplace safety 
had been ineffective due to a lack of worker involvement. Han 
added that a new workplace safety law (effective November 1, 
2002) calls for workers to be involved in workplace safety, 
which suggests the possibility of workers organizing for 
specific purposes.\112\
    Similarly, at an April 2003 Commission roundtable, Doug 
Cahn, Vice President for Human Rights Programs at Reebok 
International, Ltd., described Reebok-facilitated elections for 
worker representatives at two Chinese factories.\113\ Cahn 
described the elections as free, open and fair, and consonant 
with Chinese labor law. These elections suggest that existing 
Chinese law may be sufficiently flexible to allow workers to 
select their own leaders in some circumstances, notwithstanding 
legal limits on the creation of independent labor unions. Cahn 
also indicated that it is too early to predict whether the 
Reebok elections will affect the workers' ability to assert 
their rights in the future. Without training for elected 
leaders on how to represent workers' rights and claims, these 
organizations are unlikely to drive significant change. 
Moreover, given the practical limitations on establishing 
independent worker organizations, the elections sponsored by 
Reebok may be seen as a small but positive step forward, but 
they do not represent a significant advancement of freedom of 
association in China. Without independent labor unions and the 
ability of workers to organize freely and represent themselves, 
collective bargaining cannot truly be said to exist in China.
    Legal action against workers who attempted to establish 
independent worker organizations continued over the past year. 
In May 2003, a court in Liaoyang, Liaoning Province convicted 
labor protest leaders Yao Fuxin and Xiao Yunliang of subversion 
and sentenced them to 4 and 7 years in prison respectively. The 
pair led peaceful protests in Liaoyang during March 2002 and 
were detained before trial for almost a year. In June 2003, 
their appeal of the convictions was denied. Neither family was 
notified of the appeal proceedings, nor were their lawyers 
present.

Working Conditions
    Over the past year, generally poor working conditions in 
Chinese factories have not changed significantly. Amidst rising 
concern in the United States about the loss of U.S. 
manufacturing jobs to China, the ability of Chinese employers 
to avoid the expense of meeting international labor standards 
has continued to be a factor in China's competitive advantage.

Workplace Health and Safety
    Poor to non-existent enforcement of existing regulations, 
rather than a lack of adequate legal provisions, is the 
determining factor behind China's unsafe workplaces. Mines 
continued to be the most hazardous of China's many dangerous 
workplaces. In a meeting with officials of the Department of 
Labor's International Labor Affairs Bureau (ILAB) in August 
2003, officials of China's State Administration for Work Safety 
indicated that 6,995 Chinese miners died on the job in 2002. At 
a Commission roundtable held in November 2002, Han Dongfang of 
the China Labour Bulletin cited Hong Kong press reports that 
100,000 Chinese workers died in Chinese workplaces between 
January and September 2002.\114\
    Government bodies do not enforce existing safety 
regulations in most Chinese workplaces, meaning that many 
Chinese-made products purchased in the United States are 
produced under conditions that would be unacceptable to most 
Americans. Discussing a new health and safety law and the 
chemical handling directives that went into effect in November 
2002, labor scholar Trini Leung told a Commission roundtable 
that, ``This law is the culmination of over a decade of efforts 
and resources . . . [and] 1 week into its effective date, it's 
not too early to announce that this statute will, just like 
hundreds of other laws in China . . . become another 
meaningless document sitting on the shelf while violations go 
from bad to worse.'' \115\

Wages and Working Hours
    In much of China, particularly in the export-producing 
areas of southern China, workers continue to work hours well in 
excess of legal limits, and for wages that are frequently not 
calculated according to law. According to Chinese labor law, 
the regular workweek is limited to 8 hours per day, 5 days per 
week (40 hours).\116\ Overtime is limited to 3 hours per day 
and 36 hours per month unless special permission is sought and 
certain conditions met. Overtime on regular workdays is to be 
paid at 150 percent of base pay (time and a half), 200 percent 
on weekends (double time), and 300 percent on national holidays 
(triple time).\117\ Numerous conversations between Commission 
staff and Chinese, Hong Kong and U.S. NGOs involved with labor 
issues, as well as with U.S. and European companies, indicate 
general agreement that workers in China are frequently required 
to work in excess of legally allowed overtime, and that 
overtime pay is frequently calculated at the same rate as work 
performed during regular work hours, rather than at mandated 
premium rates.
    Codes of conduct adopted by most U.S. companies require 
workweeks not to exceed 60 hours per week, including overtime. 
Although this 60-hour workweek exceeds China's legal limits, 
many companies report significant difficulty in persuading 
their suppliers to adhere even to this standard.

Prison and Forced Labor
    Working conditions in many privately owned Chinese 
factories are such that workers cannot refuse overtime, but 
observers disagree whether this practice meets the definition 
of forced labor. However, forced labor in other forms is common 
in China. Called laojiao and laogai in Chinese (depending 
whether the prisoner is detained for ``re-education through 
labor'' by administrative means without trial or forced to 
engage in labor while serving a formal criminal sentence), 
forced labor is an integral part of China's prison system. As 
discussed in Section III(a), public security authorities have 
the power to place detainees in ``re-education through labor'' 
facilities without trial. Although laogai has been officially 
purged from the Chinese criminal code, China's criminal justice 
system continues to force convicted offenders to work in prison 
facilities. Unlike U.S. prisoners, Chinese prison laborers 
often cannot refuse to work, and work under conditions that 
violate China's own law and international labor standards.
    Section 307 of the Tariff Act of 1930 (10 U.S.C. Sec. 1307) 
prohibits the import of goods made by prisoners into the United 
States. To promote effective enforcement of Section 307, the 
United States-China Relations Act of 2000 created a ``Task 
Force on the Prohibition of Importation of Products of Forced 
or Prison Labor from the People's Republic of China.'' To date, 
the Task Force has been concerned principally with 
implementation of a 1992 U.S.-China Memorandum of 
Understanding, which allows U.S. Customs to request permission 
to visit Chinese prisons suspected of producing goods for the 
U.S. market. A 1994 bilateral Statement of Cooperation 
clarified procedures to be followed in requesting and making 
these inspections.
    After 1994, Chinese authorities stopped agreeing to 
inspection requests from U.S. Customs. However, the Chinese 
government agreed in mid-2002 to cooperate in clearing the 
backlog of old requests and allowed a visit to a site suspected 
of producing goods for the U.S. market in the mid-1990s. 
Although as a result of the lack of Chinese cooperation, 
several years had elapsed since the original allegation was 
made, U.S. Customs inspectors found no evidence that the 
facility had been producing for export to the United States, or 
that it had been used recently for production of any kind. 
Currently, the U.S. government counts a total of 18 outstanding 
requests for prison site visits, most of which were filed 
between 1995 and 2002. The integration of the U.S. Customs 
Service into the new Department of Homeland Security delayed 
efforts to continue the inspections process. The Task Force was 
not reconstituted until mid-2003.
    Goods made in Chinese prisons probably do not constitute a 
large percentage of overall Chinese imports into the United 
States. Whatever the scale of the problem, the model of 
enforcement set out by the 1992 Memorandum of Understanding is 
inadequate to address the questions raised by complaints. 
Enforcement of Section 307 currently depends on private 
individuals or organizations lodging complaints with U.S. 
Customs. A producer's competitors have the greatest motivation 
to lodge complaints, but they often lack credible evidence to 
support their allegations.

State-Owned Enterprises
    The collapse of China's state-owned enterprises continued 
during late 2002 and 2003. Between 1998 and 2002, an average of 
more than 6,000 companies in China went bankrupt each year, 
most of them state-owned enterprises.\118\ Shrinking employment 
rolls affect women disproportionately since managers tend to 
assume that unemployed women will be supported by their 
husbands, and therefore lay them off first. Significant worker 
unrest has grown out of the mass dismissals following these 
bankruptcies, but few details of these protests exist outside 
China. As a political party nominally constituted to represent 
and advance the interests of peasants and workers, the 
Communist Party views worker unrest with particular alarm.

Child Labor
    In the past, Chinese authorities generally denied that 
child labor was a significant problem. News media and private 
sources reported comparatively few incidents of workplace 
injury or fatalities involving children in 2003, although 
reliable information about the severity of the problem is 
difficult to obtain.
    New Chinese regulations on the employment of children took 
effect on December 1, 2002. The employment of children under 
the age of 16 is banned, with fines of up to 10,000 yuan for 
violations. The new regulations also require employers to check 
workers' identification cards, which may help prevent underage 
workers from being inadvertently hired in some factories.\119\ 
While the new regulations do not provide any significant or 
fundamental change in China's approach to preventing child 
labor, when combined with China's ratification on August 8, 
2002 of ILO Convention 182 on the Elimination of the Worst 
Forms of Child Labor,\120\ the new regulations may indicate 
that the problem of child labor is starting to be considered at 
the national level. However, like other labor problems in 
China, recognition at the national level rarely translates into 
full, or even partial, implementation at the local level.

                       III(c) Freedom of Religion


                                FINDINGS


        <bullet> Intolerance of free religious expression 
        continues in China. Scores of Christian, Muslim and 
        Tibetan Buddhist worshippers were arrested or detained 
        in 2003. Government authorities continue to repress 
        other spiritual groups, including the Falun Gong 
        spiritual movement, chiefly through the use of anti-
        cult laws.
        <bullet> Harassment and repression of Catholics 
        practicing their faith outside the officially 
        sanctioned church continue. No progress has been made 
        in normalizing relations between the Holy See and the 
        Chinese government.
        <bullet> Uighur Muslims in Xinjiang continue to suffer 
        harsh repression and restrictions on religious 
        activity, exacerbated by ongoing ``anti-splittism'' and 
        ``counter-terrorism'' campaigns in the region.
        <bullet> In Tibetan areas, official controls continue 
        to limit the practice of Tibetan Buddhism. Tibetan 
        lamas are perceived by government authorities to wield 
        significant influence in Tibetan communities and can 
        become the targets of government crackdowns. Despite 
        the central role of the Dalai Lama in Tibetan Buddhism, 
        Tibetans caught with images of him or copies of his 
        religious teachings may face abusive treatment, 
        including 
        arrest.

Overview
    China's Constitution guarantees protection of ``normal 
religious activity.'' \121\ Despite this guarantee, the state's 
requirement that religion be congruent with patriotism has led 
to widespread repression of religion. In Tibetan and Uighur 
areas, where separatist 
sentiment often is interwoven with religious conviction, state 
repression of religion is particularly harsh. Chinese 
authorities do not clearly distinguish between the peaceful 
expression of separatist sentiment and terrorism, creating 
additional pressures on religious practices that do not embrace 
Chinese nationalism.
    The Chinese government allows religious practitioners to 
meet only in government-approved mosques, churches, 
monasteries, and temples. Authorities oversee the selection of 
religious leaders and monitor religious education. The Chinese 
government often labels unregistered religious groups and 
movements as ``cults,'' and those who engage in such activities 
can be arrested on charges of ``disturbing social order.'' In 
many cases, local authorities enforce regulations that are more 
restrictive than those enforced at the national level. 
Nevertheless, despite the risks, a growing number of religious 
practitioners choose to worship outside the government-
controlled religious framework.
    Religious freedom in China was a central topic during 
discussions between President George W. Bush and then-President 
of China Jiang Zemin in Crawford, Texas in October 2002. 
Following that meeting, President Bush told reporters that he 
had reminded President Jiang of ``the importance of China 
freeing prisoners of conscience'' and ``giving fair treatment 
to peoples of faith.'' President Bush also raised ``the 
importance of respecting human rights in Tibet and encouraged 
more dialogue with Tibetan leaders.'' \122\ In March, the U.S. 
State Department included China on a list of six countries of 
particular concern for severe violations of religious 
freedom,\123\ a finding supported by the U.S. Commission on 
International Religious Freedom.\124\

Religious Freedom for China's Protestant Christians
    Over the past year, human rights groups have reported the 
arrest or detention of scores of house church participants 
across China. In June, Human Rights in China (HRIC), a U.S. 
human rights NGO, reported the arrest of 12 members of a house 
church in Funing County, Yunnan Province.\125\ According to the 
report, eight face imprisonment on charges of ``engaging in 
feudalistic superstition.'' HRIC called the police action in 
Funing and other towns in Yunnan ``the most wide-scale 
crackdown on house churches carried out in China this year.'' 
\126\
    Relatives of Pastor Gong Shengliang received information in 
May 2003 from a source inside Hubei Province's Jinzhou prison 
that the founder of the outlawed South China Church is 
suffering from serious medical problems. The Chinese government 
has denied these reports. Mr. Gong is serving a life sentence 
on charges of establishing a cult organization, raping women, 
and violating social order. His supporters dispute these 
charges. Mr. Gong was given a death sentence in 2001, but after 
an international outcry, his punishment was reduced to life in 
prison. The South China Church numbers some 50,000 members in 
Hubei and other provinces.\127\
    China's State Administration for Religious Affairs (SARA), 
the government entity that regulates religion, recently 
estimated that China now has 25 million Protestants.\128\ But 
Western researchers estimate that 50 million or more 
Protestants worship in unauthorized churches.\129\

Religious Freedom for China's Catholics and China-Holy See Relations
    The Vatican has reported no progress over the past year in 
efforts to normalize relations with Beijing. According to a 
June 2003 report by the Union of Catholic Asian News (UCAN), 
Cardinal Angelo Sodano, the Vatican secretary of state, 
described relations between the Holy See and China as being 
``at a standstill.'' He said, ``the Christian community in 
China lives in the midst of difficulties--one goes into prison, 
another comes out,'' but ``the seminaries are full.'' \130\
    China broke diplomatic relations with the Holy See in 1951, 
but Vatican contacts with China continued until the late 1950s. 
For some years before 2000, the Holy See engaged in indirect 
but steady contacts with China. However, relations soured in 
2000, after China hastily ordained five bishops in Beijing 
without papal approval. China ended all dialogue with the Holy 
See after Pope John Paul canonized 120 Chinese martyrs on 
China's National Day, October 1, 2000.
    ZENIT, a private Catholic news agency, reported in May 2003 
that Chinese authorities had promulgated three official 
documents that formalize stricter control over the lives of 
Catholics throughout China.\131\ The Vatican says the rules 
contained in the documents aim to increase the government-run 
Catholic Patriotic Association's control over the Chinese 
Catholic Church. According to ZENIT, Ye Xiaowen, director of 
the SARA, justified the three documents by saying that they 
``filled the void'' in the ``democratic'' management of the 
Church. The Vatican has warned that the new rules might trigger 
``a new wave of persecutions.'' \132\
    Catholics in China number about 12 million, though the 
government only recognizes 4 million to 5 million. There are 
117 Catholic bishops, only 70 of whom are recognized by state 
authorities. The government recognizes 2,600 priests. Another 
1,000 are not recognized. Bishops associated with the Catholic 
Patriotic Association have ordained 1,500 priests over the past 
20 years.\133\
    In February 2003, the Cardinal Kung Foundation, a U.S. NGO, 
published a list of two bishops and nine priests of the Baoding 
Diocese who are either missing or detained, including Bishop 
James Su Zhimin, 70, who local security authorities reportedly 
arrested in October 1997. Nationwide, the Vatican says that 
more than 50 underground Chinese Catholic bishops or priests 
have been detained or live under house arrest or police 
surveillance. Deputy Assistant Secretary of State Randall G. 
Schriver testified before a Commission Hearing in July 2003 
that the U.S. government is concerned about the cases of Bishop 
Su and other Chinese Catholic leaders. ``We continue to urge 
the Chinese government to release these detainees, and to 
resume its dialogue with the Vatican, in hopes that China will 
acknowledge Rome's unique role in the spiritual lives of all 
Catholics around the world, including in China.'' \134\

Religious Freedom for Tibetan Buddhists
    In Tibetan areas, numerous official controls continue to 
limit the practice of Tibetan Buddhism. Authorities often 
characterize the religion as backward and its practice as a 
burden on society. Chinese authorities argue that the Dalai 
Lama is a hostile political figure, not a legitimate religious 
leader, and that programs counteracting veneration of him do 
not violate religious freedom. Chinese authorities attempt 
systematically to repress Tibetan devotion to the Dalai Lama, 
with little success. Police confiscate printed, audio, and 
video material featuring the Dalai Lama's religious teachings 
and speeches, and those possessing such material sometimes face 
abusive treatment, including beating and detention.
    Political education sessions require that monks and nuns 
denounce the Dalai Lama and Gedun Choekyi Nyima, the boy 
recognized by the Dalai Lama in 1995 as the reincarnation of 
the Panchen Lama, Tibet's second-ranking spiritual leader. 
Chinese authorities took the boy, then age six, and his parents 
into custody in 1995 and installed another boy, Gyaltsen Norbu, 
as the reincarnated Panchen Lama several months later. Gedun 
Choekyi Nyima and his parents have been held incommunicado 
since that time. Chinese authorities report that the boy is 
living a ``normal'' life, but Chinese authorities have refused 
requests to allow independent observers to verify this claim. 
The U.S. government has repeatedly urged China to end 
restrictions on Gedun Choekyi Nyima and his family, and to 
allow international representatives to visit them. Meanwhile, 
Gyaltsen Norbu's appointment continues to stir widespread 
resentment among Tibetans. His visits to important religious 
sites such as Tashilhunpo Monastery in the Tibet Autonomous 
Region, the historic seat of the Panchen Lamas, and Kumbum 
Monastery in Qinghai Province, are infrequent, brief, and 
conducted under tight security.\135\
    Authorities have intensified a crackdown on religious 
activity and association in Kardze (Chinese: Ganzi) Tibetan 
Autonomous Prefecture, Sichuan Province. A Commission topic 
paper released in February 2003 discussed the case of Tenzin 
Deleg, a Buddhist teacher who was sentenced to death with a 2-
year suspension for conspiracy in a series of explosions in 
Chengdu that resulted in one death.\136\ He has consistently 
denied involvement, and Chinese authorities have not made 
public any evidence linking him to the blasts. Tibetan reports 
reaching the West say he was singled out for persecution 
because of his stature in the local community and his devotion 
to the Dalai Lama. Lobsang Dondrub was executed in January for 
his alleged involvement in the explosions. In February 2002, a 
prayer ceremony in a residential courtyard in Kardze County for 
the long life of the Dalai Lama resulted in a wave of 
detentions, with at least seven sentenced to administrative 
detention. In addition, Sonam Phuntsog, another influential 
Buddhist teacher, was arrested in 1999 and sentenced to 5 years 
in prison for allegedly advocating separatism.\137\ No details 
about evidence or charges against him have been made public by 
Chinese authorities.

Religious Freedom for Uighur Muslims in Xinjiang
    According to official estimates, China had some 20 million 
Muslims, 35,000 registered places of Islamic worship, and over 
45,000 imams across China in 2002.\138\ The Chinese government 
takes some measures to show consideration for the religious 
beliefs and associated cultural practices of China's Muslims. 
Most notably, the government permits and sometimes subsidizes 
Muslims to make the Hajj to Mecca. According to official 
Chinese figures, 5,000 Chinese Muslims made the Hajj in 1998. 
In the subsequent 5 years, however, independent reports 
estimated that far fewer Chinese Muslims made the Hajj. The 
China Islamic Association reports that 2,000 Chinese Muslims 
took part in the Hajj with official delegations in 2001.\139\ 
Other Muslims may not have been counted in official statistics 
if they made the Hajj through neighboring countries such as 
Pakistan. Cost and passport issuance restrictions often deter 
Chinese Muslims who wish to make the trip to Mecca. Unofficial 
sources say that most Chinese Muslims who make the Hajj are 
from the Hui, another one of China's minority groups, rather 
than Uighurs. Unofficial accounts also suggest that Muslims who 
are allowed to make the Hajj and who are subsidized for it 
generally must be loyal government officials, active or 
retired.
    Despite permitting some Muslims to make the Hajj, the 
Chinese government continues to limit the religious freedom of 
Xinjiang's Muslim Uighurs, who constitute nearly half of 
China's Muslim population. Anti-separatism and anti-terrorism 
crackdowns persist, contributing to the harsh repression of 
Uighur religious activities in the region. These campaigns 
extend to stanching ``religious extremism'' and ``illegal 
religious activities.'' While the government justifies its 
crackdowns on religious activities under the rubric of fighting 
``splittism'' or ``terrorism,'' many observers believe that the 
Chinese government is using the global war against terrorism as 
a pretext to suppress non-violent Uighur religious activity in 
Xinjiang.
    In 2002, Party and government officials in the Xinjiang 
Uighur Autonomous Region emphasized more stringent supervision 
of religious affairs. In Yili Prefecture, authorities ordered 
increased scrutiny of Muslim religious ceremonies such as 
weddings, funerals, circumcisions, and house moving 
rituals.\140\ Xinjiang authorities launched a campaign to 
dissuade Muslims from wearing religious attire such as veils 
and discouraged religious marriage ceremonies. Government 
officials also continued to restrict mosque building in 
Xinjiang.
    The government continues to strictly regulate religious 
education and participation in religious activities by young 
people, preventing parents from exercising full freedom over 
the religious aspects of their childrens' upbringing. 
Authorities prohibit Uighurs under the age of 18 from entering 
mosques in Xinjiang. Signs reportedly posted at the entrances 
of most mosques announce the ban. University students found 
worshipping in mosques or participating in other religious 
activities face expulsion from their schools. Officials also 
limit participation in religious activities by teachers and 
professors. The government restricts religious teaching and 
periodically censors sermons given by imams. Authorities 
closely monitor the activities of imams, and local branches of 
the state-controlled Islamic Association of China must approve 
the appointment of imams. Government authorities continued to 
conduct mandatory political study sessions for imams and 
religious personnel during 2003.
    While government policy limits the religious activities of 
Xinjiang's Uighur population, Hui Muslims throughout China 
enjoy greater religious freedom than Uighur Muslims. Mosques in 
areas with sizable Hui populations reportedly lack the signs 
common in Uighur areas prohibiting those under the age of 18 
from entering mosques. Furthermore, reports indicate 
considerable mosque construction and renovation in 
predominantly Hui areas. Observers concede that the Hui appear 
to enjoy a greater degree of religious freedom than their 
Uighur Muslim coreligionists, to whom the 
Chinese government often attributes separatist and terrorist 
sentiments and actions.

Spiritual Movements
    The crackdown on the Falun Gong spiritual movement 
continues, although the vitriolic media campaign that 
characterized the 
government's anti-Falun Gong efforts between 1999 and 2001 has 
subsided. Nevertheless, a June 2003 commentary in the state-run 
newspaper People's Daily  accused the group of deliberately 
trying to spread the SARS virus.\141\ Chinese authorities 
continue to confine Falun Gong practitioners in prisons or 
psychiatric institutions for long periods. Police reportedly 
torture some practitioners in an effort to coerce them into 
renouncing their beliefs.

                      III(d) Freedom of Expression


                                FINDINGS


        <bullet> China's citizens have access to a growing 
        variety of government-controlled information sources. 
        Many of these publications are becoming increasingly 
        aggressive in reporting on matters of public concern, 
        despite the government's continued practice of shutting 
        down publications that criticize the Communist Party or 
        the central government and firing editors who fail to 
        follow the dictates of the Communist Party's Central 
        Propaganda Department.
        <bullet> At the risk of imprisonment, Chinese citizens 
        are increasingly accessing media not controlled by the 
        government and engaging in unauthorized publishing.
        <bullet> Chinese authorities are considering a plan to 
        privatize many government publications. If implemented, 
        this reform could result in greater editorial 
        independence for China's domestic media. However, the 
        recent issuance of a list of forbidden media topics 
        demonstrates that, at present, complete editorial 
        control over all political news reporting continues to 
        be a top priority for the government.
        <bullet> China's government continues to employ an 
        extensive system of administrative prior restraints to 
        prevent its citizens from exercising their 
        constitutional right to freedom of expression. The SARS 
        crisis did not result in any meaningful reform of the 
        prior restraint system.
        <bullet> China's government continues to develop and 
        implement laws and technologies to prevent its citizens 
        from accessing information from sources it cannot 
        control, including shortwave and satellite broadcasts, 
        foreign Web sites, e-mail, and mobile phone text 
        messages.
        <bullet> Chinese authorities continue to use vague, 
        selectively enforced national security laws to punish 
        their critics and encourage self-censorship.

Overview
    Under the Chinese Constitution, Chinese citizens enjoy 
freedom of speech and freedom of the press, in practice the 
government continues to suppress freedom of expression in a 
manner that directly contravenes not only the Universal 
Declaration of Human Rights and the International Covenant on 
Civil and Political Rights, but also the Chinese 
Constitution.\142\ In China, only those with government 
authorization may legally gather news\143\ or engage in 
publishing,\144\ and the government continues to detain and 
imprison individuals who publish criticisms of the Communist 
Party, the central government, or their policies. Chinese 
authorities continue to cite Karl Marx and Mao Zedong to 
justify these repressive policies as necessary and inevitable 
extensions of Communist ideology, while ignoring the writings 
of these individuals that criticized similar policies when 
their own publications were the targets of censorship.\145\
    Despite barriers to access to the means of publication and 
the dangers inherent in publishing sensitive information, 
members of China's ``free-speech elite'' are able to express 
concerns and criticism regarding the government with less fear 
of punishment than the average Chinese citizen. This group is 
composed of senior government and Communist Party leaders, 
those with the patronage of such leaders and, to a lesser 
extent, academics. The operative principle could be expressed 
as follows: the degree to which the government is willing to 
tolerate criticism of its leaders and policies is contingent 
upon the size and nature of the audience and the ideological 
credentials of the speaker. For example, Chinese and Western 
academics convened a conference on the death penalty in January 
2003, and some months later, a spirited debate ensued in the 
Chinese media. Centered on the review and approval process for 
death penalty cases, the debate in the press featured 
analytical articles by legal experts from Chinese 
universities.\146\ However, the Chinese government tolerates 
such debates only as long as they occur in private discussions, 
closed academic conferences, government-authorized publishing 
outlets, or other forums where the government does not feel 
there is any threat of public participation that it cannot 
control.\147\ Authorities continue to silence debates if they 
begin to take on a life of their own, and refuse to recognize 
the right of the average Chinese citizens to publish their 
opinions on political issues in forums that are free from 
government censorship.\148\
    Certain groups and individuals who are unable to obtain 
government authorization to publish manage to put out books and 
periodicals on a small scale, but this is possible only through 
subterfuge and violating Chinese law (for example, by stamping 
publications as ``not for external distribution,'' or by 
purchasing book numbers that licensed publishers illegally 
offer for sale). These private publishers are therefore subject 
to the threat of closure and arrest each time they exercise 
their right to freedom of expression.
    The spread of the Internet and the introduction of 
capitalist market forces to the publishing industry have 
resulted in more sources of information becoming available to 
the citizens of China. While still state-controlled, China's 
media are becoming increasingly vigorous. Chinese authorities 
have also announced that they are 
considering privatizing most government publications.\149\ 
Depending on how it is implemented, this proposal could 
represent a first step toward relative editorial independence 
for China's domestic media. At present, however, the 
government's practices of replacing editorial and managerial 
personnel, shutting down entire publications, imprisoning 
journalists and writers for expressing political opinions, and 
blocking access to information it does not control demonstrates 
that editorial control over all politically sensitive reporting 
remains a top priority, and that it will not tolerate articles 
critical of the local government unless the author portrays the 
Communist Party and the central government in a generally 
positive light.\150\
    Chinese authorities employ three tools to hinder the free 
flow of information and suppress freedom of expression: prior 
restraints, monitoring and jamming of communications, and 
selective enforcement of broad and vague national security 
laws. The past year has seen Chinese authorities make extensive 
use of each of these tools.

Prior Restraints
    The term ``prior restraint'' refers to a system in which 
the government may deny a person the use of a forum for 
expression in advance of the actual expression. Such systems 
are rare in representative democracies with respect to print 
media and the Internet. Before the Chinese Communist Party came 
to power its official newspaper described prior restraints on 
publishing as ``fascist.'' \151\ Today, however, Chinese 
authorities employ extensive prior restraints over print and 
Internet media.
    Rulers have recognized for centuries that prior restraints 
are effective in silencing dissent.\152\ One of the most 
effective forms of prior restraint, and the form preferred by 
Chinese authorities, is to allow only authorized persons to 
publish.\153\ The requirement of obtaining and maintaining 
authorization creates barriers to entry, and means that Chinese 
authorities control who gets to speak (by refusing to grant 
authorization) and keep their fingers on an ``on-off switch'' 
with respect to an entire publication (by maintaining the 
ability to revoke authorization and silence the speaker 
completely).
    Chinese law states that the government directly controls 
the amount, structure, distribution, and coordination of all 
publishing in the country, and that only authorized government-
sponsored entities may engage in publishing:

        <bullet> No one may publish a newspaper, periodical, 
        book, or any other publication without government 
        authorization and sponsorship;
        <bullet> Periodicals and Web sites may only publish 
        news acquired from government-authorized sources;
        <bullet> No one may engage in the publication, 
        production, copying, importing, wholesale, retail, or 
        renting of audio-visual products without authorization;
        <bullet> No one may operate a facility to print or copy 
        publications without authorization;
        <bullet> No one may import publications without 
        authorization;
        <bullet> No one may exhibit imported publications 
        without authorization; and
        <bullet> No one may publish, produce, import, or 
        distribute magnetic, optical, or electronic media 
        containing drawings, writing, sound, or pictures 
        without authorization.\154\

    The Communist Party's Central Propaganda Department sends 
out regular bulletins to editors informing them which topics 
are forbidden.\155\ For example, in July, Xinhua reported that 
Shen-zhen's Administration for Press and Publication had issued 
``Measures for Publishing Orientation Warning Work'' specifying 
how authorities may require editors and managers of 
publications exhibiting inappropriate political orientation to 
undergo ``critical education'' and possibly reassignment.\156\ 
More recently, in August reports emerged that Chinese 
authorities had issued a list of ``three topics that cannot be 
mentioned'' (san bu neng ti) to media outlets and academic 
institutions prohibiting the publication of articles on, or 
academic discussion of, constitutional amendments, political 
reform, and the Tiananmen Square crackdown.\157\
    Media outlets that fail to obey mandates like the 
aforementioned examples are subject to closure, and their 
editors, managers, and reporters to dismissal:

        <bullet> In November 2002, Jin Minhua, an editor with 
        Shenzhen Zhoukan, was fired at the behest of the 
        Communist Party's Central Propaganda Department after 
        the paper published an article depicting Hu Jintao as a 
        puppet of Jiang Zemin.\158\
        <bullet> In March 2003, Chinese authorities suspended 
        publication of the 21st Century World Herald after it 
        published an article referring to democracy in China as 
        ``fake'' democracy.\159\
        <bullet> In April 2003, Chinese authorities replaced 
        the editor-in-chief of the politically cutting-edge 
        Southern Weekend with a senior official from 
        Guangdong's Communist Party Propaganda Department.\160\
        <bullet> In June 2003, Chinese authorities shut down 
        the Beijing Xinbao and fired some editorial staff after 
        the paper printed an essay criticizing the National 
        People's Congress.\161\

    China's prior restraint system not only allows authorities 
to exercise these ``negative'' controls over the media by 
prohibiting people from publishing and forbidding the 
publication of objectionable articles, but it also enables the 
government to suppress freedom of expression through 
``positive'' controls, by dictating to editors what they must 
print. The government exercises these positive controls by 
requiring senior editorial staff to receive political 
indoctrination, and by convening regular meetings with editors 
and issuing bulletins to inform them of what stories they must 
carry and how certain issues must be portrayed.\162\ In the 
weeks before the 16th Party Congress in 2002, the government 
demonstrated that it is both willing and able to force 
publications to print what it demands when it required popular 
Internet portals such as Sohu.com to display banners praising 
the Party and celebrating the Party Congress in lieu of paid 
advertising.\163\
    SARS provided a tragic example of how China's prior 
restraint system allows the government to suppress freedom of 
expression and prevent China's media from reporting on matters 
of public concern. This system impedes the free flow of 
information in a way that threatens the well-being of Chinese 
citizens and, as China has chosen to participate increasingly 
in global affairs, everyone with whom they interact.\164\
    In December 2002, health care workers in Guangdong Province 
began noticing people coming in with ``atypical pneumonia,'' 
and by early January 2003 people were already engaged in panic 
buying at drug stores because of rumors of a ``mystery 
epidemic.'' \165\ But the same government-controlled newspapers 
that first broke the story in early January devoted most of 
their coverage to stories with headlines claiming ``The 
Appearance of an Unknown Virus in He Yuan is a Rumor'' and 
articles quoting government claims that ``there is no 
epidemic.'' \166\ Chinese authorities did not begin to allow 
reporting on the crisis until the disease began killing people 
in Hong Kong, where there is little direct government restraint 
on the free flow of information. Even then, the government-
controlled Chinese media continued to insist that everything 
was under control for several weeks.
    In response to their cover-up and mishandling of the SARS 
crisis, Chinese authorities did dismiss some senior officials 
and enact regulations to discourage provincial and local 
officials from concealing information from the central 
government. However, these reforms were not intended to relax 
the government's control over the media or the free flow of 
information to the general public. Rather, the goal was to 
increase the flow of information to central authorities in 
Beijing, control how the press reported on the matter, and 
prevent private citizens from publishing opinions regarding the 
government's handling of the crisis.\167\ For example, although 
admissions that authorities mishandled the SARS crisis appeared 
in some Chinese newspapers, criticism was limited to local 
officials and ``the media,'' while the central government was 
portrayed as coming to the rescue of the people.\168\ It 
remained forbidden to discuss the lack of a free press or the 
role that the Communist Party, the central government, and the 
censorship and media control systems they have established 
played in allowing SARS to spread unchecked for so long.\169\
    The following events further illustrate how the SARS crisis 
has not resulted in any meaningful relaxation of the Chinese 
government's control over the reporting of politically 
sensitive news:

        <bullet> In April 2003, authorities in Beijing arrested 
        a person for sending messages saying that an 
        ``undiagnosed contagious disease was spreading in 
        Beijing,'' on the grounds that he was spreading rumors 
        and that ``Beijing had never had the spread of any 
        `mysterious illness.' '' \170\
        <bullet> In April 2003, two editors at Xinhua  were 
        fired for publishing a document about SARS.\171\
        <bullet> In April 2003, Chinese authorities removed the 
        editor-in-chief of Southern Weekend, a publication 
        known for addressing politically sensitive topics, and 
        replaced him with Zhang Dongming, a former Director of 
        News Media at the Propaganda Department in Guangdong, 
        who some observers in China consider partly responsible 
        for the initial SARS cover-up.\172\
        <bullet> In May 2003, China blacked out a CNN interview 
        that was critical of the government's handling of the 
        SARS crisis.\173\
        <bullet> In June 2003, Chinese authorities blocked 
        distribution of an issue of Caijing magazine that 
        discussed the government's handling of the SARS crisis. 
        Although it was reported that Caijing editors claimed 
        that the failure to distribute the issue was the result 
        of logistical problems, censors repeatedly blocked 
        attempts by Commission staff to post questions such as 
        ``Has Caijing been censored? '' on government-
        controlled Internet bulletin boards.
        <bullet> In July 2003, the Propaganda Department issued 
        a notice to at least one television station prohibiting 
        it from inviting academics to discuss the government's 
        handling of the SARS crisis.\174\

Monitoring, Jamming, and Blocking of Information
    Although the SARS crisis has resulted in Chinese 
authorities encouraging the flow of government-controlled 
information, the past year has seen no easing of the 
government's blocking the flow of information that it does not 
control. Chinese authorities continue to attempt to block Voice 
of America and Radio Free Asia shortwave radio transmissions 
directed into China. In a statement made before a Commission 
roundtable in December 2002, a representative of the 
Broadcasting Board of Governors (BBG) said that the BBG has 
filed complaints of ``harmful interference'' with the 
International Telecommunications Union monthly since August 
2000. China first acknowledged receipt of the complaints in 
July 2002, and again acknowledged the complaints in August 
2002. Failure to acknowledge complaints is itself a violation 
of ITU radio regulations.\175\
    The Chinese government restricts who can legally receive 
satellite television broadcasts and restricts individual 
ownership of satellite receivers. Chinese viewers often ignore 
these restrictions and install illegal receivers to view 
foreign broadcasts.\176\ While authorities have allowed limited 
legal distribution of some foreign channels to some households 
in Guangdong Province, national distribution is limited to luxury 
hotels and foreign compounds. Authorities have also begun requiring 
that all foreign satellite television broadcasts be distributed 
through a government-owned and operated platform, which has enabled 
more fine-tuned censorship of foreign television broadcasts.\177\ 
For example, in June 2003, Chinese authorities cut CNN's 
broadcast into China just as a Hong Kong lawmaker began to 
criticize proposed anti-subversion legislation and resumed the 
broadcast once the interview was over.\178\
    Chinese authorities continue to block human rights, 
educational, political, and news Web sites without providing 
the public notice, explanation, or opportunity for appeal.\179\ 
Chinese law requires U.S. Internet service providers operating 
in China to comply with Chinese government controls on Internet 
content and to cooperate with Chinese authorities in the 
enforcement of Chinese law. Some in the United States have 
expressed concern that Chinese authorities are using 
technologies developed by U.S. companies as part of this 
effort.\180\ Chinese officials have publicly admitted that the 
government has established a national firewall to prevent 
Chinese citizens from accessing certain types of content.\181\ 
Studies conducted by the Commission staff and others indicate 
that the firewall is used primarily to block political content, 
not obscenity or junk mail. Tests performed by the Commission 
staff indicate that the Chinese government continues to 
manipulate Internet communications in the following manner:

        <bullet> Attempting to access prohibited Web sites 
        results in either a gateway timeout or ``Page Cannot Be 
        Displayed'' message. Chinese authorities continue to 
        block sites such as Google's cache (which would allow 
        people to view ``snapshots'' of sites taken by Google, 
        and thereby view Web pages which were otherwise 
        blocked), the Alta Vista search engine, BBC (Chinese), 
        VOA and those of most human rights organizations 
        critical of the Chinese government (including Amnesty 
        International, Human Rights Watch, Human Rights in 
        China, China Labor Bulletin, the Dui Hua Foundation, 
        and Reporters Without Borders).
        <bullet> Searching for certain sensitive terms, such as 
        ``Falun Gong,'' on search engines regulated by the 
        Chinese government yields results (which do not deviate 
        from the official government position), while searches 
        for the same terms on search engines not regulated by 
        the Chinese government, such as Google, results in the 
        Internet browser being temporarily disabled.
        <bullet> Attempting to send e-mails from China to well-
        known dissidents using an Internet browser interface 
        results in the browser being temporarily disabled.

    Chinese Internet users are generally able to access 
English-language news from major Western news media outlets 
through the national firewall, but Chinese authorities actively 
block Chinese language news Web sites whose contents they are 
unable to control. For example, tests performed by the 
Commission staff indicate that while Internet users could 
access the BBC and Radio Canada Web sites in English, the 
Chinese versions were inaccessible.
    Over the past year, Chinese authorities continued their 
policy of increasing the extent of Internet censorship during 
politically sensitive times. For example, Chinese authorities 
blocked access to foreign news Web sites (even sites available 
only in English such as the New York Times, Washington Post, 
Wall Street Journal, and CNN) during the 16th Party Congress in 
November 2002 and the 10th National People's Congress in March 
2003.
    Chinese authorities are becoming increasingly sophisticated 
in how they censor the Internet and admit to developing 
technologies that will both enable more targeted censoring and 
notify government officials as soon as any person tries to 
access such Web sites. Specifically, officials claim to be 
prepared to deploy technologies that will allow them to 
automatically and precisely block Web pages based, not on 
specific words, but on the actual viewpoint of the author. In 
February 2003, state-sponsored academic researchers in China 
announced that they already developed such technology for a 
``Falun Gong Content Examination System.'' Using this system if 
an article contains pro-Falun Gong information, it is 
designated as ``black.'' If the system determines an article 
criticizes or opposes Falun Gong, it is designated as ``red.'' 
Articles dealing with Buddhism, qigong, and health care are 
designated as ``neutral.'' The system can be installed on 
personal computers, servers, and at national gateways, so that 
as soon as a user tries to visit a Web page that is pro-Falun 
Gong, the system can filter the page and immediately notify 
authorities.\182\
    Tests performed by Commission staff indicate that systems 
providing this type of increasingly fine-tuned censorship have 
already been deployed at some Internet cafes. Specifically, Web 
pages containing sensitive content on sites that are otherwise 
accessible begin loading, but before they are completely 
visible the page is replaced by a message informing the user 
that the content the user is trying to access is forbidden. The 
browser is then automatically redirected to a government-
authorized general interest Web site, but the user is not told 
why the site was prohibited or to whom an appeal should be 
submitted to have the prohibition removed.
    Internet bulletin board systems (BBSs) continue to provide 
a glimpse at how Chinese authorities would like to shape the 
Internet. As one Chinese government agency put it: ``[BBSs such 
as the one operated by the official People's Daily] represent 
the degree of freedom of expression the people of China have.'' 
\183\ Chinese law requires all BBSs to be licensed, all 
articles to be constantly monitored, and all inappropriate 
articles to be taken down. ``Internet police'' monitor domestic 
BBSs,\184\ and BBS providers must keep a record of all content 
posted on their Web site, the time it was posted, and the 
source's IP address or city name.
    BBSs use software to automatically block posts containing 
blacklisted words and also use human monitors to block and 
remove articles posted with content that they deem politically 
unacceptable.\185\ It is possible to watch as users on 
government-controlled BBSs debate with the censor about whether 
or not a given post should be allowed. In one case, a 
Commission staff member observed a user successfully persuade a 
censor to allow his post because, even though the title sounded 
like it was praising the U.S. multi-party system, in fact, it 
was a long essay about the dangers inherent in such a system. 
Commission staff regularly observe censors removing posts that 
are either too critical of the government, or that might be 
acceptable by themselves but have generated too many responses 
critical of the government. BBSs that become known for allowing 
cutting-edge postings on politically sensitive topics routinely 
disappear from the Internet altogether.\186\

Selectively Enforced National Security Laws
    Chinese national security laws do not clearly define the 
scope of freedom of expression, and the Communist Party and the 
Chinese government exploit these vague and broad regulations to 
silence Chinese citizens who would criticize them and their 
policies. Chinese law requires that anyone intending to 
disclose information relating to state secrets, national 
security, or the nation's leaders get prior government 
authorization. The law then defines these terms to encompass 
all forms of information pertaining to politics, economics, and 
society.\187\ Therefore, anyone who publishes or passes on 
information regarding such matters without prior authorization 
has violated the law, regardless of the content of the 
writings.\188\ In other words, Chinese authorities employ the 
country's broad and vague national security laws as another 
form of prior restraint.
    In November 2002, Amnesty International published a report 
detailing 33 cases of individuals detained or imprisoned for 
national security-related charges in connection with the 
unauthorized publication of articles on the Internet.\189\ 
Reports from U.S. and international NGOs such as the Digital 
Freedom Network, the Committee to Protect Journalists, 
Reporters Without Borders, and Human Rights in China indicate 
that Chinese authorities regularly detain and imprison 
professional and freelance journalists and writers based on 
accusations that their writings violate national security 
laws.\190\ For example:

        <bullet> In November and December 2002, authorities 
        detained several people who had signed an open letter 
        calling for political reform prior to the 16th Party 
        Congress.\191\
        <bullet> In February 2003 a court in the Xinjiang 
        Uighur Autonomous Region sentenced Tao Haidong to 7 
        years in prison for using the Internet to publicize 
        ``reactionary'' essays that ``willfully smeared and 
        vilified the leaders of the Party and the nation.'' 
        \192\
        <bullet> In May 2003, Huang Qi, a computer engineer, 
        was sentenced to 5 years imprisonment for subversion 
        and incitement to overthrow the government based on his 
        alleged involvement with a Web site intended to assist 
        people in locating relatives who had disappeared in the 
        1989 Tiananmen massacre.\193\
        <bullet> Also in May 2003, Jin Haike, Xu Wei, Yang 
        Zili, and Zhang Honghai, members of an informal 
        discussion group, were given prison sentences of 
        between 8 and 10 years for publishing articles on the 
        Internet expressing opinions such as ``The democracy 
        currently implemented in China is fake democracy'' and 
        ``End the elderly persons' government, establish a 
        youthful China.'' \194\
        <bullet> In July 2003, the official People's Daily 
        carried a report that police in Henan had subjected a 
        15-year-old to administrative punishment for posting an 
        article on an Internet bulletin board that ``made 
        insinuations regarding the Party and the government.'' 
        According to the report, it was necessary to punish the 
        child ``in order to safeguard respect for the law and 
        ensure the healthy development of the Internet.'' \195\

    Chinese authorities have failed to make public any 
information indicating that these individuals (or most of those 
currently detained or imprisoned for their writings) did anything 
more than express opinions or provide a forum for others to express 
their opinions. Government authorities have not shown the 
public that these people have committed any acts, or advocated 
the commission of any acts, that violated any law or otherwise 
represented a threat to the national security of China. Rather, 
the only ``crime'' that has been shown to have occurred was the 
unauthorized publication of articles that expressed opinions 
inconsistent with, or critical of, the leaders and policies of 
the Communist Party and the central government.
    China's legislative bodies continue to enact broad and 
conflicting regulations that hold out the threat of sanctions 
for anyone who commits such vaguely defined breaches as 
spreading rumors, offending the honor of China, or 
``jeopardizing social stability.'' \196\ The example of the 15-
year-old in Henan clearly illustrates how Chinese authorities 
use selectively enforced laws to encourage self-censorship: 
reports of the incident by the state-controlled media did not 
specify what the child wrote, nor did it specify the 
``administrative punishment,'' which in China can include 
prolonged imprisonment. This legal system hangs over the 
citizens of China like a sword of Damocles, and as long it 
remains in place, for every person who chooses to speak out and 
is detained, many more will choose the cautious path and not 
speak at all.

              III(e) Economic, Social, and Cultural Rights


                                FINDINGS


        <bullet> The new Chinese family planning law retains 
        the broad elements of China's long-held policies on 
        birth limitation, including mandatory restrictions on 
        absolute reproductive freedom and the use of coercive 
        measures, specifically severe economic sanctions, to 
        limit births. However, the new law also mandates 
        prenatal and maternal health care and services for 
        women.
        <bullet> The Chinese government is taking significant 
        steps to address HIV/AIDS, but it must overcome 
        contradictory policies, underfunded programs, 
        bureaucratic rivalry, social prejudice, and public 
        ignorance about the disease if it hopes to avert a 
        public health catastrophe.
        <bullet> China has built a progressive legal framework 
        to protect women's rights and interests, but loopholes 
        remain, and implementation of existing laws and 
        regulations has been imperfect, leaving Chinese women 
        vulnerable to pervasive abuse, discrimination, and 
        harassment at home and in the workplace.
        <bullet> China's leaders have begun to recognize the 
        enormous social and economic costs of the country's 
        environmental problems, but the government's 
        environmental management remains weak. Implementation 
        of environmental laws and regulations is often poor due 
        to vague legal drafting and lack of consistency, 
        deficiencies in administrative coordination, lack of 
        trained personnel, and local intransigence. These and 
        other obstacles will continue to hinder Chinese efforts 
        to cope with the country's environmental challenges.

Introduction
    Despite its ideological commitment to the International 
Covenant on Economic, Social and Cultural Rights (ICESCR), the 
Chinese government has found it difficult in practice to meet 
all the challenges to its citizens' economic, social and 
cultural rights brought by the transition to a market economy. 
A coercive, top-down style of coping with government crises has 
exacerbated these problems.
    Over the past year, the Commission staff has convened 
issues roundtables specifically devoted to rights specified by 
the ICESCR: citizens' right to health care and efficient 
systems of protection from epidemic disease, women's 
reproductive and economic rights, childrens' rights, the rights 
of all citizens to a safe environment, and citizens' reliable 
access to education. Through these roundtables, as well as 
through staff visits to many social organizations in China, the 
Commission has concluded not only that China cannot currently 
guarantee many of the rights enumerated in the ICESCR, but 
also, in some areas, provides them less reliably and less 
equitably than in the past.
    At the same time, a ``civil society with socialist 
characteristics'' has sprung up in China to fill some of the 
gaps. The very existence of domestic organizations such as Wang 
Canfa's Pollution Victims Legal Research Center show that 
Chinese people feel increasingly empowered to organize to 
address social problems without government assistance. The 
government now must decide whether or not it can maintain 
strict control over this new sector without destroying it.
    Testifying before a Commission roundtable in June 2003, 
Tiananmen Square-era leader and activist Wang Dan observed:

          It is very important that the United States pay 
        attention to these sprouts of civil society. I believe 
        that it is very short-sighted for the U.S. government 
        only to focus on the actors in the Chinese government 
        and the Chinese Communist Party . . . I think that the 
        United States should move from attention only on human 
        rights issues to other issues of political reform and 
        democratic politics. One way that the United States can 
        do this is to provide support for NGOs and universities 
        in 
        China . . .\197\

Family Planning and Women's Reproductive Rights
    China's coercive family planning policy continues to be of 
particular concern to the Commission. On September 1, 2002, a 
new Population and Family Planning Law drafted and passed by 
the National People's Congress took effect, for the first time 
codifying China's ``one-child'' policy. The new national law 
retains the broad elements of China's long-held views on family 
planning policy, including mandatory restrictions on absolute 
reproductive freedom and the use of coercive measures to limit 
births, specifically severe economic sanctions. The grim 
results of such coercion in the past are evident in China's 
2000 Population Census. The census reveals unbalanced male to 
female sex ratios at birth ranging from 114.58/100 in the city 
of Beijing to an astonishing 138.01/100 in Jiangxi 
Province.\198\
    With some exceptions, the Chinese government expects its 
citizens to comply with China's ``one-child'' policy, and for 
those who do not, the new law imposes severe, albeit non-
criminal, economic penalties. These individuals are subject to 
a social compensation fee (shehui fuyang fei) determined by 
Chinese authorities based on the average annual income for that 
region and details regarding their violation of the law.\199\ 
The ``fees'' vary widely, ranging from two to eight times the 
average annual income for a particular region, a penalty so 
severe that expectant mothers ``can sometimes be left with 
little choice but to undergo abortion or sterilization.'' \200\ 
The Chinese government does not consider ``social compensation 
fees'' to be coercive, and the National Population and Family 
Planning Commission of China professes that it is ``against 
coercion in any form.'' \201\ Bonnie Glick, a member of a U.S. 
commission formed to investigate UN Fund for Population 
Activities (UNFPA) programs in China, offered a different view. 
Glick testified to a Commission roundtable in September 2002 
that the new Family Planning Law's fees for ``out of plan'' 
births amount to coercion and therefore do not conform to 
international norms.\202\
    Although Chinese family planning practices remain coercive, 
China's new Population and Family Planning Law does not 
incorporate some of the most troubling features of the 
physically coercive, 
non-statutory family planning policies it presumes to replace, 
which in recent years have included extensive physical coercion 
of non-compliant persons and forced abortion and sterilization. 
The new law also specifically forbids the use of ultrasound to 
assist sex-selective abortions. Finally, the new law includes 
penalties for Chinese officials found guilty of corruption or 
abuse of power. Article 39 of the new law stipulates that 
Chinese officials must not ``infringe on a citizen's personal 
rights,'' for example, by forcing women to have abortions. 
Jiang Yiman, spokesperson for China's National Population and 
Family Planning Commission, stressed in January 2002 that 
``those who run foul of [this] stipulation will be prosecuted 
to the full extent of the law.'' \203\ The Commission will 
closely monitor Chinese efforts to enforce these new 
provisions, particularly at the local level, where reports of 
overzealous family planning officials continue to surface.
    Finally, the Commission notes that China's new Population 
and Family Planning Law includes specific provisions relating 
to education, prenatal and maternal health care, and women's 
rights. Professor Susan Greenhalgh of the University of 
California noted at the September 2002 Commission roundtable 
that China's total fertility rate has recently dropped to 1.8, 
allowing reformers in the State Planning Commission to 
introduce ``pro-women'' changes in policy.\204\ Greenhalgh and 
Professor Edwin Winckler urged the United States to ``identify 
reform factions within China and support [them] . . . both 
within the state and [in] NGOs who are operating outside the 
state.'' \205\ Only time and experience will indicate whether 
changes in law in the population and family planning area 
represent an effective commitment to limit the arbitrary 
exercise of state power. The Commission is obligated to follow 
closely efforts and developments in this profoundly sensitive 
area.

HIV/AIDS, SARS, and Public Health in China
    The scale and nature of the emerging HIV/AIDS epidemic in 
China has been a particular concern of the Commission over the 
past year.\206\ The most significant concerns include the speed 
of transmission of the disease among the populations of 
intravenous (IV) drug users, the relatively weak response from 
the central government, and the likelihood that the disease may 
eventually be a substantial drag on economic growth.\207\ The 
Chinese government is taking considerable steps to confront 
HIV/AIDS, but it must overcome contradictory policies, 
underfunded programs, rivalry between national and local 
institutions, social prejudice, and a continued lack of public 
awareness, education, and prevention before it can avert an 
HIV/AIDS catastrophe.
    With respect to the U.S. policy response, the Commission 
heard repeated advice from U.S. experts that the President and 
the Congress should continue to raise HIV/AIDS issues with the 
highest levels of the Chinese leadership, citing the epidemic 
as an international concern that cannot be solved without 
action from the top.\208\
    China's reaction to HIV/AIDS has been similar to early 
reactions elsewhere: shame and denial, stigmatization of the 
victims of the disease, and an impulse to enact punitive laws 
and regulations that drive patients into hiding. Official 
Chinese government estimates show that 1 million people were 
living with HIV in China by the middle of 2002,\209\ while the 
United Nations estimates that up to 1.5 million people are 
currently infected. The United Nations and others predict that 
China is at risk of an HIV/AIDS epidemic that could reach a 
scale of 10 million to 20 million infected Chinese citizens by 
the year 2010.\210\ In recent years, the Chinese government has 
slowly been coming to terms with the rapid rise of HIV/AIDS 
throughout China after a prolonged period of denial. 
Nevertheless, China's health care system is ill-prepared to 
fully confront what the United Nations Theme Group on HIV/AIDS 
in China considers to be a situation ``on the verge of a 
catastrophe that could result in unimaginable human suffering, 
economic loss, and social devastation.'' \211\
    In 2001, the Chinese government began recognizing the 
emerging crisis and initiated national-level programs to 
address the epidemic. A 5-year AIDS action plan, announced in 
mid-2001, and negotiations with pharmaceutical companies for 
affordable retroviral treatment, marked a growing awareness and 
initial commitment to confront HIV/AIDS. Another positive step 
toward accepting the country's HIV/AIDS challenge came in 
December 2001 when Zhang Wenkang, then the health minister, 
acknowledged that the practice of blood plasma collection in 
the late 1980s and early 1990s contributed to the spread of HIV 
to 23 of China's 31 provinces, centrally administered municipalities, 
and autonomous regions. 
In April 2003, the Chinese government began providing free AIDS 
drugs to thousands of HIV patients in Henan, Hubei, Hunan, 
Anhui, and Sichuan Provinces who contracted the virus after 
selling their blood as part of China's practice of blood plasma 
collection. Government programs are also treating patients in 
other provinces, and Chinese and foreign observers expect the 
program to expand.
    In July 2003, Chinese Vice-Premier Wu Yi, who became the 
Minister of Health after Zhang Wenkang was dismissed over the 
SARS debacle, announced continued cooperation between China's 
Ministry of Health and the United Nations Development Program 
to ``reinforce the nation's fight against HIV/AIDS and other 
public health problems.'' \212\ After a trip to China in 
January 2003 to examine China's approach to HIV/AIDS, a U.S. 
think tank's HIV/AIDS delegation found that the Chinese 
government is finally making progress on this issue:

          The Chinese approach to HIV/AIDS is moving in the 
        right direction, albeit slowly. The Chinese Ministry of 
        Health recognizes the enormity and complexity of the 
        threat and is leading a serious effort to preempt it, 
        through increased funding, improved intra-governmental 
        coordination, expanded pilot training programs, 
        improved preventative education and awareness, and an 
        enlarged dialogue with the international community on 
        new partnerships.\213\

    Despite China's recent progress in fighting HIV/AIDS, 
authorities have made numerous missteps, particularly at the 
local level. Corrupt and inept practices, prejudices, and lack 
of understanding have made a bad situation even worse, 
demonstrating that necessary policy-level improvements have yet 
to be realized on the ground. While the new national policies 
on fighting HIV/AIDS that the Ministry of Health has been 
promoting signify positive movement, local authorities appear 
to be less progressive in attitude and incapable of 
implementing new measures.
    In testimony at a Commission roundtable in September 2002, 
two U.S. scholars emphasized that local inaction and 
stonewalling by provincial authorities, as well as lack of 
cooperation or enthusiasm from the security apparatus, 
complicate the ability of the Ministry of Health and others to 
address the HIV/AIDS problem.\214\
    An incident in Henan Province illustrates the difference in 
attitudes between national and local authorities. On June 22, 
2003, police officers and local thugs raided Xiongqiao village, 
an ``AIDS village'' in Henan where several hundred residents 
contracted HIV due to the unsanitary blood collection practices 
of the late 1980s and early 1990s. The law enforcement squads 
smashed property, assaulted residents, and arrested 13 farmers. 
Farmers from the village had appealed to local officials to 
receive previously promised government assistance for AIDS 
patients.\215\ Approximately 700 of the 3,000 residents in 
Xiongqiao have been diagnosed as HIV positive, with 400 of them 
living with full-blown AIDS. Some residents and other observers 
believe the raid was an example of local authorities 
persecuting HIV/AIDS sufferers using repressive measures when 
victims seek access to promised treatment, aid, or care. A U.S. 
NGO offered the view that police in Henan Province, where many 
``AIDS villages'' exist because it is the center of the blood 
collection scandal in which local authorities were complicit, 
are increasing their use of arbitrary arrests and violence 
against HIV-positive protestors. ``Henan authorities seem to 
want to sweep their role in the AIDS epidemic under the rug by 
silencing protestors'' who are seeking access to treatment and 
care of HIV/AIDS patients, and who are frustrated with the 
misappropriation of state AIDS funding.\216\
    Other setbacks include problems surfacing in the Chinese 
government's program offering free AIDS drugs to thousands of 
farmers who contracted HIV after selling blood.\217\ Although 
the program, which was launched in April 2003, significantly 
advances China's fight against HIV/AIDS, it also lacks 
sufficient numbers of qualified doctors to properly administer 
the drugs and help the patients maintain lifelong treatment. 
Qualified doctors are especially necessary to help the patients 
endure the strong side effects of the drugs, intensified by the 
use of older, locally-manufactured drugs. As a result of these 
side effects and the dearth of suitable doctors to keep 
patients on the approved course of treatment, many patients are 
dropping out of the program. These problems highlight the fact 
that China is ill-equipped to successfully fight HIV/AIDS on 
its own.
    Other obstacles hindering more rapid progress in stemming 
the epidemic include social prejudice and the continued lack of 
awareness, public education, and prevention. Joan Kaufman, a 
visiting scholar at Harvard Law School, summed up the 
difficulties facing a successful fight against HIV/AIDS in 
China in her testimony to a Commission roundtable:

          [T]he epidemic is unfolding in China because of a 
        collection of local public policy failures: fiscal 
        devolution in the health system and the strained 
        budgets in poor areas make it very difficult for local 
        government to pay for the necessary prevention and care 
        activities; high levels of discrimination and fear-
        based laws aimed at protecting the public; a limited 
        number of civil society organizations that could 
        actually take up the battle; constraints on media 
        coverage and information which make it difficult for 
        people to know about the AIDS epidemic and what has 
        worked in other countries; and complicity by local 
        governments and denial.\218\

    At a September 2002 Commission roundtable on HIV/AIDS in 
China, U.S. experts praised an existing U.S. program grant to 
help Chinese agencies implement vaccine development and begin 
treatment trials in the 100 counties most affected by HIV. They 
also advocated more U.S. technical assistance to help local 
governments adopt international best practices in coping with 
HIV and to build a nation-wide response.\219\

Women's Rights
    Discrimination against women remains widespread in Chinese 
society, despite longstanding efforts by the Chinese government 
and government-affiliated organizations, most notably the All-
China Women's Federation (ACWF), to identify and raise 
awareness of the problem. China's existing laws, if enforced, 
could stem much of the abuse. In other areas, such as sexual 
harassment, no laws exist. While progressive in scope, the 1992 
Law on the Protection of the Rights and Interests of Women does 
not give women the legal tools they need to protect the rights 
specified. Efforts are currently underway in China to amend the 
law to enable women to sue to enforce their rights under it, as 
well as to add new protections against domestic violence and 
sexual harassment. Forced marriage and trafficking of women and 
girls remain serious problems in China.
    The Commission notes that the Chinese government has been 
more vigorous in publicizing and condemning abuse against women 
than other areas of human rights concern. The Chinese 
government has also made significant progress in building the 
progressive legal framework necessary to combat these abuses 
and prohibit discrimination against women in employment, 
property rights, inheritance, and divorce.\220\ However, equal 
access to justice and the full implementation of China's laws 
and regulations protecting women's rights have been slow to 
develop. ``It's a long way to go for Chinese women to realize 
equality de facto from equality in law,'' said Professor Wu 
Changzhen of the China University of Politics and Law in March 
2001.\221\
    Article 48 of the Chinese Constitution states that ``Women 
in the People's Republic of China enjoy equal rights with men 
in all spheres of life.'' Despite this guarantee of equality, 
the transition from a planned to a market economy in China has 
resulted in 
particular hardships for women. Peng Peiyun, Vice Chair of the 
National People's Congress Standing Committee and ACWF 
President, noted in March 2003 that in China ``it is hard for 
women to find jobs; it is hard for women to find jobs after 
having been laid off; it is difficult for female students to 
find jobs; labor protection measures for women employees are 
weak in many enterprises; procreation insurance for female 
employees is inadequate; and women's participation in the 
management of state and society affairs is still at a low 
level.'' \222\
    China's economic reforms have had contradictory influences 
on the social status of women, offering both ``greater freedom 
and mobility'' and ``greater threats . . . at home and in the 
workplace,'' \223\ according to testimony to the Commission by 
Professor Margaret Woo of the Northeastern University of School 
of Law. Although the Chinese economic system offers few 
assurances to any worker, women face the most jeopardy. Often 
the first to be fired and the last to be hired, women face 
continual setbacks in employment and grave challenges in a 
society marked by the ``increased commodification of women as 
`beauty objects,' '' according to Woo.\224\
    One result has been a surge in sexual harassment cases 
being filed in court, even though China has no specific law on 
sexual harassment. Legislators in the National People's 
Congress are deadlocked over the legal definition of sexual 
harassment and disagree on whether legal protections against 
sexual harassment should even be included in China's first 
civil code, which is now being drafted. The Chinese term for 
sexual harassment, xing saorao, is relatively new, reflecting 
the fact that this traditionally taboo subject has only 
recently entered the public consciousness. Despite the 
increased openness, most Chinese victims still choose to remain 
silent regarding sexual harassment because the chances for 
legal remedy remain slim. Few sexual harassment suits have ever 
led to trial in China. ``Most such cases are rejected by the 
courts because China lacks a law against sexual harassment,'' 
\225\ according to Professor Ding Juan of the ACWF Women's 
Research Institute.
    It is equally difficult for women facing violence in the 
home to institute civil action. Rangita de Silva of the 
Spangenberg Group, a U.S. NGO, testified to a Commission 
roundtable in February 2003 that domestic violence in China 
``is not broadly defined to cover threats of violence to the 
woman and/or her family members, psychological damage, sexual 
abuse and rape within marriage. Also, the question arises of 
whether a claim for compensation can be made during the 
existence of marriage,'' according to de Silva.\226\ Chinese 
statistics indicate that upward of 30 percent of Chinese 
households face domestic violence,\227\ with 90 percent of the 
victims being women,\228\ figures that likely underestimate the 
severity of the problem as most cases in China go 
unreported.\229\
    Although the Chinese government has publicly recognized 
domestic violence as a serious problem and taken limited 
measures to tackle it, including amending its Marriage Law in 
2001 to include provisions on spousal violence, Chinese women 
still face significant hurdles in seeking justice or protection 
as victims. Women can hold their abusers liable under China's 
Criminal Law but must prove that the crime was particularly 
``evil'' and the abuse was ``continued, regular, and 
consistent.'' \230\ In addition, ``Public Security Bureaus 
hesitate to intervene in family disputes'' \231\ and resources 
to help battered women, including shelters and legal aid, are 
scarce in urban areas and largely non-existent in rural areas.
    The commercialization of sex has grown rapidly in China 
following the economic dislocation driven by market reforms and 
a general relaxation in social mores, leaving thousands of 
Chinese women and girls vulnerable to disease and abuse. China 
has not taken the necessary steps to increase HIV/AIDS 
awareness among sex workers. Such education would both protect 
their health and stem the looming health crisis inherent in an 
increasingly mobile labor force and a rapidly expanding sex 
industry. Many prostitutes in China believe HIV/AIDS is a 
``foreign phenomenon . . . and won't affect them,'' according 
to Chen Xinxin, a sociologist and former ACWF researcher.\232\
    The harsh implementation of China's one-child policy over 
the last two decades has imposed high costs on Chinese women. 
As documented in the 2000 census, a cultural preference for 
sons, and the lack of other guarantees of economic security for 
women, have resulted in distorted male/female birth ratios in 
many areas.\233\ Birth ratios of 138 boys to 100 girls in rural 
provinces like Jiangxi and 115 boys to 100 girls even in urban 
areas like Chongqing prove the prevalence of either sex-based 
abortion or infanticide. Some of the imbalance in these ratios 
may reflect the growth of a population of ``black,'' or 
unregistered female babies, invisible to the state and 
ineligible for schooling and other state benefits. Most of the 
distortion, however, reflects a real reduction in the number of 
girls surviving birth and infancy.
    The scarcity of women resulting from these practices has 
led to a number of serious social problems, including 
abandonment of infants, forced marriage, and trafficking of 
women and girls. An illicit trade in baby girls as future 
servants or brides is widespread in China, despite efforts by 
Chinese authorities to stem the activity. The Chinese Ministry 
of Justice launched a 3-month campaign against the illegal 
trade in 2000, resulting in the rescue of some 10,000 girls, 
indicating the scope of this problem. Continuing reports of 
such activity in the Chinese press suggest little progress has 
been made in curbing the practice. According to Song Liya, 
editor of China Women's News, China's one-child policy has 
prompted ``some parents to acquire future brides for their sons 
. . . [and babies] are cheaper than buying a teenage bride.'' 
\234\ Despite government efforts to crack down on the inland 
trafficking of Chinese women, the illicit trade continues, with 
the sale of women in rural areas as brides, and in urban areas 
as prostitutes, exceeding official efforts to stop the 
practice. In addition, reports are common of sexual slavery and 
trafficking of North Korean refugees in China's northeast 
border provinces.\235\

China's Environmental Crisis
    The degradation of China's environment presents Chinese 
policymakers with a host of political, social, and economic 
challenges that not only affect China but also have an impact 
on the environment of its neighbors. As Elizabeth Economy noted 
in testimony before the Commission in January 2003, China faces 
daunting environmental problems.\236\ Two-thirds of Chinese 
cities tested in 2000 failed to meet World Health Organization 
pollution standards. Hundreds of millions of Chinese drink 
contaminated water. Deforestation and overgrazing have led to 
the rapid loss of arable land, flooding of increasing severity 
and frequency, and devastating sandstorms in northeast China. 
Analysts estimate that during the 1990s, 20 to 30 million 
people were displaced by environmental degradation. These and 
other environmental problems have created a public health 
crisis, sparked social unrest, and imposed huge economic costs. 
According to estimates, China may lose as much as 8 percent of 
its GDP to environmental damage.\237\
    In recent years, China's leaders have begun to recognize 
the enormous social and economic costs of the country's 
environmental problems. The Chinese government has reorganized 
state institutions responsible for environmental management, 
passed more than 25 laws and 100 administrative regulations 
related to environmental protection, and attempted to 
strengthen implementation and enforcement of environmental 
law.\238\ It has opened the door to limited grassroots activism 
by environmental NGOs and encouraged media reporting on the 
environment.\239\ It has also engaged the international 
community, working with such organizations as the World Bank, 
the Asian Development Bank, the American Bar Association, and 
foreign NGOs to improve environmental conditions on the ground 
and enhance environmental governance.\240\
    Despite these efforts, the Chinese government's 
environmental management remains weak. China currently spends 
only 1.3 percent of GDP on environmental protection, a figure 
that most analysts agree is too low to prevent further 
deterioration, much less improve environmental conditions.\241\ 
Implementation of environmental laws and regulations is often 
poor due to vague legal drafting and lack of consistency, 
deficiencies in administrative coordination, lack of trained 
personnel, and local intransigence.\242\ These and other 
obstacles will continue to hinder Chinese efforts to cope with 
the country's environmental challenges.

                 III(f) Freedom of Residence and Travel


                                FINDINGS


        <bullet> Recent policy changes in China indicate 
        progress toward eroding the restrictive residence 
        registration (hukou) system, allowing rural migrants in 
        urban areas improved legal status.
        <bullet> Policy changes made at the central government 
        level often are not implemented adequately at the local 
        level, and ingrained discriminatory attitudes and 
        practices toward migrants impede actual reform.
        <bullet> The Chinese government does not implement its 
        obligations under the Geneva Convention\243\ toward 
        North Korean refugees, instead repatriating many of 
        them to North Korea without granting them their rights 
        under international law.

    China's stark urban-rural divide and internal migration 
problems are rooted in the country's residence registration 
(hukou) system. As the country continues on its path of rapid 
modernization and confronts the already wide and growing 
economic gap between urban and rural residents, the hukou 
system is responsible for, or exacerbates, some of the social 
and economic problems that have developed over the last five 
decades. A succession of policy reforms announced since the 
beginning of 2003, abolishing or amending previously 
restrictive and discriminatory regulations related to hukou and 
migrant issues, have been positive steps toward dismantling a 
half-century old system that has hindered Chinese citizens' 
freedom to change residence and employment. However, whether 
these changes will actually improve the lives of millions of 
migrants across China depends on whether and how local 
authorities implement these new policies and recognize 
migrants' rights.
    China's central government implemented the hukou system 
during the famines of the 1950s to differentiate food-growing 
farmers from urbanites who needed grain rations. This system 
divided Chinese society into urban and rural classes, 
permanently attaching citizens to a specific place of 
residence. Officials administering the system issue 
identification booklets, also called hukou, to each citizen, 
identifying him or her as a rural or urban resident. Every 
urban administrative unit issues its own hukou, which affords 
hukou holders of that urban area full access to such social 
services as health care, education, and subsidized housing. 
This system creates unyielding hierarchical divisions in 
society, as hukou status is inherited, and provides urban hukou 
holders with privileges unavailable to rural residents. Through 
the 1970s, the system became so rigid that traveling within the 
country was extremely difficult, and ``peasants could be 
arrested just for entering cities.'' \244\
    In the 1980s and 1990s, most urban areas relaxed hukou 
restrictions with the beginning of economic reforms. The 
dismantling of the collective farming system, food rationing, 
and other structures that supported the hukou system made it 
necessary to implement more flexible rural-urban migration 
policies. The combination of economic reforms and easing of 
travel barriers led to an influx of rural migrants into urban 
areas, and to this day urban areas 
continue to see a constant flow of rural migrants looking for 
opportunities for themselves and their families. In November 
2001, China Information Daily reported that from 1982 to 2000, 
more than 200 million rural Chinese migrated to urban areas, 
with more than 100 million of them arriving between 1995 and 
2000.\245\ Of the total number of rural-to-urban migrants over 
the last couple of decades, approximately 100 million resided 
illegally in urban areas without temporary residence permits or 
urban hukou. Some predict that the total number of rural 
migrants permanently moving to urban areas will increase by an 
additional 100 to 180 million people by 2010.\246\
    Chinese Communist Party Central Committee Document No. 11, 
issued in November 2000, outlines China's urbanization strategy 
for the Tenth 5-Year Plan from 2001 to 2005. The document 
provides a framework for basic hukou reform, allowing an 
individual and his or her immediate family members to obtain an 
urban hukou if he or she has stable work and a fixed residence, 
usually for more than a year, in an urban area. In addition, 
some urban areas that implement hukou reform also tend to offer 
permanent residence to migrants if they have investments or 
property in the city, or if they have graduate degrees. In 
March 2001, the State Council issued Circular No. 6, which 
instructed all cities having populations less than 100,000 to 
grant a hukou to residents with fixed jobs and homes beginning 
in October 2001.
    Implementation and interpretation of such policies vary 
from locality to locality, however, and the ease with which 
rural migrants can obtain an urban hukou differs greatly from 
one city to the next. Thus, rural migrants must overcome 
significant hurdles to obtain an urban hukou in cities where 
they find employment. Without an urban hukou, a migrant 
generally does not have access to basic services such as 
education and health care. Children of migrant workers without 
a hukou who live in urban areas with their parents cannot 
themselves get a hukou, and thus are unable to enroll in 
school. This obstacle to receiving an education violates 
Article 46 of the Chinese Constitution, which ensures Chinese 
citizens the right to receive education. Despite relaxations of 
the system and various reforms made in some urban areas, ``the 
hukou system continues to impose differential opportunities 
based on inherited status, and is one of the key factors that 
exacerbates the growing inequality maintained by the deep 
rural-urban divide.'' \247\
    Rural migrants to urban areas who lack an urban hukou 
amount to second-class citizens in the cities. Such migrants 
frequently are at the mercy of local authorities. Migrants face 
prejudice, discrimination, and exploitation by urban residents, 
employers, and officials, and have little legal recourse to 
fight such abuses. Migrants often only have access to the most 
menial, dangerous, and lowest paying jobs. Some of the 
prejudice is rooted in social and official attitudes, since 
``migrants have been perceived as rootless people who, free of 
communal or governmental constraints, embody potential societal 
chaos (luan).'' \248\ Furthermore, Hein Mallee asserts in an 
essay on migration and hukou in China, ``From the state's point 
of view, people without, or far removed from, their 
organization or village are anonymous and thus unaccountable, 
untraceable, [and] hard to control.'' \249\
    While migrants can move fairly freely from rural to urban 
areas in search of opportunities, they lead a tenuous existence 
when they lack a hukou or work permit for the city in which 
they reside and work. Until June 18, 2003, a regulation 
entitled ``Measures for the Custody and Repatriation of Vagrant 
Beggars in Cities'' allowed police to detain at will and 
without justification anyone who did not have an identification 
card, residence card, or work permit [see Section III(a)]. This 
regulation led to countless detentions and numerous detainees' 
deaths.
    In response to public outrage over the death in custody of 
Sun Zhigang [see Section III(a)], the State Council abolished 
the custody and repatriation regulation in June 2003 and issued 
a new regulation to provide assistance to migrants and the 
homeless in urban areas, effective August 1, 2003. While this 
is a positive step in breaking the hukou barriers for migrants 
and relieving their precarious legal status in urban areas, the 
new regulation's success in upholding migrants' rights will 
depend upon implementation at the local level.
    Since the beginning of 2003, a number of other policy 
changes have been made that promise better prospects and less 
hardship for rural migrants seeking urban hukou. On January 5, 
the State Council issued a directive proclaiming that rural 
migrants have the legal right to work in cities, forbidding 
discriminatory policies toward migrants, and ordering police to 
provide urban hukou to any migrant who finds a job in that 
city.\250\ This policy change indicates progress toward 
eliminating the abuses that rural migrants suffer at the hands 
of local authorities and employers. It is unclear whether these 
changes will take hold at the local level, considering ``the 
fact that control over migration is no longer in the hands of 
the central government, but in those of the local 
municipalities.'' \251\ The ingrained prejudices and 
discriminatory and abusive practices toward rural migrants will 
take time to shed, though migrants may finally begin to have 
the law on their side.
    Even as it moves to diminish internal controls on travel 
and choice of residence for Chinese citizens, the Chinese 
government continues to forcibly repatriate North Korean 
migrants who have sought refuge from starvation and 
repression.\252\ Although China is honoring a treaty obligation 
with the Democratic People's Republic of Korea (DPRK), these 
repatriations contravene its obligations as a signatory of the 
1951 Geneva Convention Relating to the Status of Refugees. The 
Convention forbids a signatory from expelling or returning a 
refugee to a place where his or her life or freedom would be 
threatened, and requires signatories to permit refugees to seek 
resettlement in third countries, normally under the auspices of 
the UN High Commissioner for Refugees (UNHCR).

        IV. Maintaining Lists of Victims of Human Rights Abuses

                      Political Prisoner Database

    The Commission's mandate includes maintaining information 
about victims of human rights abuses in China. To address this 
statutory requirement, and to facilitate the reporting, 
tracking, and analysis of information about political prisoners 
in China, the Commission is developing a political prisoner 
database that will provide information to Members of Congress, 
Administration officials, and the general public.
    During 2003, the Commission made progress toward developing 
this system. During the coming year, the Commission staff 
expects to develop software, test it, commence populating the 
database with information about current prisoners, and make 
information from the system available to the general public. 
Information about persons imprisoned in China for exercising 
their internationally recognized human rights will be 
searchable in a variety of ways intended to accommodate diverse 
interests. The system will provide persons with Internet access 
the opportunity to conduct a query and receive a response. 
Areas available for query will include issue focus (e.g., 
religious freedom, labor rights, ethnic groups), province, time 
period, current status of detention, and legal process (e.g., 
judicial or administrative).
    While the database is in development, the Commission will 
continue to monitor both key systemic issues underlying 
political imprisonment and the cases of individual prisoners, 
and will take measures on their behalf when appropriate.

            V. Development of Rule of Law and Civil Society


                                FINDINGS


        <bullet> China's civil society is growing, spurred by 
        an increasing number of non-governmental organizations 
        (NGOs) operating throughout the country. These NGOs, 
        however, face an unfriendly regulatory environment, 
        inadequate funding, and lack of capacity in 
        organizational management, program development, and 
        evaluation.
        <bullet> China's legislative process is gradually 
        becoming more transparent and participatory, 
        particularly at the provincial and local levels. 
        However, reforms have been uneven and citizens most 
        often lack any real power to effect change.
        <bullet> China's compliance with WTO transparency 
        requirements has improved overall, albeit slowly and 
        with significant problems in politically sensitive 
        sectors such as automobiles, agriculture, and 
        telecommunications and other services. The Chinese 
        government's focus on these commitments has contributed 
        to growing public expectations of openness in the 
        legislative and regulatory process.
        <bullet> China's judiciary continues to suffer from a 
        host of complex and interrelated problems, including a 
        shortage of qualified judges, pervasive corruption, and 
        significant limits on judicial independence.
        <bullet> The Chinese government has made progress in 
        its effort to improve the capacity, efficiency, and 
        competence of its judiciary, is taking steps to combat 
        corruption, and is discussing fundamental structural 
        reform of the courts that could enhance judicial 
        independence.
        <bullet> Positive reform of China's judicial 
        institutions will continue but progress is likely to be 
        incremental due to the breadth and complexity of 
        problems, limited resources, tensions between judicial 
        independence and judicial accountability, and limited 
        concepts of judicial independence.
        <bullet> Legal restraints on the arbitrary exercise of 
        government power remain weak in practice, and the 
        development of constitutional enforcement mechanisms is 
        likely to be incremental.
        <bullet> For much of 2003, Chinese officials, scholars, 
        and the public at large engaged in a spirited public 
        discussion of constitutionalism and mechanisms of 
        constitutional enforcement. Although meaningful public 
        space was opened for a discussion about restraints on 
        government power during this time, the government 
        placed restrictions on this discussion in August 2003.
        <bullet> Chinese citizens are using existing legal 
        mechanisms to challenge state action in increasing 
        numbers and, in some areas, are showing a greater 
        ability to challenge state power.

                              Introduction

    As noted in the Commission's 2002 Annual Report, the 
principal structural elements of a rule of law system include 
meaningful limits on the arbitrary exercise of state power, 
predictable and equal application of the law, transparency in 
the lawmaking process, and an independent judiciary. These 
structural elements remain weak in China. Flaws in the system 
of laws persist, and legal restraints on government power are 
limited. Citizens lack access to uncensored information and 
concrete mechanisms to enforce rights provided to them by the 
Chinese Constitution. Public participation in the lawmaking 
process and the activities of nongovernmental organizations is 
severely limited. Senior leaders remain unwilling to subject 
themselves to meaningful checks on their power, and corruption 
with impunity of high-ranking Communist Party cadres and Party 
interference in the work of the courts continue to be problems. 
The Commission notes that China has made progress in building a 
legal infrastructure and has taken limited steps to provide 
checks on state actors and improve transparency. However, the 
Chinese state is still far from creating a legal and political 
system that is governed by the rule of law.

V(a) Nongovernmental Organizations and the Development of Civil Society

    Civil society connotes ``associational space between the 
state and private citizens'' \253\ where individuals can 
``participate voluntarily in public or community affairs, with 
some degree of independence from the Party/state--and they may 
simply be loose associations of people with a common cause.'' 
\254\ Since the early 1980s, the number, size, and influence of 
NGOs in China have increased dramatically, representing ``a key 
step in the evolution of a civil society in China.'' \255\ 
Although the growth of civil society suggests more official 
tolerance for some measure of civic participation and autonomy, 
Chinese government attitudes toward NGOs can change suddenly 
and become unreasonably harsh. Yet the overall government 
attitude toward NGOs appears more relaxed than in the past, 
owing in part to the Chinese government's recognition that it 
can no longer meet the vast social and economic needs of a 
modernizing nation.
    According to Chinese government statistics, at the end of 
2001, China had 129,000 ``social organizations'' (shehui 
tuanti), which were registered with the Ministry of Civil 
Affairs (MOCA), and 82,000 private nonprofit corporations.\256\ 
Estimates of unregistered NGOs range from 1.4 to 2 
million.\257\ Other NGOs, unable or unwilling to register as an 
NGO with MOCA, register instead as for-profit commercial 
enterprises. NGOs engage in work and activities that span a 
wide variety of issues such as the environment, consumer 
protection, poverty alleviation, domestic violence, AIDS 
advocacy, and trade.\258\ In 2002, the government for the first 
time permitted an international NGO--Lions Club International--
to establish chapters in China.
    The Chinese government recognizes that NGOs have an 
important role in filling some of the service gaps left by the 
transition to a market economy and the resulting 
decentralization of authority. An example of such recognition 
can be found in the government's July 2003 regulations on legal 
aid, which emphasize the importance of NGOs in providing legal 
services to China's underprivileged.\259\ At the same time, 
Chinese authorities can react aggressively to perceived threats 
to central authority.\260\ Despite the recent dramatic growth 
in NGOs, three substantial challenges face these organizations 
in China today: burdensome registration requirements, 
inadequate funding, and lack of administrative and program 
capacity.\261\
    Observers of civil society in China uniformly point to the 
onerous regulatory framework governing NGOs as a major 
impediment to the growth and development of civil society in 
China.\262\ NGOs must register with MOCA and must also renew 
their registration annually.\263\ NGOs must also find a 
governmental ``sponsor''--an agency or unit that theoretically 
is involved in similar work--before they are permitted to 
register with MOCA. Some NGOs find this to be an insurmountable 
hurdle, and as a result register instead as for-profit 
enterprises with the Bureau of Industry and Commerce (and 
consequently must pay corporate tax). Other requirements for 
registering with MOCA include a minimum of 50 members and a 
minimum capital of RMB 30,000 (about $3,600). Moreover, only 
one organization of each type may register at each 
administrative level (e.g., only one bird-watching association 
would be permitted per township).\264\
    Regulatory hurdles have led many NGOs to decide not to 
register, at least initially. The same regulations have also 
given MOCA the tools to close noncompliant NGOs. For example, 
in June 2003, MOCA closed 63 NGOs, including the China 
Fisherman's Association, the Golden Lotus Study Group, the Cool 
and Breezy Painting Society and the Dancing Hall Music 
Association. These groups either did not apply to re-register 
when required or failed to submit completed forms to renew 
their registrations. Government officials also closed down some 
organizations because individuals had complained that the 
groups had swindled and deceived them.\265\
    The annual registration renewal requirement gives MOCA a 
useful tool of control. For example, MOCA threatened Friends of 
Nature, the first officially recognized environmental NGO in 
China, with de-registration if it did not oust Wang Lixiong, 
one of its founders and its current secretary.\266\ MOCA deemed 
Wang ``dangerous'' because he supported Tenzin Deleg, a Tibetan 
lama who was sentenced to death for alleged participation in a 
terrorist conspiracy in Sichuan.\267\
    A lack of funds for operational and capital expenses 
plagues most NGOs. China's tax and donation laws provide little 
incentive for donations to NGOs, and an identifiable 
philanthropic community or consciousness has yet to arise in 
China.\268\ Consequently, most NGOs rely on international 
sources for funding. China Development Brief estimates that 
China is receiving over $100 million each year in project 
funding directly from or channeled through over 500 
international NGOs, including foundations and faith-based 
charitable groups.\269\ According to the NGO Research Center at 
Tsinghua University, 80 to 90 percent of funding for Chinese 
NGOs comes from international sources.
    Chinese NGOs also lack the requisite capacity to manage 
organizations and programs. NGO officials and staff lack 
experience, training, and knowledge in organizational 
management, human resources, fundraising, public relations, and 
methods of accountability and transparency. The American 
Chamber of Commerce in China (in conjunction with the China 
Development Brief) recently announced an innovative initiative 
to address the need for capacity building among Chinese NGOs. 
The Chamber asks American companies in China to temporarily 
donate highly qualified Chinese technical and managerial staff 
as volunteers at Chinese NGOs to advise in areas such as 
financial management, accounting, personnel management, and 
spreadsheet analysis.\270\
    In addition to the restrictive registration requirements 
forced on Chinese NGOs, government authorities also limit 
permissible activities and subject matter. For example, no 
independent domestic NGOs monitor and report on human rights in 
China.\271\ Discussion groups focusing on political reform, 
particularly if they appear in ``cyber society,'' face 
particularly strict scrutiny. The 8- to 10-year sentences 
handed down in 2003 to members of an informal discussion group, 
which debated issues concerning social and political reform, 
provide a stark reminder of the limits on civil society in 
China.
    Despite the significant challenges facing NGOs in China, 
many observers are optimistic about their future. The U.S. 
Embassy in Beijing concludes in its report on NGOs: ``We expect 
China's growing NGO movement to (gradually) gain in strength, 
with Chinese authorities (also gradually) ceding political 
space.'' \272\ Zhou Hongling, founder of the Beijing-based New 
Citizen Education and Research Center, observed recently that 
``[t]he development of civil society is like a rolling stone: 
if you nudge if forward, it will be unstoppable.'' \273\

                V(b) Legislative Reform and Transparency

The National People's Congress
    The Chinese Constitution provides that the National 
People's Congress (NPC) is the highest legislative authority, 
and therefore in theory the highest organ of government power 
in China.\274\ The structure and function of the NPC and its 
local branches are defined in the Chinese Constitution and by a 
number of subsidiary laws and regulations.\275\ The NPC has the 
right to revise the Constitution and create basic laws (jiben 
falu).\276\ It consists of delegates elected from lower-level 
people's congresses for 5-year terms\277\ and convenes as a 
whole in March each year.\278\ In principle, ``[t]he NPC is the 
supreme source of law in China and the basic laws (jiben falu) 
and other laws (falu) adopted by the full NPC or its Standing 
Committee are the highest form of law after the Constitution.'' 
\279\
    In reality, however, the NPC traditionally has been 
subservient to the leadership's wishes, and in most respects 
has operated as a ``rubber stamp'' legislature. Beginning in 
the early 1990s, this role has gradually changed, and the NPC 
has begun to exercise more control over the legislative and 
policy agenda in accordance with its constitutional 
mandate.\280\ This change follows leadership efforts to define 
more clearly the scope of the NPC's legislative powers, to 
unify the legislative system to prevent conflicts of laws, and 
to improve the overall quality of legislation.
    In 2000, the NPC enacted the Legislation Law, a statute 
intended to standardize China's lawmaking process and define 
more clearly the boundaries of legislative power in China.\281\ 
Under the Legislation Law, only the NPC and, in some cases, its 
Standing Committee, can pass legislation on matters relating to 
the structure of state organs, the criminal justice system, and 
the deprivation of the personal freedom of citizens.\282\
    The push to improve the quality of legislation has 
generated institutional change within the NPC itself. The 
Presidium sits at the top of the NPC's structure, and 
ultimately decides whether or not to permit draft laws to be 
considered by NPC sessions. This group also decides other 
logistical and procedural questions and lays out the general 
legislative program for each 5-year period.\283\ The NPC also 
has institutionalized the process of creating specialized 
committees to focus on specific areas of law. In March 2003, 
the NPC announced that it would establish nine specialized 
committees for the 10th NPC.\284\ In addition, the NPC now 
houses a significantly larger bureaucracy that drafts higher 
quality legislation and better supervises both the execution of 
NPC laws and the legislative efforts of the local people's 
congresses. This bureaucracy also has become more competent and 
specialized and has become a significant power center within 
the government.
    When the NPC is not in session, its Standing Committee 
assumes legislative responsibilities until the next time the 
entire Congress convenes. The Standing Committee consists of 
delegates elected from the NPC and has a similar structure and 
virtually identical procedures to the NPC.\285\ The Standing 
Committee has more limits on the types of laws it can draft 
than the NPC as a whole, but because the Standing Committee 
controls the legislative agenda for a longer period each year, 
it has produced a larger body of law. Like the NPC as a whole, 
the Standing Committee has made efforts to improve the quality 
of the legislation it promulgates. In 2003, the Standing 
Committee expanded from 155 to 175 members. The 20 new members 
serve as full-time delegates (as opposed to many older Standing 
Committee members who serve only on a part-time basis) and have 
professional backgrounds in subjects such as law and economics. 
The Standing Committee also has its own specialized bureaucracy 
to assist in drafting and supervising legislation.
    Overall, the NPC has taken significant strides toward 
technical and professional competence. Although it was once 
common for laws to be drafted entirely within the State Council 
before being passed over to the NPC for enactment, the NPC has 
now begun to exercise more control over its own legislation, as 
was the case with respect to the China Contract Law passed in 
1999.\286\ Despite these advances, the NPC generally tends to 
purposely draft laws broadly, leaving considerable room for 
interpretation by those charged with executing and enforcing 
them.
    The NPC also has heightened its stature by opening the 
legislative process to outside experts. The Legislation Law 
permits the NPC and its Standing Committee to seek outside 
opinions on its legislation. In addition to drawing on the 
developing competence of its own staff, the NPC increasingly 
relies on the expertise of scholars, private sector lawyers and 
other outside experts during the legislative process.
    Still, there is little evidence that the public at large 
has much exposure to the proceedings of the NPC. While the 
Legislation Law contemplates the solicitation of opinions on 
draft laws through ``symposiums, debating meetings and public 
hearings'' and publication of drafts of ``important legislative 
bills,'' \287\ it does not require the NPC to do so. Without 
any provisions mandating publication, the NPC has little 
incentive to provide increased transparency.\288\
Local People's Congresses
    Article 1 of the Organic Law on Local People's Governments 
and Congresses specifies that each province, centrally-
administered municipality (Beijing, Chongqing, Shanghai, and 
Tianjin), and autonomous region has its local people's congress 
(LPC). The Organic Law also provides for local congresses at 
the county level and below. Like the NPC at the national level, 
LPCs also have risen in prominence and importance in recent 
years.\289\ The Chinese Constitution charges local congresses 
and governments with legislating on specific matters relating 
to the localities and drafting local regulations to implement 
certain NPC laws.\290\ Local governments also have the power to 
draft regulations or detailed implementation rules similar to 
those that a State Council ministry would draft. The 
Legislation Law requires that local congresses and governments 
have internal procedures similar to those laid out for the NPC 
and its Standing Committee for drafting and debating 
legislation.\291\
    In the past decade, LPCs have been the focal point for much 
of the experimentation occurring in China in reforming 
legislative processes. This trend is due in part to increasing 
popular demand. The Chinese public no longer places complete 
trust in government officials or institutions, and increasingly 
looks to the law as a tool to limit government powers.\292\ As 
a result, the public has shown a growing interest both in 
seeing quality legislation produced and in having a role in the 
legislative process.\293\ Many local people's congresses now 
view public participation and transparency as vehicles to gain 
legitimacy for their legislation.\294\
    In Shanghai, which is often the center of nascent legal 
reform efforts, the Shanghai People's Congress has taken a 
number of steps to open up its legislative process. The 
Shanghai People's Congress now makes a practice of seeking the 
views of the Shanghai Bar 
Association when issuing any new laws,\295\ and Chinese lawyers 
report that the people's congress is considering financial 
support for academics to draft legislation.\296\ Moreover, the 
Shanghai People's Congress has been a pioneer in holding open 
hearings on legislation.\297\ Using a model for public hearings 
based on U.S. practice, the Shanghai People's Congress has been 
working to develop its own procedures. This process is 
evolving. The Shanghai People's Congress has experimented with 
different methods to notify the public about the hearings and 
with a variety of formats for the hearings themselves. It also 
has sought input and feedback from a number of sources on how 
to improve its hearings. Shanghai has seen a growing number of 
exchanges with delegations from other LPCs interested in 
improving public participation in the drafting process.
    Other LPCs also have begun making efforts to improve the 
transparency of their legislative processes in the past year. 
The Standing Committee of the Yunnan Provincial People's 
Congress passed a ``Decision to Openly Solicit Legislative 
Items and Draft Laws,'' calling for the public to submit 
legislative items and draft laws. This decision was the first 
attempt by Yunnan authorities to open the legislative process 
to public participation.\298\ According to Na Qi of the Yunnan 
Academy of Social Sciences, this experiment may enhance 
transparency in legislative activities and provides new means 
of measuring public opinion.\299\ The Sichuan People's Congress 
has been publicly soliciting proposals since November 2002, and 
it included 13 proposals it received through the solicitation 
process in the Standing Committee's 2003 Plan on Legislation 
Proposals.\300\ In December 2002, the Guiyang Municipal 
People's Congress began soliciting legislative proposals as 
well as comments from the public on existing legislation.\301\ 
The Standing Committee of Zhejiang Province has announced a 
plan to regularize public participation in its legislative 
process by opening all of its meetings to the public.\302\ 
Other cities and provinces that have begun to collect 
suggestions on legislation from citizens include Beijing, 
Kunming, Gansu, and Guangdong.
    These efforts to improve transparency are limited, however, 
to only a small number of geographic areas. Such steps cannot 
be characterized as an indication that the legislative process 
on the whole has become significantly more democratic. The 
Communist Party still exercises control over the lawmaking 
process at every level. Representatives in the NPC and the LPCs 
have limited accountability, as direct elections only take 
place at the very lowest levels, notably for village 
representatives to the township local people's congress. Even 
at these levels, some have questioned the value of elections. 
While some observers argue that the elections familiarize the 
Chinese people with the tools of democracy and could lead to a 
yearning for greater popular representation at higher levels of 
government, critics charge that the election process only 
serves to strengthen Communist Party control. Moreover, the 
elections that do take place have many deficiencies--there are 
no competitive political parties, candidates are not granted 
access to the media, and secret ballot booths often are 
inadequately administered.\303\

The State Council
    China's State Council executes laws and supervises the 
government bureaucracy and thus carries out the administrative 
functions of the Chinese government.\304\ The Premier heads the 
Council and is assisted by the Vice-Premiers and the ministers 
and chairmen of the commissions. Subordinate to the State 
Council are ministries, commissions, and direct offices, which 
constitute the State Council's principal policymaking and 
supervisory offices.
    The Chinese Constitution directs the State Council to 
assure that laws passed by the NPC are promptly and properly 
executed. Thus, it serves a primarily administrative function. 
The Constitution gives the State Council specific power ``to 
adopt administrative measures, enact administrative rules and 
regulations, and issue 
decisions and orders in accordance with the Constitution and 
statutes.'' \305\ Before the Legislation Law was enacted in 
2000, a tradition of vaguely drafted laws and deference to the 
State Council left it with a wide mandate to regulate.\306\ The 
Legislation Law defined the subjects that must be addressed in 
the form of ``laws'' and thus are exclusively within the 
competence of the NPC. Together with a trend toward more 
precise drafting within the NPC, the Legislation Law now 
provides more concrete guidance on the State Council's 
rulemaking powers.
    The State Council maintains a large staff that enacts 
detailed regulations and instructions on how to execute the 
laws.\307\ Since the early 1980s, this staff has reflected an 
overall trend in Chinese government institutions toward greater 
professional competence and specialization.\308\ Improving the 
quality of its regulations and avoiding conflicts between law 
and administrative and local regulations on important issues 
have been high priorities.
    Through organizational changes, the State Council has 
sought to improve efficiency, combat corruption, and advance 
market-oriented economic reforms. In its March 2003 reform 
plan, the NPC made several important changes to the State 
Council that reflect China's interest in developing a ``market 
economy with socialist characteristics.'' The merger of a 
number of government bodies that administer China's domestic 
and foreign trade regimes into a new Ministry of Commerce 
(MOFCOM) may prove to be the most significant of these 
changes.\309\ MOFCOM may simplify access to China's economy for 
foreign businesses and investors through greater centralization 
and coordination of regulatory activities. In other potentially 
important changes, the NPC created a new commission to 
supervise state-owned enterprises,\310\ with a mandate to 
supervise state capital, but not to participate in the 
management of the specific enterprises. The NPC also created a 
new commission to supervise the People's Bank of China, 
apparently to coordinate efforts to shore up the shaky state-
owned banking sector--a risky and complex task.\311\

Local Government Pilot Programs
    As with local people's congresses, local administrative 
agencies are becoming increasingly aware of the importance of 
transparency in carrying out the laws governing their 
communities. Many local governments are attempting to improve 
transparency through 
experimental programs that the central government has either 
explicitly or tacitly sanctioned. The Shenzhen government's 
pilot program to transform local government administration into 
a ``tripartite administration system'' has been among the most 
publicized of these initiatives.\312\ Experts expect that the 
new tripartite system ``will make possible the effective 
restraining of power and will make policymaking more democratic 
and scientific; it will make the execution of policies more 
transparent and impartial, and supervision more effective and 
vigorous.'' \313\
    Other government reform efforts have resulted in promising 
changes, if on a smaller scale. For example, almost all 
provinces, autonomous regions, centrally-administered 
municipalities, and provincial and regional capitals now have 
detailed government Web sites.\314\ More than half of these Web 
sites list at least some laws and regulations, although very 
few post draft versions of laws and regulations.\315\ Most Web 
sites give the public the ability to contact government 
officials via email or by submission to an online ``mailbox.'' 
Some sites also invite the public to ask questions about or 
comment on government policies or procedures. In some cases, 
the public can view the responses that the government provides 
to each submission.

                        V(c) The Judicial System

    Judicial reform is a critical element of China's rule of 
law development. At its core, the rule of law requires the 
impartial resolution of disputes, consistent and predictable 
application of legal rules, and the existence of mechanisms to 
protect legal rights and limit the arbitrary exercise of power. 
A clean, competent, and independent judiciary is a key 
institutional foundation for these rule of law elements.
    The Chinese government has made the judiciary a primary 
focus of its legal reform effort. In its 5-Year Plan for Court 
Reform issued in 1999, China's Supreme People's Court (SPC) set 
39 specific goals, including initiatives to improve judicial 
efficiency, streamline court organization and address such core 
problems as corruption, limited transparency, interference in 
judicial decisionmaking, a shortage of qualified judges, and 
obstacles to the enforcement of court judgments.\316\ Although 
China has made progress in addressing some of these problems, 
they continue to be areas of concern.

Authority of Chinese Courts
    In China, courts have limited power and authority. As 
discussed in Section V(b), the National People's Congress (NPC) 
is the highest organ of state power under China's Constitution. 
The NPC and its Standing Committee have the ultimate authority 
to interpret law and to enforce the Constitution.\317\ As China 
is a civil law jurisdiction, courts have no formal power to 
make law in the sense that judicial decisions are not binding 
precedent. Similarly, courts are not empowered to interpret 
administrative regulations--ultimate authority over the 
interpretation and application of such rules rest with the 
issuing agency.\318\ Even with this limited authority, Chinese 
courts are subject to detailed supervision by the people's 
congresses and the procuratorate. Court officials typically are 
outranked by public security and other law enforcement 
officials in the Party hierarchy, limiting their influence over 
Communist Party policy related to legal work.\319\
    One consequence of the limited power of Chinese courts is 
that many court judgments are not enforced. As a July 2003 
report by China's official Xinhua News Agency notes, most court 
enforcement orders remain unresolved, ``leaving a blemish on 
the reputation of the judiciary.'' \320\ The problem is serious 
enough that judicial leaders have made improving the 
enforcement of judgments a key reform goal.\321\ In the 
criminal context, the weak position of the courts in relation 
to public security and prosecutors makes it difficult for the 
courts to check abuses by these institutions or to resist 
interference from law enforcement chiefs in sensitive cases.

Judicial Competence
    Lack of professionalism is another pressing issue facing 
China's judiciary. Until 1995, when the NPC enacted the Judges 
Law, Chinese judges were not required to hold a college degree, 
and many judges were recruited from the ranks of retired 
military officers, law enforcement personnel, or Party 
cadres.\322\ Despite a steady rise in the educational level of 
Chinese judges in the 1990s, as of early 2003, only about 40 
percent of China's 220,000 judges held a 4-year university 
degree, and only about 2 percent held graduate degrees.\323\ 
Lack of competence is a particular problem in basic level 
courts, which employ 80 percent of judicial personnel.\324\ 
Only 15 percent of judges and assistant judges in these courts 
held 4-year university degrees as of 2002.\325\ Without advanced 
educational credentials or legal training, these judges often 
have difficulty grasping basic legal concepts and adjudicating 
cases,\326\ a problem that is intensifying as Chinese law 
becomes more specialized and complex. Compounding the problem, 
the low salaries of judges and relatively weak authority of the 
courts make it difficult for the judiciary to attract qualified 
recruits; top law school graduates prefer to enter private 
practice, where the work is more lucrative and less 
frustrating.\327\ The poor quality of the judiciary, pervasive 
corruption, and other problems have led to loss of confidence 
in the legal system and strong criticism of the courts by the 
NPC, the media, and the public.\328\ In March 2003, the SPC 
reported that judicial organs handled more than 42 million 
letters and complaints between 1998 and 2002,\329\ and NPC 
delegates voted against or abstained on the SPC's 2003 annual 
work report in historically large numbers.\330\
    In response to these problems, the SPC has identified 
professionalization of the judiciary as one of its top reform 
goals\331\ and has worked to improve judicial competence. Under 
amendments to the Judges Law in 2001 and subsequent SPC 
circulars, newly appointed judges must: (1) have an 
undergraduate degree in law or a degree in another subject and 
some legal knowledge, (2) have 2 to 3 years of legal experience 
(depending on the level of court that the judge is working in), 
and (3) pass a national unified judicial examination and a 
provincial court evaluation.\332\ The new rules require courts 
at all levels to certify the qualifications of judges,\333\ and 
sitting judges without the requisite qualifications must obtain 
new credentials within 5 years or face removal.\334\ The SPC 
has also introduced reforms to encourage merit-based 
promotion.\335\
    In addition to the reforms above, Chinese courts are 
engaged in a large-scale program of mandatory training for 
judges. The SPC established a National Judicial College in 
Beijing in 1997 and issued regulations that require provincial-
level people's courts to establish and carry out judicial 
training programs. While the length and quality of training 
varies, official Chinese sources report that over 200,000 
judges and court personnel have received at least some 
additional legal training since the program was launched in 
1998.\336\ SPC regulations require local courts to establish 
training implementation and evaluation plans and judges to 
complete 1 month of continuing legal education every 3 
years.\337\ Despite these significant achievements, legal 
experts conclude that China is likely to be encumbered by a 
poorly trained judiciary for at least 
another generation.\338\

Corruption
    Chinese courts continue to be plagued by widespread 
corruption.\339\ Although comprehensive statistics on 
corruption are not available, a steady stream of regulations 
and circulars dealing with judicial ethics,\340\ frequent media 
reports of judicial malfeasance,\341\ and SPC President Xiao 
Yang's continued emphasis on corruption as a major judicial 
reform issue indicates that the problem is serious.\342\ In an 
effort to control judicial corruption, the SPC has undertaken 
annual rectification campaigns\343\ and passed numerous 
regulations on judicial ethics and conduct, including standards 
for recusal and rules imposing personal liability on judges for 
wrongly decided cases.\344\ The NPC has also called for 
enhanced supervision of the judiciary by people's congresses 
and the procuratorate. However, the problem of judicial 
corruption does not appear to be abating. In June 2003, the SPC 
issued yet another circular stressing its intent to strictly 
enforce existing judicial ethics rules and announced another 
round of judicial inspections to last through September 
2003.\345\

Quality and Availability of Judicial Decisions
    Court judgments in China do not have the same force as 
those in common law countries because judicial decisions are 
not formally binding precedent. Nevertheless, from the 
perspective of judicial transparency and impartiality, the 
quality and availability of court judgments is a key rule of 
law concern. Until recently, most court decisions in China were 
short, formalistic, and often lacked detailed legal reasoning 
or references to the law.\346\ In fact, SPC regulations in 
effect before 1999 prohibited Chinese courts from citing to 
several sources of law that they were required to rely on.\347\ 
Only a small percentage of judgments were selected for 
publication, and then only in heavily edited versions that were 
often out of date by the time they were published.\348\
    In recent years, the SPC has taken steps to improve the 
quality and availability of judicial decisions as a way to 
control corruption, root out incompetent judges, and improve 
the image of the judiciary. After highlighting the importance 
of court judgments in its 5-Year Court Reform Plan, the SPC 
passed guidelines requiring statements of legal reasoning in 
judicial decisions\349\ and issued regulations on the 
publication of judgments.\350\ The publication regulations call 
for influential or typical cases to be published in legal and 
general circulation papers, encourage courts to publish 
ordinary judgments in a timely manner, and highlight the 
Internet as an important medium for the publication of 
judgments. These reforms have resulted in some positive 
changes. The number of legal gazettes and compendia of 
published court decisions has increased in recent years.\351\ 
More importantly, the SPC and many local courts have 
established Web sites on which they have posted a growing 
number of case decisions.\352\ Although courts and publishers 
still heavily edit many decisions, the number of complete 
judgments available and the quality of judgments is slowly on 
the rise.\353\ Finally, several local courts have begun to 
experiment with case precedent, a development that some Chinese 
legal scholars believe will enhance impartiality and efficiency 
in the judiciary.\354\
    Despite these positive trends, courts face significant 
obstacles in improving judgments. Many courts in less-developed 
or rural areas lack computers and other basic equipment, making 
the publication of judgments difficult.\355\ In addition, many 
judges lack the training and expertise to draft publishable 
decisions with citations to the law and clear legal reasoning. 
Perhaps due to this concern, SPC regulations require all 
judgments to be submitted to an editorial committee for 
approval and specifically prohibit the publication of 
``substandard'' judgments.\356\ Given the scale of these 
capacity problems, improvement in judicial decisions will 
likely be incremental.

Limits on Judicial Independence
    China's judiciary continues to be subject to a variety of 
internal and external controls that significantly limit its 
ability to engage in independent decisionmaking. Several 
internal mechanisms within the judiciary itself limit the 
independence of individual judges. A panel of judges decides 
most cases in China, with one member of the panel presiding at 
trial.\357\ Despite recent reforms to enhance the independence 
of individual judges and judicial panels, court adjudicative 
committees led by court presidents still have the power to 
review and approve decisions in complex or sensitive 
cases.\358\ Finally, judges in lower courts frequently seek the 
opinions of higher courts before making decisions on cases 
before them. Some legal reformers in China oppose this 
practice, arguing that it undermines the right of appeal.\359\ 
China experts differ on whether the practice has become more or 
less frequent as reforms have progressed in recent years.\360\
    Local governments are the most significant source of 
external interference in judicial decisionmaking. Local 
governments often interfere in judicial decisions in order to 
protect local industries or litigants, or, in the case of 
administrative lawsuits, to shield themselves from 
liability.\361\ Local governments are able to exert influence 
on judges because they control local judicial salaries and 
court finances and also make judicial appointments.\362\ 
According to one recent SPC study, over 68 percent of surveyed 
judges identified local protectionism as a major cause of 
unfairness in judicial decisions.\363\ Judicial authorities in 
China speak frequently about the problem of administrative 
interference and have identified the spread of local 
protectionism as one of the principal problems facing the 
courts.\364\
    The Communist Party also influences judicial decisions in 
both direct and indirect ways. Party groups within the courts 
enforce Party discipline\365\ and the Party approves judicial 
appointments and personnel decisions.\366\ Judges conscious of 
these control mechanisms are conditioned to watch for changes 
in Party policy in carrying out their work.\367\ The Party 
exercises direct influence in 
individual cases through the Political-Legal Committees (PLCs) 
at each level of government. PLCs supervise and direct the work 
of state legal institutions, including the courts.\368\ PLCs 
are typically staffed by court presidents, the heads of law 
enforcement agencies, officials of the justice ministry or 
bureau, and other legal organs. Although PLCs focus primarily 
on ideological matters,\369\ they can influence the outcome of 
cases, particularly when the case is sensitive or 
important.\370\ Judicial surveys suggest that direct Party 
interference is less common than local government interference, 
but this distinction is clouded in practice, as most key 
government officials are also Party members.\371\
    A third significant form of external control is supervision 
by people's congresses and the procuratorate. Under the Chinese 
Constitution and national law, both the procuratorate and the 
people's congresses have the power to supervise the work of 
judges and the courts and to call for the reconsideration of 
cases.\372\ In the case of the procuratorate, this power 
presents particular problems. Because the procuratorate has a 
dual role as both prosecutor and 
supervisor of the legal process, it has a conflict of interest 
in exercising its function of supervising the courts.

Prospects for Enhanced Judicial Independence
    Both Communist Party and government leaders in China have 
embraced ``judicial independence'' as a key reform goal and 
have taken limited steps to enhance the autonomy of China's 
judges and courts.\373\ Although important and complex cases 
are still subject to adjudication committee review, reforms 
have enhanced the power of presiding judges, and panels of 
trial judges now have the power to decide many ordinary cases 
without interference from court presidents or the adjudicative 
committee.\374\ The SPC and NPC also are discussing major 
structural reforms to combat the problem of local 
administrative interference in the courts. Three principal 
reforms under discussion are: (1) establishing a system of 
national judicial circuits that transcend administrative 
boundaries, which in theory would reduce the influence of local 
governments; (2) centralizing control over court finances and 
judicial salaries; and (3) transferring control over the 
appointment of judges at high-level courts or above to the 
central government, and control over appointments at 
intermediate-level courts and below to provincial 
governments.\375\ Although only in the early stages of 
discussion, such reforms could help alleviate the problem of 
local protectionism and as a result enhance the autonomy of the 
judiciary.
    Despite these steps, several factors limit the prospects 
for improved judicial independence in the short term. First, 
Chinese leaders have a more limited concept of ``judicial 
independence'' than that accepted in many Western countries. 
When Chinese leaders refer to ``judicial independence,'' they 
are generally not referring to the independence of individual 
judges, but instead to the autonomy of the courts in relation 
to other entities and government institutions.\376\ Moreover, 
while the Chinese Constitution provides that the courts are not 
subject to interference by administrative organs, social 
organizations, or individuals,\377\ judges are expected to 
adhere to the leadership of the Party and submit to the 
supervision of the people's congresses and the 
procuratorate.\378\ Unlike in many Western countries, these 
influences are generally not considered improper restraints on 
judicial independence.
    There is also a tension between judicial accountability and 
judicial independence. To deal with corruption and lack of 
professional competence in the court system, China's leaders 
have strengthened penalties for misconduct and wrongly decided 
cases and enhanced internal and external supervision of the 
courts.\379\ However, these steps also limit judicial 
independence. As China law expert Randall Peerenboom observes, 
improvements in judicial independence are likely to be 
incremental as China continues to deal with problems of 
corruption and competence in the courts.\380\
    Finally, limited resources and political realities will 
make it difficult for the Chinese government to implement major 
structural reform of the court system. Given the large size of 
the court system and limited central government resources, 
implementation of the more ambitious reform plans, such as 
centralizing control over judicial budgets and appointments, is 
unlikely in the near term.\381\ Moreover, reforms designed to 
increase the authority and stature of the courts will require 
constitutional changes and shifts in institutional balances of 
power. Law enforcement and administrative organs that would 
lose power to the judiciary as a result of such reforms are 
likely to resist the changes.\382\ Thus, while the United 
States should encourage current reform efforts, it should not 
expect drastic improvements in judicial independence in the 
near term.

         V(d) Commercial Rule of Law and the Impact of the WTO

    Increasing awareness of the importance of World Trade 
Organization (WTO) compliance has served as the motivation for 
a number of reform efforts by national and local government 
bodies throughout China. For the most part, however, these 
efforts are limited in scope, and it is still too early to 
determine whether such efforts will lead to the comprehensive 
changes in China's legal system that are required for full WTO 
compliance. In the second year since China's accession, many 
observers believe there has been some progress in meeting its 
commitments. However, outstanding issues--particularly in 
sensitive sectors such as automobiles, agriculture, and 
telecommunications and other services--are attracting 
increasing attention from China's trading partners and threaten 
to overshadow any positive achievements.

Transparency Developments
    The Chinese government has made some progress in changing 
its legal framework and legislative process to bring them into 
compliance with its WTO commitments. The National People's 
Congress (NPC) has established a WTO group within its working 
committee on legal affairs; the group has been funding law 
professors to provide legislative drafts.\383\ With advice from 
Chinese and foreign scholars, NPC drafters are working on a new 
anti-monopoly law, an administrative procedure law, and a Civil 
Code that is expected to include provisions regarding the 
protection of private property. Bar associations, including the 
All-China Lawyers Association, the Beijing Bar Association, and 
the Shanghai Bar Association report that their members have 
been participating in drafting trade-related measures and 
providing suggestions for changes to existing legislation that 
is not WTO compliant. More government bodies have made their 
laws and regulations available to the public through 
publication in gazettes and on Web sites.\384\
     NPC-mandated changes to the structure of the State Council 
in early 2003 may be a step toward greater transparency. The 
integration of the trade functions of MOFTEC, the former State 
Economic and Trade Commission, and the former State Development 
Planning Commission into a new Ministry of Commerce (MOFCOM) 
may provide a more consistent and coherent means of 
promulgating trade measures. In addition, trade analysts expect 
trade measures to be more accessible to the public, as MOFCOM 
will publish a single gazette collecting Chinese trade measures 
that were once published in the gazettes of several government 
agencies.
    Local government officials have cited China's transparency 
commitments as justification for launching other types of 
reforms. 
According to Yu Youjun, the mayor of Shenzhen, ``the motivation 
behind the political reform program has been China's accession 
to the World Trade Organization in late 2001 and the need to 
please multinational investors who increasingly insist upon a 
transparent, law-based environment.'' \385\ According to one 
Western observer, ``[t]his suggests that economic engagement 
with China . . . is actually causing the political changes that 
the proponents of engagement have predicted.'' \386\ 
Additionally, Shanghai recently announced the creation of a 
press spokesperson position for the city government, invoking 
China's WTO commitment to transparent government as a reason 
for the step.\387\
    Despite some developments, China's compliance with its WTO 
commitments has been uneven and incomplete. U.S. congressional 
analysts argue that China's compliance with its WTO obligations 
has been ``hampered by resistance to reforms by central and 
local government officials seeking to protect or promote 
industries under their jurisdictions, government corruption, 
and lack of resources devoted by the central government to 
ensure that WTO reforms are carried out in a uniform and 
consistent manner.'' \388\ Local protectionism may prove to be 
the major impediment to WTO-related reforms; central government 
concern about local protectionism has led to the promulgation 
of regulations on the subject.\389\ While publication of 
enacted laws and regulations has become more regular, no 
uniform procedure yet exists for making draft legislation 
available for comment before implementation. Complaints abound 
that a ministry or commission will distribute a draft only to a 
select group. Others complain that interested parties often 
have no chance to review draft legislation before meeting with 
officials to discuss it. Even when government authorities make 
draft documents public, some critics say, the drafts are 
meaningless because the authorities treat the public ``draft'' 
that they have circulated as the final version. According to 
the U.S. Chamber of Commerce, ``In many cases, this reluctance 
seems to be driven by a desire to protect domestic enterprises 
from competition or to slow or otherwise restrict market 
competition.'' \390\ This view is consistent with the belief of 
many analysts that significant transparency problems occur in 
politically sensitive sectors such as automobiles, agriculture, 
and telecommunications and other services.

Nondiscrimination
    China's WTO commitments include the promise of ``national 
treatment'' to nationals of WTO partners--treating foreign 
individuals and enterprises no worse than domestic individuals 
and enterprises with respect to its commercial policies.\391\ 
Both the U.S. Trade Representative and private sector analysts 
charge that certain Chinese government practices contravene these 
nondiscrimination obligations. In particular, China's practice 
of assessing a higher Value Added Tax (VAT) rate on certain 
imported goods than on similar domestically-produced goods has 
come under attack. In addition, policies providing VAT rebates 
on some goods intended for export rather than domestic 
consumption also have been criticized. U.S. and other foreign 
representatives of the semiconductor and fertilizer industries, 
as well as foreign businesses seeking to sell agricultural 
products, have raised VAT-related complaints in the past year. 
Moreover, U.S. companies say that China's implementation of its 
tariff rate quotas or ``TRQs'' for farm commodities unfairly 
favors domestic interests.\392\ U.S. services firms, including 
insurance, banking, and telecommunications providers, also 
argue that China's high capital requirements, restrictions on 
branching, high prudential requirements in service industries, 
and other restrictions amount to de facto discrimination 
against foreign services providers. Finally, China's 
restrictions on foreign investment in biotech industries may 
constitute a violation of the commitment to provide national 
treatment to foreigners.

Judicial Reform Developments
    China's WTO commitments require it to provide prompt and 
independent judicial review of trade-related administrative 
decisions. Many of the judicial reforms discussed in Section 
V(c) are being driven in part by China's effort to comply with 
this WTO obligation. The Supreme People's Court has also issued 
three judicial interpretations clarifying the procedures, 
duties, and standards of courts in handling trade-related 
cases.\393\ As noted, however, general improvements related to 
judicial independence and competence have been limited, and 
further progress is likely to be incremental.

Administrative Licensing Law
    In a welcome development driven in part by WTO compliance 
considerations, the NPC Standing Committee passed an 
Administrative Licensing Law in late August 2003.\394\

               V(e) Legal Restraints on Government Power

    One core structural element of the rule of law is the 
existence of meaningful limits on the arbitrary exercise of 
power by state actors, supported by processes and institutions 
through which citizens can challenge state action. Restraints 
on state power in China traditionally have been weak when they 
have existed at all. As China's legal reform process has 
progressed, however, Chinese scholars and officials have 
discussed the need to establish new mechanisms for 
constitutional enforcement. The Chinese government has also 
created a limited set of legal mechanisms through which 
citizens can challenge state action, such as the Legislation 
Law, the Administrative Litigation Law and the State 
Compensation Law.

Constitutional Enforcement and Legislative Review
    The Chinese Constitution guarantees many of the same rights 
and freedoms enjoyed in the United States and other Western 
democracies. In practice, however, Chinese citizens have no 
real power to enforce these constitutional guarantees. The 
Chinese Constitution vests the National People's Congress (NPC) 
and its Standing Committee with supreme lawmaking authority and 
with the power to interpret law and supervise enforcement of 
the Constitution.\395\ However, the NPC and its Standing 
Committee have not actively performed the latter two functions, 
a deficiency long criticized by Chinese legal scholars.\396\ 
Although the NPC has delegated some limited powers to interpret 
law to the Supreme People's Court (SPC),\397\ historically 
Chinese courts have not had the power to apply constitutional 
provisions in the absence of concrete implementing legislation 
or to strike down legislation that is inconsistent with the 
Constitution.\398\ Given such restraints, some observers have 
characterized the Chinese Constitution as a national 
declaration or aspirational statement analogous to the U.S. 
Declaration of Independence, not as a legally enforceable 
document.\399\
    Although constitutional development has been a subject of 
discussion by Chinese legal scholars for many years, several 
recent legal reforms and events suggest that China is taking 
tentative steps toward the development of more robust 
mechanisms of constitutional enforcement. In 1999, the Chinese 
Constitution was amended to emphasize the concept of rule 
according to law,\400\ a change of significant symbolic 
importance that China's leaders have incorporated into 
government and Party rhetoric.\401\ Under Article 90 of the 
2000 Legislation Law [see Section V(b)], citizens have the 
right to petition the NPC Standing Committee for review of 
administrative regulations that they believe contradict the 
Constitution or national laws.\402\ In 2001, the SPC authorized 
a court in Shandong Province to rely on constitutional 
provisions guaranteeing the right to education in deciding a 
case.\403\ This potentially groundbreaking decision, the first 
in which the SPC explicitly authorized a lower court to 
directly apply constitutional provisions, has spawned new 
theoretical and practical discussion of the judicial 
application of the Constitution. According to Commission 
sources, several legal aid clinics in China are actively 
seeking new constitutional test cases to bring before Chinese 
courts.\404\
    The past year has witnessed a number of notable 
developments related to constitutionalism. In December 2002, Hu 
Jintao chose the celebration of the 20th anniversary of the 
1982 Chinese Constitution as the occasion for his first major 
speech after becoming the new General Secretary of the 
Party.\405\ Hu emphasized the need for enhanced mechanisms of 
constitutional redress and called the Constitution ``a weapon 
to guarantee the protection of citizen rights.'' \406\ In late 
2002, Hu directed the new Communist Party Politburo to hold its 
first study session on the primacy of the Constitution and 
appointed a high-ranking committee under NPC Chairman Wu 
Bangguo to study proposals to amend the Chinese 
Constitution.\407\ The NPC also accelerated work on a national 
Supervision Law, which is expected to provide detailed 
provisions on constitutional supervision.\408\
    These events have taken place in the context of renewed 
study in the NPC, the SPC, and the Party of reforms related to 
constitutional supervision and judicial review.\409\ According 
to Commission sources, while the NPC Standing Committee will 
most likely retain the final power of constitutional review, 
the NPC is considering proposals to grant the SPC and lower 
courts greater authority to rely on the Constitution in 
adjudicating cases.\410\ The creation of a constitutional court 
has also been discussed, but most observers conclude that this 
reform is unlikely to be adopted in the near term.
    Legal reformers and human rights advocates were encouraged 
by the State Council's June 2003 decision to repeal China's 
custody and repatriation regulations. The State Council action 
was prompted in part by legal petitions challenging the 
constitutionality of the regulations. Riding a wave of public 
outcry over the death of Sun Zhigang and intensive reporting of 
the incident in the Chinese media\411\ [see Section III(a)], 
three young legal scholars filed a groundbreaking petition with 
the NPC Standing Committee under Article 90 of the Legislation 
Law, arguing that the administrative regulations conflicted 
with two national laws and were therefore 
illegal restraints on the personal freedom of Chinese 
citizens.\412\ A second group of legal scholars petitioned the 
NPC Standing Committee to establish a special commission of 
inquiry into the Sun Zhigang case and the implementation of the 
regulations.\413\ Although the State Council's decision to 
repeal the custody and repatriation regulations pre-empted the 
need for the NPC Standing Committee to act on the scholars' 
legal challenge, thereby heading off a potentially precedent-
setting annulment of an administrative provision, the decision 
was viewed as a significant victory for legal reformers and 
citizen empowerment and stimulated further discussion of the 
need for constitutional enforcement mechanisms.\414\
    In the context of these events, scholars and the media 
engaged in a spirited discussion of constitutional issues for 
much of 2003. In March, for example, the newspaper Southern 
Weekend published a special issue on constitutional government 
featuring comments by eight prominent legal scholars.\415\ 
Similar discussions have been published in many other Chinese 
newspapers and Web sites for much of the year.\416\ The Sun 
Zhigang case in particular stimulated extensive discourse on 
the need for constitutional enforcement mechanisms. The 
government curtailed these discussions in August 2003, ordering 
the media and academics to refrain from discussing such issues 
and harassing academics that had been active in such debates. 
[See Section III(d)].

The Administrative Litigation Law and State Compensation Law
    Since 1989, China's legislature has passed several laws 
that have enhanced the ability of Chinese citizens to mount 
legal challenges to state action. Under the 1989 Administrative 
Litigation Law (ALL), Chinese citizens and entities have the 
right to bring suit in court to challenge administrative acts 
that violate their lawful rights and interests.\417\ Under the 
ALL, for example, a citizen sentenced to administrative 
detention by public security or arbitrarily denied a license by 
an administrative agency can challenge such decisions in 
court.\418\
    In 1994, the NPC passed a related law called the State 
Compensation Law (SCL). The SCL provides citizens and entities 
with the right to obtain compensation in a limited number of 
situations in which they are harmed by the illegal acts of 
government officials.\419\ Unlike the ALL, the SCL applies to 
both administrative and criminal justice organs. Under the 
SCL's ``criminal compensation'' procedures, citizens have the 
right to seek compensation from public security, procuratorial, 
judicial, and prison management organs for a range of illegal 
acts that take place in the course of criminal investigations, 
prosecutions, and sentencing.\420\
    In practice, litigants face a number of obstacles in making 
use of these legal mechanisms. The scope of both the SCL and 
ALL is limited. Under the ALL, for example, citizens lack the 
power to challenge acts or administrative decisions with 
general applicability, such as family planning policies, and 
neither law applies to acts of the Communist Party.\421\ Many 
citizens either do not understand that they have the right to 
challenge administrative actions and seek compensation, or 
misinterpret the scope of the laws and file improper claims, 
leading to frustration and disillusionment when such claims are 
dismissed.\422\ Official resistance also has been a problem. In 
many cases, recalcitrant officials have restricted information 
about the ALL and SCL, threatened or otherwise mistreated 
claimants, or interfered in court decisions under the 
laws.\423\ Procedural defects in the case of the SCL criminal 
compensation provisions make it easy for law enforcement organs 
to obstruct claims. Finally, the threat of official liability 
under the SCL has placed added pressure on law enforcement 
organs and personnel to secure criminal convictions, a factor 
in continued abuses in the criminal process.\424\
    Despite such obstacles, the ALL and SCL have had some 
positive impact. Both laws have symbolic importance as official 
recognition that government officials violate rights and that 
citizens should have access to legal mechanisms to challenge 
such improper acts.\425\ Citizens also have demonstrated an 
increasing willingness to put these legal mechanisms to use. 
Between 1989 and 2002, courts handled more than 810,000 
administrative litigation cases, with steady growth in the 
annual number of cases over this period.\426\ As measured by 
the number of cases in which the courts revoke or modify 
administrative acts or in which plaintiffs settle with 
administrative agencies, citizen success rates have ranged from 
35 to 40 percent annually.\427\ Although the annual number of 
SCL cases has remained much smaller, it also has grown since 
the SCL was enacted in 1994.\428\ According to official 
statistics, citizen claimants in SCL cases show comparable 
rates of success.\429\ As China law scholar James Feinerman 
told the Commission at an April 2003 roundtable, ``There is no 
doubt that the changes in the last few years, economic, 
political, and legal, have reduced the arbitrariness of the 
government . . . .'' \430\

Implications of Developing Legal Restraints on Government Power
    Despite the promise of these developments, most observers 
are careful not to interpret them as signs that the senior 
leaders of the Communist Party will subject themselves to 
meaningful checks on their power in the near term. The impact 
of many of these developments has been limited. Due in part to 
the lack of a clear procedure for review or requirements that 
it act on petitions within a legally prescribed time period, 
the NPC Standing Committee has been unwilling to formally 
exercise its power to review and annul unconstitutional laws or 
regulations under the Legislation Law.\431\ Even if Chinese 
citizens are provided with more concrete mechanisms through 
which to enforce constitutional rights, such rights are still 
qualified by other constitutional provisions prescribing their 
duties to the state.\432\ While the ALL and SCL have provided 
citizens with basic legal mechanisms through which to challenge 
arbitrary government action, they are limited in scope, and 
citizens face problems such as official resistance and 
procedural obstacles in invoking their rights under the laws. 
Chinese officials routinely ignore fundamental rights and 
freedoms guaranteed to Chinese citizens under the Chinese 
Constitution, and criminal justice authorities subject Chinese 
citizens to a host of arbitrary actions. Existing legal 
mechanisms are not yet strong enough to restrain abuses in 
these and other contexts.
    On a broader level, when Chinese leaders discuss the need 
for constitutional enforcement and legal restraints on the 
government, it is unlikely that they have Western democracies 
in mind as models of governance.\433\ The Chinese Constitution 
affirms the leadership role of the Communist Party,\434\ a 
point that continues to be stressed even in progressive 
discussions of constitutional reform.\435\ General Secretary 
Hu's speech on the Constitution emphasized the leading role of 
the Party and the need to maintain national unity and social 
stability, two common justifications for continued 
authoritarian controls.\436\ The Party controls the lawmaking 
process, and the Chinese leadership likely believes that 
emphasizing rule according to law, promoting constitutional 
enforcement, and enacting statutes such as the ALL and SCL will 
help it to control rampant corruption, bolster the Party's 
legitimacy, and maintain its hold on power.\437\ Finally, as 
noted above, there are limits to the discussion that the 
leadership will tolerate, as evidenced by the government's 
decision to curtail discussion of constitutional reform in 
academic circles and in the media in August 2003.\438\
    Nevertheless, the long-term significance of these events 
should not be dismissed. As illustrated by the repeal of the 
administrative regulations on custody and repatriation, recent 
reforms have had limited but practical impact in providing 
citizens with checks on government action. More importantly, 
they have been crucial symbolic steps that have introduced and 
legitimized the concept of legal restraints on the government, 
generated a greater sense of empowerment among Chinese 
citizens, and established precedents and official space that 
reformers can use to justify an increasingly broad range of 
future reforms and challenges to government abuses.\439\ This 
pattern has characterized China's 25-year legal 
reform process and has been illustrated again in the case of 
the successful challenge to the custody and repatriation 
regulations. Reformers are already stressing that citizens 
cannot rest with this victory and must press for further 
constitutional and legal reform.\440\ These patterns of change 
are likely to continue.

                  VI. Corporate Social Responsibility


                                FINDINGS


        <bullet> Working conditions in factories producing many 
        of the products exported to the United States and 
        elsewhere from China do not meet international norms 
        and standards.
        <bullet> Contract factories that are not owned by U.S. 
        companies produce many of the products that China 
        exports to the United States. Many factories that sell 
        nearly all of their production to U.S. consumers 
        receive only indirect consumer pressure to provide 
        adequate working conditions for their employees.
        <bullet> Despite the good faith attempts of some U.S. 
        companies sourcing from China, current efforts by these 
        companies have not significantly improved working 
        conditions in Chinese contract factories, and these 
        companies are beginning to recognize that auditing is 
        not enough to assure acceptable working conditions.

    As globalization has swept the world economy over the past 
quarter century, the United States has become the destination 
for more manufactured products and agricultural produce from 
developing countries such as China. Many Americans have become 
concerned about the conditions in which these products are 
manufactured, grown, processed, and shipped from abroad. 
Consumer groups, labor activists, religious and service 
organizations, and individual Americans have reacted with alarm 
to reports of the frequently unclean, unsafe, and oppressive 
conditions in which foreign workers make the footwear, toys, 
apparel, textiles, and other goods available in U.S. retail 
stores.\441\ Many of these facilities can be found in China.
    Some NGOs accuse U.S. and other foreign businesses 
operating in China of focusing exclusively on earning profits 
without regard for the promotion of human rights.\442\ 
Businesses respond by saying that a U.S. corporate presence 
represents the best way to promote U.S. values, particularly 
those championed by the most responsible U.S. corporate actors: 
adherence to the rule of law, transparency, workplace health 
and safety, modern environmental standards, and generally to 
build democratic values in China.\443\ This debate fits into a 
larger policy debate about the role of the business corporation 
in modern life, and its responsibilities to the community and 
to the world. Few agree on a single definition of ``corporate 
social responsibility'' (CSR), however.\444\
    The Commission examined a number of these CSR programs and 
policies over the past year, particularly to assess whether or 
not such programs have a significant impact on working 
conditions in China. Commission staff interviewed dozens of 
industry, NGO, and trade union officials, as well as scholars 
and human rights activists. Commission staff also participated 
in a private study group that debated and sought consensus on 
recommendations for government action to promote global 
CSR.\445\

U.S. Corporate Approaches to CSR
    U.S. business firms and multinational corporations based in 
the United States have addressed popular concerns about 
corporate social responsibility in a variety of ways. Some 
firms have adopted their own corporate codes of conduct (see 
the discussion below); others have endorsed one or more of a 
number of industry-wide or global codes. In recent years, 
companies around the world have instituted corporate social 
responsibility programs intended to strike a balance between 
financial success, relations with host governments, and the 
well-being of their surrounding communities. In China, as part 
of such programs, some U.S. companies and industrial 
associations have established guidelines governing their 
practices with respect to working conditions, environmental 
protection, community involvement, and other aspects of their 
corporate activities.\446\
    Some companies apparently equate corporate social 
responsibility with philanthropy, highlighting corporate 
charitable donation practices or the social service work of 
individual executives or employees.\447\ U.S. academic experts 
criticize this view, insisting that 
corporate social responsibility requires more of a business 
corporation than financial or technical support to humanitarian 
projects, however laudable such humanitarian support may 
be.\448\
    U.S. firms that manufacture in China in wholly-owned or 
joint-venture facilities generally implement their CSR policies 
more effectively than U.S. companies that source manufactures from 
factories in China owned by third parties. Virtually all U.S. 
companies with their own factories in China have developed 
their own standards, practices, and policies that they employ 
around the world, and they apply these policies at their 
facilities in China. These policies cover such issues as 
recruitment, training, motivation and promotion, workplace 
health and safety, environmental protection, transparency, and 
community development. As their businesses have matured in 
China, a number of U.S. companies are sourcing components from 
Chinese and third-country manufacturers in China. Most demand 
that contractors follow the principal's policies or guidelines 
on CSR issues such as workplace conditions, but subcontractors 
not supervised directly by the U.S. company may not be 
monitored as carefully for compliance. U.S. service industry 
firms have been increasing their presence in China over the 
past decade, but little information is available about their 
CSR practices in China.
    In contrast to U.S. companies that own their manufacturing 
facilities in China, companies that source in China but do not 
own their factories rely on indirect means of code of conduct 
implementation to assure that the conditions under which their 
products are manufactured meet basic standards. CSR monitoring 
and remediation efforts are uneven and frequently short-
lived.\449\ A number of U.S. and international NGOs promoting 
monitoring and remediation have made some progress in helping 
U.S. companies address these issues in China. But the search 
continues for policy tools that would broaden participation in 
such efforts, and that can effectively address the problems of 
concern to U.S. consumers and activists, particularly 
concerning working conditions and workplace health and safety.

Corporate Codes of Conduct and Labor Conditions
    In response to consumer pressure to ensure adequate working 
conditions in foreign factories, many U.S. companies have 
adopted codes of conduct that outline expectations of how 
workers at foreign supplier facilities should be treated. Most 
codes of conduct require supplier factories to adhere to 
International Labor Organization (ILO) core standards and local 
law concerning child labor, forced labor, health and safety, 
wages and benefits, working hours and overtime compensation, 
nondiscrimination, harassment and abuse, and freedom of 
association and collective bargaining. Of these broad subject 
areas, China presents special difficulties with regard to 
freedom of association, since Chinese law does not permit 
independent labor unions. Some companies deal with this 
contradiction by establishing what one international standard 
of social accountability calls ``parallel means'' of 
representation.\450\ Parallel means require representative 
worker organizations to be established in factories in 
countries where free trade unions are restricted. Few companies 
have successfully ensured worker representation in the absence 
of free trade unions, although factory elections facilitated by 
Reebok, Inc., in 2002 indicate that a functional model to allow 
worker representation within the limits of Chinese law may yet 
emerge.\451\ Not everyone agrees. A senior U.S. labor 
organization official told a Commission roundtable in July 2003 
that ``[w]ithout empirical evidence that notions like `parallel 
means' lead to real freedom of association, it is our view that 
companies operating inside China with a code of conduct that 
includes freedom of association are in fundamental violation of 
their own codes.'' \452\

State Responsibility and Code Enforcement
    Since companies first began implementing codes of conduct, 
enforcement has been contentious. Many companies fail to 
provide any meaningful enforcement of their codes, rendering 
them meaningless. Most companies have made at least token 
gestures to ensure compliance by conducting code of conduct 
factory audits. Some companies supplement an external audit 
with internal auditing programs. But for audits to be credible, 
independent outside organizations should conduct them. Labor 
and industry analysts generally agree that auditing alone is 
insufficient to correct code of conduct violations in supplier 
factories, and that significant follow-up measures are 
required.
    Little public information is available about corporate code 
of conduct compliance programs. Informal conversations with a 
number of companies during 2002 and 2003, however, indicate 
general agreement that companies must augment their auditing by 
working closely with supplier factories to provide training and 
day-to-day encouragement to improve working conditions.
    As in many developing countries, poor working conditions in 
China represent failure of the state and society to perform 
basic functions such as enforcement of existing law. The 
director of a major U.S. NGO told a Commission roundtable in 
May 2003,

          We need to pay attention to what has taken place with 
        this development. We have concluded that the 
        corporations bear ultimate responsibility for the 
        conditions under which their products are manufactured 
        or assembled. We then expect them to become the 
        creators of the standards for the factories and the 
        enforcers of those standards. In other words, we have 
        handed over the role of the society and its governance-
        making and enforcing standards and laws to the 
        corporations we are attempting to hold accountable. It 
        is a shift in power, a shift in responsibility and a 
        shift in accountability.

    Many observers believe that companies can have significant 
impact on working conditions in China, but they admit that no 
individual company is large enough to have decisive impact 
nationwide on its own. Multi-company initiatives such as the 
Fair Labor Association, the Workers' Rights Consortium, SA8000 
and others have yet to produce measurable, wide-spread 
improvement. Unless combined with more vigorous and systematic 
Chinese government efforts to enforce existing Chinese labor 
laws, efforts by U.S. and other foreign corporations seem 
likely to have a piecemeal quality that will limit their 
overall impact, and may prove unsustainable in an environment 
where companies regularly change suppliers.
    The Chinese themselves ultimately will have to improve 
working conditions, both through government enforcement efforts 
and through empowered workers participating in their 
workplaces. However, restrictions on the formation of 
independent trade unions and the insecurities caused by 
temporary resident status for migrant workers prevent workers 
from having a say in improving workplace conditions. Labor 
activist Han Dongfang told a Commission roundtable in November 
2002:

          I keep asking the question, ``Are we talking about 
        monitoring the animal rights or labor rights? '' They 
        are very different. Animal rights should be for those 
        animals that cannot help themselves. Human beings can 
        go and help themselves, so that is one way to look at 
        this question. Another way, if we are talking about 
        labor rights, is that we have to assume that the 
        workers in China and anywhere can help themselves. What 
        we need to do is link them up and help them a little 
        bit and push them, and they will be able to take care 
        of their own problems.\453\

    To succeed, code of conduct compliance must be part of a 
larger process that empowers Chinese workers to assert their 
rights under Chinese law. While some companies have begun to 
explore ways to achieve this end, a formula remains elusive.

                               VII. TIBET


                                FINDINGS


        <bullet> The Dalai Lama's representatives visited China 
        in September 2002 and again in May of this year. The 
        Dalai Lama and his representatives have described the 
        meetings positively and expressed their commitment to 
        continue the process. The visits have the potential to 
        lead eventually to positive developments of long-term 
        significance.
        <bullet> The Dalai Lama is seeking bona fide autonomy 
        for ethnic Tibetan areas of China, as guaranteed by the 
        Chinese Constitution. The Chinese government's 
        priorities are national unity, stability, and 
        prosperity. Chinese and Tibetans would both benefit 
        from an agreement about Tibet's future. As the most 
        respected and influential Tibetan anywhere, the Dalai 
        Lama is uniquely positioned to help ensure the survival 
        and development of Tibetan culture, while contributing 
        to the stability and prosperity of China.
        <bullet> The overall environment for Tibetan culture 
        (including language and religion) and human rights 
        (including the freedoms of religion, speech, and 
        association) is not improving. The Tibetan language and 
        religion are in particular jeopardy.
        <bullet> The growth in the Han population of Tibetan 
        areas is substantial. Many Tibetans believe this influx 
        is the most serious challenge facing Tibetan culture.
        <bullet> The majority of Tibetans, who live in rural 
        areas, benefit little from central government 
        investment in the Tibetan economy. Most of this 
        investment supports large-scale construction and 
        government-run enterprises in which Han control is 
        predominant.

    The Dalai Lama seeks to protect and strengthen Tibetan 
culture, not to gain independence for Tibet.\454\ Where he 
seeks to realize genuine local autonomy and a degree of 
consolidation in the administration of Tibetan territory, 
China's government and Communist Party have instead applied a 
substantial degree of division, and consistently stressed 
national integration over local autonomy. Chinese leaders have 
characterized the Dalai Lama's approach as ``independence in 
disguise,'' \455\ and contend that the Law on Regional National 
Autonomy protects Tibetan culture.\456\ The law inverts the 
commonly understood concept of autonomy, stating, ``The organs 
of self-government of national autonomous areas shall place the 
interests of the state as a whole above anything else and make 
positive efforts to fulfill the tasks assigned by state organs 
at higher levels.'' \457\
    The Chinese government has divided ethnic Tibetan 
geographic areas into 13 administrative divisions. All are 
contiguous, and all are entitled to practice local self-
government.\458\ Tibetans living throughout these areas have 
long shared a common culture, religion, written language, and 
ethnic identity. The Tibet Autonomous Region (TAR) makes up 
about half of the total Tibetan area and is ranked at the 
provincial level. Its boundaries approximate the extent of 
administration exercised by the Tibetan government in Lhasa 
when the People's Republic of China was founded in 1949. The 
rest of the Chinese-designated Tibetan autonomous areas are 
found today in Qinghai, Gansu, Sichuan, and Yunnan Provinces. 
Until 1949 they formed a complex and decentralized 
administrative mosaic.
    Many Tibetans regard oversight by a single Tibetan capital 
as central to their concept of ``Tibet.'' However, no Tibetan 
capital has administered the entirety of what is designated by 
China today as ``Tibetan'' since the Tibetan empire collapsed 
in the 9th century. The Tibetan government-in-exile endorses 
the Dalai Lama's quest for genuine autonomy under Chinese 
sovereignty. At the same time, it asserts that Tibet is an 
``occupied country'' and that ``The Tibetan people, both in and 
outside Tibet, look to the [Tibetan government-in-exile] as 
their sole and legitimate government.'' \459\
    The United States government recognizes the TAR and Tibetan 
autonomous prefectures and counties in other provinces to be 
part of the People's Republic of China.\460\ The territories 
described above are equally Tibetan under China's Constitution 
and laws, and are entitled to similar rights under the rubric 
of regional national autonomy. Ninety percent\461\ of the 
territory that the Tibetan government-in-exile claims as 
``Tibet'' has been officially mapped by China as areas of 
Tibetan autonomy. Nearly 94 percent\462\ of Tibetans in China 
are residents of those autonomous Tibetan areas.

Dialogue between China and the Dalai Lama's Representatives
    Two representatives of the Dalai Lama, Special Envoy Lodi 
Gyari,\463\ based in Washington, and Envoy Kelsang Gyaltsen, 
based in Europe, visited China twice during 2002 and 2003.\464\ 
The delegations were the first to travel to China in nearly 20 
years. The envoys visited Beijing, Shanghai, several Chinese 
provinces, the TAR, and an autonomous Tibetan prefecture in 
Yunnan Province. They held discussions with central government 
and provincial-level officials, including top leaders of the 
United Front Work Department (UFWD)\465\ and senior Tibetan 
officials in the TAR.\466\
    The Special Envoy has characterized these developments in 
terms of cautious optimism and emphasized the importance of 
international support. Upon his return from the first visit, 
Lodi Gyari stated, ``We have made every effort to create the 
basis for opening a new chapter in our relationship. We are 
fully aware that this task cannot be completed during a single 
visit. It will also need continued persistent effort and 
support from many sides.'' \467\ After the second visit, he 
summed up the challenge, saying, ``Both sides agreed that our 
past relationship had many twists and turns and that many areas 
of disagreement still exist. The need was felt for more efforts 
to overcome the existing problems and bring about mutual 
understanding and trust.'' \468\

Tibetan Culture and Human Rights
    China imposed no major new campaigns across Tibetan areas 
during the past year, but economic development, the education 
system, and existing initiatives encouraging Han population 
migration continue to pressure Tibetans. Friction remains 
between Tibetan aspirations to maintain their distinctive 
culture and religion and Chinese policies favoring atheism and 
emphasizing the primacy of national identity.

            Human rights
    Tibetans face systematic restrictions of their basic human 
rights, including the freedoms of speech, press, association, 
and religion. The state represses peaceful expression that it 
considers ``splittist,'' or which is deemed ``detrimental to 
the security, honor and interests of the motherland.'' \469\ 
The Dalai Lama enjoys unrivaled respect as a cultural and religious 
leader, but even innocuous expressions of support for him can result 
in punishment. According to a March 2003 report by the Tibet 
Information Network, approximately 150 Tibetan political prisoners 
were serving sentences or awaiting disposition of their cases.\470\ 
Seventy-five percent are monks and nuns. About 60 political 
prisoners, most serving sentences for the now-defunct crime of 
counterrevolution, remain in TAR Prison No. 1, also known as 
Drapchi, in Lhasa.
    In December 2002, a court in Sichuan Province sentenced two 
Tibetans to death after a closed trial. Lobsang Dondrub 
(Chinese: Luorang Dengzhu) was charged with causing a series of 
explosions; Tenzin Deleg (Chinese: A'an Zhaxi), a Buddhist 
lama, was accused of conspiracy. A few weeks later, Chinese 
authorities executed Lobsang Dondrub despite pledges to senior 
U.S. government officials that the Supreme People's Court (SPC) 
would undertake a ``lengthy'' judicial review of the sentence. 
A Commission staff paper published in February 2003 outlined 
the case and highlighted systemic failures in the criminal law 
and in the legal process for review and approval of death 
sentences.\471\ Tenzin Deleg appealed his conviction and 
sentence but may face retrial by the same court that rejected 
his appeal and sent Lobsang Dondrub to the executioner. A new 
hearing before the SPC would provide the best opportunity for a 
full, fair, and just reconsideration of the sentence.
    In March 2003 Chinese officials allowed the nun Ngawang 
Sangdrol to travel to the United States to seek medical care, a 
welcome development which followed her early release from 
Drapchi Prison in October 2002. Imprisoned in 1992 at age 14 
for peacefully demonstrating, the authorities extended her 
sentence three times for further political protests inside the 
prison to a total of 21 years, 6 months. After arriving in the 
United States, she discussed her experiences with Commission 
staff. The descriptions of her actions that police and court 
officials detailed during interrogation and sentencing sessions 
were, she said, ``accurate.'' She never denied carrying out 
acts of protest or dissent, nor did she recant her beliefs 
while imprisoned, but even when beaten, tortured, or put into 
solitary confinement for prolonged periods, she refused to 
accept that she had committed any ``crime.'' Her views are 
typical of Tibetan political prisoners, she said.\472\
    Many Tibetans find Chinese requirements for obtaining 
permission to travel legally to Nepal\473\ inordinately 
burdensome and their prospects for approval poor. Tibetans 
attempting to cross the Chinese-Nepalese frontier without 
documentation have long faced danger and abuse on both sides of 
the border. In May 2003, the Chinese government pressured 
Nepalese officials in Kathmandu to hand over 18 Tibetans who 
had entered Nepal the previous month to Chinese diplomats to be 
forcibly repatriated. The U.S. State Department swiftly 
condemned the action, which Nepalese authorities carried out 
without the status determination required by international 
law.\474\ In August the Nepalese government articulated a 
policy toward Tibetan asylum seekers that assures ``Nepal will 
not forcibly return any asylum seekers from its soil.'' \475\

            Ethnicity and economic development
    Tibetans living in Tibetan areas, when speaking privately, 
cite the changing population mix in Tibetan areas as their 
principal concern. They believe that nothing threatens Tibetan 
culture more directly than marginalization and minority status 
in their own territory. Government authorities deny that there 
is a substantial influx of Han and other ethnic groups. 
Referring to the 94 percent Tibetan majority reported in the 
TAR by the 2000 census, Ragdi, then Chairman of the TAR 
People's Congress, said, ``[S]ome people say that with 
immigration, the Tibetan population is greatly reduced and 
Tibetan culture will be extinguished. There is absolutely no 
basis for such talk.'' \476\ In contrast, another senior 
official acknowledged the magnitude of undocumented changes, 
saying last year that migrant Han already made up half of 
Lhasa's population and their number would continue to 
rise.\477\
    Assessing official population data is difficult because 
China's census methods hinder meaningful analysis. Data reflect 
only registered permanent residents, who census officials 
tabulate as if they were present in their places of registered 
residence, irrespective of where they in fact live or 
work.\478\ The majority of Chinese in Tibetan areas have not 
registered as permanent residents and are not enumerated in 
local census statistics. For example, comparing 1990 and 2000 
census data shows a mere 2 percent increase in the Han 
proportion of the TAR population. Remarkably, official census 
statistics show that Han population in Qinghai remained 
virtually flat from 1990 to 2000 while other ethnic groups 
increased their numbers. The official result is a 4 percent 
decrease in the Han proportion of Qinghai's population.\479\ 
Tibetans speaking privately continue to express concern about 
the completion of the Qinghai-Lhasa railway, which stayed on 
schedule in 2003 for completion in 2007,\480\ believing the 
rail link will accelerate the transformation of the TAR 
population. Construction of the railroad is providing its own 
boost to Han immigration--last December Vice-Minister of 
Railways Sun Yongfu told a news conference that only 700 of the 
then-current 25,000 project employees were Tibetan.\481\
    Chinese officials point to years of surging economic growth 
in Tibetan areas, but unofficial reports show that most Tibetan 
incomes, while rising, are trailing regional economic 
indicators. Legchog, head of the TAR government, said in 
January that the TAR GDP had averaged 10.9 percent annual 
growth for the past 5 years.\482\ Observers say that the engine 
of growth is central government funding of large-scale 
infrastructure construction projects and of the service sector, 
which is dominated by government-run workplaces, and not local 
production. Unofficial reports show that the gap between urban 
and rural incomes has doubled in the past decade, leaving the 
majority of Tibetans increasingly disadvantaged.\483\
    The Great Western Development policy (Xibu da kaifa), the 
ambitious development program announced by President Jiang 
Zemin in 1999, will present far-reaching challenges to 
Tibetans. An article in a prominent Party journal featured a 
senior official declaring, ``Development is the last word.'' He 
recognized the social risks, however, and warned, ``We should 
correctly handle the relations between reform, development, and 
stability.'' \484\ The paper outlined a vision for a 
reconfigured demographic landscape, calling for herders and 
farmers to be resettled in compact, urbanized communities.\485\

            Education and culture
    If Tibetans are to adapt successfully to their new 
environment, then they must have access to significantly 
improved educational resources. If their culture is to survive, 
then the Tibetan language must play an important role in their 
education. Education in the TAR trails every other province. 
Official data report that nearly half the population (46 
percent) has ``no schooling.'' \496\ Barely more than 1 percent 
has attended junior college or above. Educational prospects for 
Tibetans in rural and urban communities differ sharply. Farmers 
and herders in the TAR attend primary school at a rate similar 
to city dwellers, but urbanites are 25 times more likely to 
reach junior college or higher. Some experts have observed that 
rural schools are often poorly funded, leading to shortages of 
staff and supplies. Fees linked to schooling can discourage or 
prevent parents from sending children to class.
    In May 2002 the TAR People's Congress enacted regulations 
encouraging use of the Tibetan language. The rules also stress 
the equal status Chinese language shall have with Tibetan, and 
allow for one or both to be used in most official work.\487\ 
Professor Nicolas Tournadre of the University of Paris 8 
informed a Commission roundtable that, while well-intentioned, 
``It is likely that the present regulation concerning [use of 
the] Tibetan [language] will have no significant impact and 
that only a far-reaching reform introducing a real Tibetan-
Chinese bilingualism will be capable of changing the 
ecolinguistic situation.'' \488\ At the same event, Professor 
David Germano of the University of Virginia summarized a 
strategy for supporting Tibetan language:

          What is important is not simply an exchange where 
        Tibetans are taken out of Tibet and brought to the 
        United States, but investment in Tibet, working with 
        dedicated professionals in the institutions which 
        survive our departure and presence . . . I think these 
        emerging partnerships, if adequately supported, offer 
        another vision of a better tomorrow, not one in which 
        Tibetan triumphs over Chinese, but one in which Tibetan 
        and Chinese can co-exist.

    Economic development during the period of ``opening up to 
the outside world'' has produced impressive results in certain 
respects, but the predicament of the Tibetan people continues 
to be a matter of concern to the President and the Congress. 
China's Constitution and laws could provide an obvious and 
direct avenue toward improved circumstances for Tibetans--but 
only if Party and state privilege does not eclipse the 
authority of local autonomous governments and the rights of 
individual citizens.

                 VIII. Recent Developments in Hong Kong

    The Commission continues to be concerned about developments 
in the Hong Kong Special Administrative Region (HKSAR), not 
only because of longstanding U.S. interests there but also 
because of Hong Kong's role as an example of the benefits of 
the rule of law and broad civil liberties.
    In this context, the extraordinary events of the spring and 
summer of 2003 in Hong Kong deserve special mention. Under 
Article 23 of Hong Kong's Basic Law, which serves as the 
territory's Constitution, the HKSAR government must adopt 
legislation ``on its own'' to prohibit treason, secession, 
sedition, subversion against the PRC government, theft of state 
secrets, and to prohibit local political groups from 
establishing ties with foreign political organizations. The 
possibility that legislation under this article might 
significantly curtail existing civil liberties in Hong Kong 
concerned not only many of Hong Kong's citizens but also 
supporters of Hong Kong in the United States and elsewhere. 
Many hoped that the HKSAR government would postpone 
consideration of legislation until after 2007, when a directly-
elected Chief Executive and Legislative Council could consider 
and debate it. When the HKSAR government made it clear that it 
intended to legislate earlier, a number of individuals and 
groups in Hong Kong urged the government to release the draft 
legislation in the form of a ``white bill'' that would permit a 
significant period of public discussion before formal 
consideration in the Legislative Council.
    Instead, the HKSAR government took a different approach, 
releasing a consultation paper in September 2002 entitled 
``Proposals to Implement Article 23 of the Basic Law'' and 
inviting public comment. In the unprecedented consultation 
process, Hong Kong government authorities claimed that the 
proposed legislation would not ``affect freedom of religion, of 
the press, or of expression.'' \489\ However, the consultation 
document met with severe popular criticism. In December 2002, 
some 60,000 opponents of the proposed legislation staged the 
largest political demonstration held since the reversion of 
Hong Kong's sovereignty to the PRC in 1997. Opponents noted 
that the proposed legislation would define key security 
offenses in vague terms that could easily be abused; that the 
proposed legislation would go further than the plain language 
of Article 23 by allowing the government to ban local 
organizations with ties to groups banned in China, rather than 
for ties to ``foreign'' organizations; that since PRC national 
security legislation criminalizes acts rather than 
organizations, the proposed system went beyond what is 
permitted under Chinese law;\490\ and that the system 
contemplated in the proposed legislation to ban mainland 
organizations from operating in Hong Kong did not currently 
exist in mainland China.\491\
    After the period of consultation closed, the HKSAR 
government prepared a compendium of the thousands of comments 
it had received on the consultation document. Based on these 
comments, officials made some changes to specific ideas 
described in the consultation document, but the HKSAR 
government then announced plans to submit a bill to the 
Legislative Council in June. The announcement touched off 
another vigorous popular debate in Hong Kong. As the day 
approached for the debate on the bill in the Legislative 
Council, hundreds of thousands again took to the streets to 
protest. On July 1, 2003, in the words of the embattled Chief 
Executive, Tung Chee-hwa: ``[d]espite the sizzling hot weather, 
hundreds of thousands of citizens took to the streets to 
express their concern over the legislative proposals to 
implement Article 23 of the Basic Law, their dissatisfaction 
over government policies, and over my governance in 
particular.'' \492\
    As a result of this public activism, and lacking sufficient 
votes in the Legislative Council, the HKSAR government 
announced on July 7, 2003, a decision to postpone further 
consideration of the Article 23 bill pending further public 
consultation. Following that announcement, Hong Kong officials 
said that the government would conduct a thorough 
constitutional review and listen carefully to public views and 
ensure that there would be time for the public to discuss and 
be consulted.\493\ They also said that the provision in the 
proposed legislation that gives the police the power to search 
without a court warrant in emergencies would be removed.\494\
    In September 2003, Chief Executive Tung announced that the 
government would withdraw the proposed legislation and would 
consult widely with the public before submitting a new draft 
bill. Chief Executive Tung cited public concerns about the 
original bill's details and the need to focus on economic 
recovery as reasons for his decision to withdraw the bill. The 
HKSAR government has no timetable for preparing a new bill, Mr. 
Tung said.
    The Commission supports the people of Hong Kong and 
appreciates their accomplishment in peacefully exercising their 
rights to freedom of speech, the press, and assembly to ensure 
that they do not find these same rights circumscribed. At the 
same time, the Commission notes that Hong Kong officials made 
unprecedented efforts to give the people of Hong Kong access to 
information about the proposed Article 23 legislation and the 
opportunity to comment freely on it.\495\ The Commission is 
encouraged by the apparent plans of the HKSAR government to 
review public concerns and engage in a longer, more meaningful 
consultation process before again introducing implementing 
legislation for Article 23. The Commission believes that what 
sets Hong Kong apart from other PRC jurisdictions is its more 
progressive tradition on rule of law issues. The rest of the 
world expects Hong Kong to be at the forefront of governance 
model setting for China, and it is in this context that 
backward-stepping precedents appear so troubling.

          IX. Appendix: Commission Activities in 2002 and 2003

Hearings

July 24, 2003     Will Religion Flourish Under China's New
                                        Leadership?

                                                Randall Schriver, 
                                                Deputy Assistant 
                                                Secretary of State for 
                                                East Asian and Pacific 
                                                Affairs, Department of 
                                                State
                                                Felice D. Gaer, Vice 
                                                Chair, U.S. Commission 
                                                on International 
                                                Religious Freedom
                                                Joseph Fewsmith, 
                                                Professor and Director 
                                                of East Asia 
                                                Interdisciplinary 
                                                Studies, Boston 
                                                University
                                                Charles D. Lovejoy, 
                                                Jr., Associate, U.S. 
                                                Catholic China Bureau
                                                David B.T. Aikman, 
                                                Author, Foreign Affairs 
                                                Consultant
                                                Jacqueline M. Armijo-
                                                Hussein, Assistant 
                                                Professor, Department 
                                                of Religious Studies, 
                                                Stanford University

September 24, 2003 Is China Playing By the Rules? Free Trade,
                                        Fair Trade, and WTO 
                                        Compliance

                                                Charles Freeman, Deputy 
                                                Assistant U.S. Trade 
                                                Representative for 
                                                China, Office of the 
                                                U.S. Trade 
                                                Representative
                                                Henry A. Levine, Deputy 
                                                Assistant Secretary for 
                                                Asia Pacific Policy, 
                                                U.S. Department of 
                                                Commerce
                                                Gary Martin, President 
                                                and CEO, North American 
                                                Export Grain 
                                                Association
                                                Brad Smith, Managing 
                                                Director, International 
                                                Affairs, American 
                                                Council of Life 
                                                Insurers
                                                Daryl Hatano, Vice 
                                                President of Public 
                                                Policy, Semiconductor 
                                                Industry Association
                                                Bill Primosch, 
                                                Director, International 
                                                Business Policy, 
                                                National Association of 
                                                Manufacturers
                                                Lawrence J. Lau, Kwoh-
                                                Ting Li Professor of 
                                                Economic Development, 
                                                Stanford University
                                                Margaret M. Pearson, 
                                                Professor of Government 
                                                and Politics, 
                                                University of Maryland
                                                Yasheng Huang, 
                                                Associate Professor, 
                                                Sloan School of 
                                                Management, 
                                                Massachusetts Institute 
                                                of Technology
Roundtables

October 21, 2002   China's Children: Adoption, Orphanages, and
                                        Children with 
                                        Disabilities

                                                Nancy Robertson, 
                                                President and CEO, The 
                                                Grace Children's 
                                                Foundation
                                                Dana Johnson, 
                                                International Adoption 
                                                Clinic, University of 
                                                Minnesota Hospital
                                                Susan Soon-Keum Cox, 
                                                Vice President, Holt 
                                                International 
                                                Children's Services

November 4, 2002  China's Cyber-Wall: Can Technology Break
                                        Through?

                                                Aviel Rubin, Co-
                                                founder, Publius
                                                Bill Xia, President, 
                                                Dynamic Internet 
                                                Technology, Inc.
                                                Lin Hai, Computer 
                                                Scientist
                                                Paul Baranowski, 
                                                Peekabooty

November 7, 2002  Workplace Safety Issues in the People's 
Republic
                                        of China

                                                Trini Wing-Yue Leung, 
                                                Independent Researcher
                                                Han Dongfang, Director, 
                                                China Labor Bulletin
                                                Chan Ka wai, Associate 
                                                Director, Hong Kong 
                                                Christian Industrial 
                                                Committee
November 18, 2002 The Beijing Olympics and Human Rights

                                                Kevin Wamsley, 
                                                Director, International 
                                                Centre for Olympic 
                                                Studies
                                                Don Oberdorfer, 
                                                Journalist-in-
                                                Residence, School of 
                                                Advanced International 
                                                Studies, Johns Hopkins 
                                                University
                                                Lauryn Beer, Director, 
                                                Human Rights and 
                                                Business Roundtable, 
                                                The Fund for Peace

December 9, 2002  Open Forum: Public Perspectives on Human
                                        Rights Practices in 
                                        China

                                                Alan Adler, Executive 
                                                Director, Friends of 
                                                Falun Gong
                                                Christina Fu, Spouse of 
                                                Yang Jianli, imprisoned 
                                                in China
                                                Robert A. Senser, 
                                                Editor, Human Rights 
                                                for Workers
                                                Oyunbilig, Executive 
                                                Director, The Inner 
                                                Mongolian People's 
                                                Party
                                                Joan Mower, 
                                                Communications 
                                                Coordinator, 
                                                Broadcasting Board of 
                                                Governors
                                                Ciping Huang, Executive 
                                                Director, Wei Jingsheng 
                                                Foundation
January 27, 2003  Clearing the Air: the Human Rights and Legal
                                        Dimensions of China's 
                                        Environmental Dilemma

                                                Elizabeth Economy, C.V. 
                                                Starr Senior Fellow and 
                                                Director, Asia Studies, 
                                                Council on Foreign 
                                                Relations
                                                Richard Ferris, 
                                                Principal, Beveridge 
                                                and Diamond, P.C.
                                                Brian Rohan, Associate 
                                                Director, American Bar 
                                                Association Asia Law 
                                                Initiative
                                                Jennifer Turner, Senior 
                                                Project Associate for 
                                                China, The Woodrow 
                                                Wilson Center

February 3, 2003  Ownership with Chinese Characteristics: 
Private
                                        Property Rights and 
                                        Land Reform in the 
                                        People's Republic of 
                                        China

                                                Patrick Randolph, 
                                                Professor of Law, 
                                                University of Missouri 
                                                at Kansas City
                                                Brian Schwarzwalder, 
                                                Staff Attorney, Rural 
                                                Development Institute
                                                James A. Dorn, Vice-
                                                President for Academic 
                                                Affairs, The Cato 
                                                Institute
                                                Mark A. Cohen, 
                                                Attorney-Advisor, 
                                                United States Patent 
                                                and Trademark Office

February 24, 2003 Holding up Half the Sky: Women's Rights in
                                        China's Changing 
                                        Economy

                                                Margaret Woo, 
                                                Professor, Northeastern 
                                                University School of 
                                                Law
                                                Rangita de Silva, The 
                                                Spangenberg Group
                                                Christina Gilmartin, 
                                                Professor, History 
                                                Department, 
                                                Northeastern University

March 10, 2003    Open Forum on Human Rights and the Rule of
                                        Law in China

                                                Roy Zhou, President, 
                                                Association of Chinese 
                                                Student And Scholars of 
                                                the New York Area
                                                Frederick Crook, 
                                                Independent Consultant, 
                                                The China Group
                                                Yali Chen, Research 
                                                Associate, Center for 
                                                Defense Information
                                                Lhundup Dorjee, Capital 
                                                Area Tibetan 
                                                Association
                                                Tenzin, Washington DC-
                                                based Tibetan in exile
                                                Nuri Turkel, General 
                                                Secretary, Uyghur 
                                                American Association
                                                Greg Walton, Research 
                                                Consultant
                                                Ciping Huang, Executive 
                                                Director, Wei Jingsheng 
                                                Foundation

March 24, 2003    To Serve the People: NGOs and the Development
                                        of Civil Society in 
                                        China

                                                Carol Lee Hamrin, 
                                                Research Professor, 
                                                George Mason University
                                                Qiusha Ma, Assistant 
                                                Professor of East Asian 
                                                Studies, Oberlin 
                                                College
                                                Karla W. Simon, 
                                                Professor of Law and 
                                                Co-Director of the 
                                                Center for 
                                                International Social 
                                                Development, Catholic 
                                                University of America
                                                Nancy Yuan, Vice 
                                                President, Director of 
                                                Washington office, The 
                                                Asia Foundation

April 1, 2003      The Rule of Law in China: Lawyers Without
                                        Law?

                                                James V. Feinerman, 
                                                James M. Morita 
                                                Professor of Asian 
                                                Legal Studies, 
                                                Georgetown University 
                                                Law Center
                                                Randall Peerenboom, 
                                                Acting Professor of 
                                                Law, UCLA School of Law
                                                Raj R.J. Purohit, 
                                                Legislative Counsel, 
                                                Lawyers Committee for 
                                                Human Rights

April 7, 2003      Teaching and Learning Tibetan: The Role of
                                        the Tibetan Language in 
                                        Tibet's Future

                                                Nicolas Tournadre, 
                                                Associate Professor of 
                                                Linguistics, University 
                                                of Paris 8
                                                David Germano, 
                                                Associate Professor of 
                                                Tibetan and Buddhist 
                                                Studies, University of 
                                                Virginia
                                                Losang Rabgey, 
                                                Commonwealth Scholar, 
                                                School of Oriental and 
                                                African Studies, 
                                                University of London

April 28, 2003     Codes of Conduct: U.S. Corporate Compliance
                                        Programs and Working 
                                        Conditions in Chinese 
                                        Factories

                                                Doug Cahn, Vice 
                                                President, Human Rights 
                                                Programs, Reebok 
                                                International Ltd.
                                                Mil Niepold, Director 
                                                of Policy, Verite, Inc.
                                                Auret van Heerden, 
                                                Director of Monitoring, 
                                                Fair Labor Association
                                                Ruth Rosenbaum, 
                                                Executive Director, 
                                                Center for Reflection, 
                                                Education and Action

May 12, 2003      Dangerous Secrets--SARS and China's
                                        Healthcare System

                                                Gail E. Henderson, 
                                                Professor of Social 
                                                Medicine, University of 
                                                North Carolina
                                                Yanzhong Huang, 
                                                Assistant Professor, 
                                                Whitehead School of 
                                                Diplomacy, Seton Hall 
                                                University
                                                Bates Gill, Freeman 
                                                Chair in China Studies, 
                                                Center for Strategic 
                                                and International 
                                                Studies

June 2, 2003       Voices of the Small Handful: 1989 Student
                                        Movement Leaders Assess 
                                        Human Rights in Today's 
                                        China

                                                Wang Dan, Graduate 
                                                Student, Department of 
                                                History and East Asian 
                                                Languages, Harvard 
                                                University
                                                Liu Gang, Senior 
                                                Engineer, Aerie 
                                                Networks
                                                Tong Yi, Associate, 
                                                Gibson, Dunn, & 
                                                Crutcher LLP

July 7, 2003       Freedom of Association for Chinese Workers

                                                Phil Fishman, Associate 
                                                Director for 
                                                International Affairs, 
                                                AFL-CIO
                                                Amy Hall, Manager for 
                                                Social Accountability, 
                                                Eileen Fisher, Inc.
September 8, 2003  Open Forum on Human Rights and the Rule
                                        of Law in China

                                                Kaiser Seyet, Director 
                                                of Communications, The 
                                                Uyghur American 
                                                Association
                                                Terri Marsh, Human 
                                                Rights Attorney
                                                Timothy Cooper, 
                                                Executive Director, 
                                                Worldrights
                                                Huang Ciping, Executive 
                                                Director, Wei Jingsheng 
                                                Foundation

September 22, 2003 Freedom of the Press in China After SARS:
                                        Reform and Retrenchment

                                                Gong Xiaoxia, Former 
                                                Director of the 
                                                Cantonese Service, 
                                                Radio Free Asia
                                                Zhang Huchen, Senior 
                                                Editor, VOA China 
                                                Branch
                                                Bu Zhong, Ph.D 
                                                Candidate, University 
                                                of Maryland
                                                Lin Gang, Program 
                                                Associate, Asia 
                                                Program, Woodrow Wilson 
                                                Center

                              X. Endnotes

    <dagger>Voted to approve: Representatives Leach, Bereuter, Dreier, 
Wolf, Pitts, Levin, Kaptur, Brown, and Wu; Senators Hagel, Thomas, 
Roberts, Smith, Baucus, Levin, Feinstein, and Dorgan; Under Secretaries 
Dobriansky and Aldonas, and Assistant Secretaries Craner and Kelly.
    Voted not to approve: Senator Brownback.

    \1\ The United States-China Relations Act, Public Law No. 106-286, 
div. B, title III, sec. 301, 114, Stat. 895 (2000).
    \2\ ``Statement by Liu Huaqiu, Head of the Chinese Delegation,'' 
reprinted in Stephen C. Angle and Marina Swensson, eds., The Chinese 
Human Rights Reader: Documents and Commentary, 1900-2000 (Armonk, NY: 
2001 M.E. Sharpe), 393.
    \3\ ``How Marxism Views Human Rights'' [Makesi zenmayang kan 
``renquan'' wenti], Hongqi, no. 5 (1979), trans. in Angle and Swensson, 
282.
    \4\ Ibid., 284.
    \5\ Ibid.
    \6\ ``Human Rights, Equality, and Democracy'' [Renquan, pingdeng yu 
minzhu], Tansuo, 3 (1979).
    \7\ John Downer and Yang Jianli, eds., Wei Jingsheng: The Man and 
his Ideas (Pleasant Hill, CA: China in the 21st Century, 1995).
    \8\ ``China's Human Rights Situation'' [Zhongguo de renquan 
zhuangkuang], People's Republic of China State Council Information 
Office [Zhonghua renmin gongheguo guowuyuan xinwen bangongshi] 
(Beijing:  Zhongyang chubanshe, October, 1991).
    \9\ Zhang Liang, Disidai, (New York: Mirror Books, 2002). Two 
prominent American scholars, Andrew Nathan and Bruce Gilley, working in 
consultation with Zong, have reorganized the material in Disidai for an 
English-reading audience in China's New Rulers: The Secret Files, (New 
York: New York Review Books Collections, 2002). Both books have 
generated a great deal of controversy, with some experts pointing out 
that Zhang Liang (compiler of The Tiananmen Papers, edited by Andrew J. 
Nathan and Perry Link (New York: Public Affairs, 2001) wrote Disidai 
with a political agenda in mind. While much of the information in the 
book may be accurate, it is likely to be distorted by ``spin.''
    \10\ China's New Rulers, 29.
    \11\ Ibid., 178.
    \12\ Fang Jue, ``Understanding the New Leadership in China: 
Situational Analysis and Suggested Courses of Action'' (Cambridge: 
Research Report, Fairbank Center for East Asian Research, Harvard 
University, 1 July 2003).
    \13\ ``Guangzhou Weekly Shut Down After Interview with Liberal-
Minded Reformist Li Rui,'' South China Morning Post, 15 March 2003, 
www.scmp.com.
    \14\ Personal communication to CECC staff.
    \15\ See Tao-tai Hsia and Wendy Zeldin, People's Republic of China: 
Economic and Financial Crimes, Law Library of Congress Report LL2002-
13494 (September 2002).
    \16\ For example, messages posted on the People's Daily's Internet 
forum, the ``Strong Country Forum'' [qiangguo luntan] had the following 
titles: ``The corruption of Railway Ministry officials makes a person 
cluck one's tongue! '' (13 December 2002); ``China's cadres abuse 
power, and commit graft and corruption because they have too much power 
in their hands, and there is no effective supervision.'' (12 December 
2002).
    \17\ The procuratorates are China's equivalent of the U.S. 
Attorney's offices; they are responsible for prosecuting criminal 
defendants in China. The procuratorates also perform legal supervision 
of the judicial process of courts and investigation of criminal cases. 
The Supreme People's Procuratorate is the highest procuratorial organ.
    \18\ Supreme People's Procuratorate 2003 Work Report, 11 March 
2003.
    \19\ ``Procuratorial Organs Actively Fight Against Corruption,'' 
Xinhua, 11 March 2003, <www.chinadaily.com.cn/highlights/nbc/news/
311fight.html> (24 September 2003).
    \20\ ``Chief Justice: 80,000 Corrupt Officials Brought to 
Justice,'' Xinhua, 11 March 2003, <http://www.chinadaily.com.cn/
highlights/nbc/news/311corrupt.html> (24 September 2003).
    \21\ Li Xiao, ``Anti-Corruption Work Has Only Just Begun,'' China 
Internet Information Center, 25 April 2003, <www.china.org.cn./english/
NM-e/63064.htm> (24 September 2003).
    \22\ The theory of the ``Three Represents'' (defined as 
``representing the developmental requirements for China's advanced 
productive forces, representing forward progress for China's advanced 
culture, and representing the fundamental interests of the broadest 
section of the masses of the people'') was enunciated by Jiang Zemin in 
a major speech on May 31, 2002. For the new leaders' goals in the 
corruption area, see ``The Central Authorities Plan To Put in Place 
Mechanisms of Supervision for Anti-Corruption Work,'' Hong Kong Sing 
Tao Jih Pao, 22 August 2003, translated in FBIS, Doc. ID 
CPP20030711000075.
    \23\ ``CPC Watchdog Outlines Anti-Corruption Policies,'' Xinhua, 20 
February 2003, <http://www.china.org.cn/english/government/56296.htm> 
(24 September 2003).
    \24\ People's Republic of China Criminal Law [Zhonghua renmin 
gongheguo xing fa], enacted 1 July 1979, arts. 382-396.
    \25\ Ibid., art. 384.
    \26\ Ibid., art. 386.
    \27\ Ibid., art. 390.
    \28\ Ibid., art. 395. This offense resembles the ``net assets'' 
approach of white-collar crime experts in the United States. Once the 
Procuracy has shown that a defendant's disposable income exceeds his 
lawful income by a ``very large amount,'' the burden of proof shifts to 
the defendant to prove that his money was acquired legitimately.
    \29\ Criminal Law, arts. 151-157.
    \30\ Ibid., arts. 201-212.
    \31\ See, e.g., Albert H.Y.Chen, An Introduction to the Legal 
System of the People's Republic of China (Hong Kong: Butterworths, 
Asia, 1992), 69-76.
    \32\ Constitution of the Communist Party of China (Adopted and 
Amended at the 16th National Congress of the Communist Party of China, 
November 14, 2002), Preamble, arts. 10, 15, and 16.
    \33\ ``Work Report of the CPC Central Commission for Discipline 
Inspection to the 16th Party Congress,'' (Adopted at the 16th National 
Congress of the Communist Party of China on 14 November 2002).
    \34\ ``Ex-Public Security Minister Under House Arrest for Role in 
Smuggling Case, Graft,'' Hong Kong Zhengming, 1 December 2000.
    \35\ Susan Travaskes, ``Courts on the Campaign Path in China: 
Criminal Court Work in the `Yanda 2001' Anti-Crime Campaign,'' 42 Asian 
Survey, no. 5 (September/October 1995), 676.
    \36\ Supreme People's Court 2003 Work Report, 11 March 2003.
    \37\ The format of official Chinese legal statistics makes it 
difficult to calculate a precise conviction rate. However, a 2003 
Supreme People's Court report notes that between 1998 and 2002, 
3,222,000 individuals were convicted of crimes in trials of first 
instance, while 26,521 defendants were found innocent of crimes (which 
gives a conviction rate of roughly 99.1 percent). Situation of Judgment 
Work and the Building of Judicial Cadres of the People's Courts, 1998-
2002 [1998-2002 nian renmin fayuan shenpan gongzuo heduiwu jianshe 
qingkuang] <http://211.147.1.70/public/detail.php?id=47770> (17 March 
2003). This figure corresponds with the annual conviction rate for 2001 
provided in the China Law Yearbook. See 2002 China Law Yearbook [2002 
Zhongguo falu nianjian], (Beijing: Law Publishing House, 2002), 144.
    \38\ People's Republic of China Criminal Law [Zhonghua renmin 
gongheguo xingfa], enacted July 1979.
    \39\  The U.S. State Department provides an estimate of 4,000 
executions. Bureau of Democracy, Human Rights, and Labor, U.S. 
Department of State ``Country Reports on Human Rights Practices--2002, 
China (includes Hong Kong and Macau),'' 31 March 2003 <http://
www.state.gov/g/drl/rls/hrrpt/2002/18239.htm> (8 July 2003). John Kamm 
of the Dui Hua Foundation conservatively estimates that at least 10,000 
executions are carried out each year. Commission staff Interview. 
Disidai, a book purportedly written by a knowledgeable government 
source, claims that China has executed up to 15,000 people per year 
since beginning of this strike hard campaign in April 2001 ``Sichuan 
Gangsters Sentenced to Death; Strike Hard Campaign Continues,'' Hong 
Kong Agence France-Presse, 19 July 2003, in FBIS, Doc. ID 
CPP20030719000050.
    \40\ Constitution of the People's Republic of China, art. 35.
    \41\ Crimes of endangering state (or national) security are found 
in the Criminal Law, arts. 102-113. The most notable are Article 105, 
which prohibits the organizing, plotting or carrying out of a scheme to 
subvert State power or overthrow the socialist system or inciting 
others to do the same, and Article 103, which prohibits the organizing, 
plotting or carrying out of a scheme to split the State or undermine 
the unity of the country or inciting others to do the same.
    \42\ ``Chinese Procuratorates Crack Down on Crimes Threatening 
State Security,'' Xinhua, 11 March 2003, <http://news.xinhuanet.com/
english/2003-03/11/content__771037.htm> (11 March 2003).
    \43\ Article 300 of the Criminal Law prohibits using a heretical 
sect ``to undermine implementation of the laws.''
    \44\ The Dui Hua Foundation, ``Surge in Arrests and Prosecutions 
for Endangering State Security,'' Dialogue, Issue No. 11, Spring 2003, 
2.
    \45\ Ibid.,1.
    \46\ Human Rights in China Press Release, ``Dissident Zhao 
Changqing Jailed for 5 Years,'' 4 August 2003.
    \47\ The six other known cases relating to the open letter to the 
16th Party Congress calling for political reform are He Depu, Sang 
Jianchen, Ouyang Yi, Dai Xuezhong, Han Lifa, and Jiang Lijun. (Human 
Rights in China, ``China and the Rule of Law,'' No. 2, 2003, 99-104.) 
According to the Dui Hua Foundation, Dai Xuezhong was sent to re-
education through labor for 3 years for ``endangering state security.'' 
Han Lifa was reportedly ``released on bail awaiting investigation'' 
[baowai houshen].
    \48\ John Kamm, ``China Wages Silent War on Dissident Thought,'' 
Project Syndicate, 15 June 2003. Article 300 of the Criminal Law is 
frequently used to further the persecution of Falun Gong members; it 
prohibits, among other things, the use of ``heretical sects'' or 
``superstition'' to undermine implementation of laws, rules, and 
regulations.
    \49\ The Dui Hua Foundation, ``Surge in Arrests and Prosecutions 
for Endangering State Security,'' Dialogue, No. 11, Spring 2003, 3. See 
also Robin Munro, Dangerous Minds: Political Psychiatry in China Today 
and Its Origins in the Mao Era, (New York: Human Rights Watch & Geneva 
Institute of Psychiatry, 2002) 3 (``[E]ven today the acquittal rate for 
people accused of political crimes in China is virtually nil.'').
    \50\ The Dui Hua Foundation, ``Surge in Arrests and Prosecutions 
for Endangering State Security,'' Dialogue, No. 11, Spring 2003, 3.
    \51\ Human Rights in China, Empty Promises: Human Rights 
Protections and China's Criminal Procedure Law in Practice, 1 March 
2001, 22; Randall Peerenboom, China's Long March toward Rule of Law 
(Cambridge, U.K.: Cambridge University Press, 2002), 314-15.
    \52\ Supreme People's Procuratorate 2003 Work Report, 11 March 
2003.
    \53\ The International Covenant on Civil and Political Rights 
provides that ``[a]nyone arrested or detained on a criminal charge 
shall be brought promptly before a judge or other officer authorized by 
law to exercise judicial power'' and ``[a]nyone who is deprived of his 
liberty by arrest or detention shall be entitled to take proceedings 
before a court, in order that that court may decide without delay on 
the lawfulness of his detention and order his release if the detention 
is not lawful.'' Arts. 9(3) and 9(4). In China, a suspect or defendant 
may only seek release when detention has exceeded the permissible time 
periods under the CPL.
    \54\ ``China's Public Prosecutors Crack Down on Illegal Prolonged 
Detention,'' Xinhua, 22 July 2003 available in FBIS, Doc. ID 
CPP20030722000129. The email address is <cyjb@spp.gov.cn>, and the 
hotline numbers are 010-68650468, 010-65252000.
    \55\ ``Procuratorial Organs Take Action to Curb Extended Detention 
of Criminal Suspects,'' Zhongguo Xinwen She, 3 August 2003, translated 
in FBIS, Doc. ID CPP20030803000050.
    \56\ Human Rights in China, Empty Promises: Human Rights 
Protections and China's Criminal Procedure Law in Practice, 1 March 
2001, 38-9; Yu Ping ``Glittery Promise v. Dismal Reality: The Role of a 
Criminal Lawyer in The People's Republic of China After the 1996 
Revision of the Criminal Procedure Law,'' 35 Vanderbilt J. 
Transnational Law 827 (2002): 841-42.
    \57\ See UN Working Group on Arbitrary Detention, Opinion No. 2/
2003.
    \58\ ``Beijing Conducts Trial of U.S. Based Activist Accused of 
Spying For Taiwan,'' South China Morning Post, 5 August 2003, in FBIS, 
Doc. ID CPP20030808000075.
    \59\ Article 168 of the Criminal Procedure Law requires, as a 
general rule, that courts announce their decisions in public 
prosecution cases within 1.5 months of accepting the case. If certain 
specific conditions are met, however, the time period may be extended 
by 1 month, for a total of 2.5 months. People's Republic of China 
Criminal Procedure Law [Zhonghua renmin gongheguo xingshi susongfa], 
enacted 1 July 1979, art. 168.
    \60\ See Section III(d).
    \61\ Fang Jue, ``A New Type of Political Exile,'' China Rights 
Forum, No. 2, 2003, 62.
    \62\ For a discussion of re-education through labor, see 
Congressional-Executive Commission on China, Annual Report 2002, 29.
    \63\ ``China Makes Drug Addicts Say `No','' Associated Press, 15 
November 2001, <http://www.unodc.un.or.th/press__reports/repnews__2001-
11-15.htm> (8 July 2003). China had one million registered drug addicts 
by the end of 2002, up 11 percent from 2001.  See ``China Registers One 
Million Drug Addicts by End of 2002,'' China Internet Information 
Center, 25 June 2003, <http://test.china.org.cn/english/China/
68079.htm> (8 July 2003). In 2000, China had 746 detoxification centers 
and 168 re-education centers for drug users.
    \64\ See Section V(e). Chinese scholars have argued in different 
contexts that administrative regulations restricting the personal 
freedom of citizens are unlawful because (1) under Articles 8 and 9 of 
the Legislation Law and Article 8 of the Administrative Punishments 
Law, the freedom of citizens can only be restricted by law (not by 
administrative regulations) and (2) under Article 37 of the PRC 
Constitution, no citizen may be arrested except with the approval of a 
people's procuratorate or people's court, and unlawful deprivation of 
freedom by detention or other means is prohibited. In the international 
context, the ICCPR provides that ``Anyone arrested or detained on a 
criminal charge shall be brought promptly before a judge or other 
officer authorized by law to exercise judicial power'' and ``[a]nyone 
who is deprived of his liberty by arrest or detention shall be entitled 
to take proceedings before a court, in order that that court may decide 
without delay on the lawfulness of his detention and order his release 
if the detention is not lawful.'' ICCPR, arts. 9(3) and 9(4).
    \65\ John Pomfret, ``Child's Death Highlights Problems in Chinese 
Justice,'' Washington Post, 3 July 2003, A1.
    \66\ Robin Munro, Dangerous Minds: Political Psychiatry in China 
Today and Its Origins in the Mao Era (New York: Human Rights Watch & 
Geneva Institute of Psychiatry, 2002), 118-22.
    \67\ Ibid., 121.
    \68\ Ibid., 36, 235.
    \69\ UN Working Group on Arbitrary Detention, Opinion No. 20/2001, 
E/CN.4/2003/8 Add.1, adopted on 28 November 2001.
    \70\ Robin Munro, Dangerous Minds, 19, 37-38.
    \71\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, ``Country Reports on Human Rights Practices--2002, China 
(includes Hong Kong and Macau),'' 31 March 2003, <http://www.state.gov/
g/drl/rls/hrrpt/2002/18239.htm> (8 July 2003). See also Veron Hung, 
``Reassessing Reeducation Through Labor,'' China Rights Forum, No. 2, 
2002, 35. According to credible sources, as of late January 2003, 
hundreds of female Falun Gong practitioners were being held in a single 
re-education through labor camp in Sichuan.
    \72\ See Congressional-Executive Commission on China Annual Report 
2002, 29, 30, for a discussion of custody and repatriation. See also 
Human Rights in China's reports on custody and repatriation and the 
hukou system: Not Welcome at the Party: Behind the ``Clean-Up of 
China's Cities--A Report on Administrative Detention Under `Custody and 
Repatriation' '' (1999) and Institutionalized Exclusion: The Tenuous 
Legal Status of Internal Migrants in China's Major Cities (2002), and 
Congressional-Executive Commission on China Roundtable, Voices of the 
Small Handful, 1989 Student Movement Leaders Assess Human Rights in 
Today's China, 2 June 2003, Testimony of Tong Yi.
    \73\ Torture, rape forced labor, and other forms of abuse were 
commonplace in the custody and repatriation centers. Public security 
officers often abused their power by detaining migrant workers and then 
extorting money from them or their families in exchange for their 
release.
    \74\ ``The Death of Sun Zhigang in Custody and Repatriation [Bei 
shourongzhe sun zhigang zhisi]'' Southern Metropolitan Daily, [Nanfang 
dushibao], 25 April 2003, <http://www.nanfangdaily.com.cn/ds/20030425/
fmxw/200304250031.asp> (3 September 2003).
    \75\ Daniel Kwan, ``Police Lose Power over Rural Migrants,'' South 
China Morning Post, 23 June 2003, www.scmp.com; Measures on the 
Administration of Aid to Indigent Vagrants and Beggars in Cities 
[Chengshi shenghou wuzhe de liulang qitao renyuanjiuzhu guanli banfa], 
issued 18 June 2003.
    \76\ Ibid.
    \77\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State ``Country Reports on Human Rights Practices--2002, China 
(includes Hong Kong and Macau),'' 31 March 2003, <http://www.state.gov/
g/drl/rls/hrrpt/2002/18239.htm> (8 July 2003) 3. See also Tom Kellogg, 
``A Case for the Defense,'' China Rights Forum: China and the Rule of 
Law, No. 2, 2003, 33 (noting a law professor in China estimated that 70 
percent of criminal prosecutions take place without defense counsel).
    \78\ See People's Republic of China Criminal Procedure Law 
[Zhonghua renmin gonghe guo xingshi susong fa], enacted 1 July 1979, 
art. 64. UN Working Group on Arbitrary Detention Opinion, 2-3. See also 
Congressional-Executive Commission on China Roundtable, China's 
Criminal Justice System, 26 July 2002, Testimony of Jerome Cohen:
    ``It should be emphasized that the CPL does not require a lawyer to 
show the detaining authority a copy of the detention notice in order to 
get access to his client. Yet police and prosecutors frequently take 
this position, and defense lawyers themselves will often reluctantly 
tell a would-be client that they cannot even accept the case unless a 
copy of the detention notice is provided to them.''
    \79\ Ibid.
    \80\ Criminal Procedure Law, art. 96. See also Congressional-
Executive Commission on China Roundtable, China's Criminal Justice 
System, 26 July 2002, Testimony of Jerome Cohen. ``Yet PRC police and 
prosecutors often deny lawyers access to their clients on far-fetched 
claims of `state secrets.' ''
    \81\ For a discussion of the problems plaguing Chinese criminal 
defense lawyers, see Congressional-Executive Commission on China Topic 
Paper, ``Defense Lawyers Turned Defendants: Zhang Jianzhong and the 
Criminal Prosecution of Defense Lawyers in China,'' 5 July 2003.
    \82\ ``Lawyers Turn Pale at the Mention of Defending Criminal 
Suspects--on Worries Arising from Decreasing Ratio of Lawyers Taking on 
Criminal Defense Cases,'' Fazhi Ribao, 13 January 2003, translated in 
FBIS, Doc. ID. CPP20030213000191.
    \83\ See Congressional-Executive Commission on China Paper, 
``Defense Lawyers Turned Defendants;'' Tom Kellogg, ``A Case for the 
Defense,'' China Rights Forum: China and the Rule of Law, No. 2, 2003.
    \84\ ``Shanghai Lawyer Zheng Enchong Formally Arrested,'' Human 
Rights in China Press Release, 20 June 2003.
    \85\ ``Interventions Made on Behalf of Jailed Lawyer,'' Human 
Rights in China Press Release, 30 July 2003. See also International 
Commission of Jurists Web site for its letter to the Chinese 
government: <http://www.icj.org/IMG/pdf/Zheng.pdf> (22 September 2002).
    \86\ See Congressional-Executive Commission on China 2002 Annual 
Report, 28-29 and specific cases detailed below.
    \87\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State ``Country Reports on Human Rights Practices--2002, China 
(includes Hong Kong and Macau),'' 31 March 2003 <http://www.state.gov/
g/drl/rls/hrrpt/2002/18239.htm> (8 July 2003).
    \88\ Human Rights in China Press Release, ``Four Internet Activists 
Imprisoned for Subversion,'' 28 May 2003.
    \89\ Congressional-Executive Commission on China Roundtable, Voices 
of the Small Handful, 1989 Student Movement Leaders Assess Human Rights 
in Today's China, 2 June 2003, Testimony of Tong Yi.
    \90\  Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, ``Country Reports on Human Rights Practices--2002, China 
(includes Hong Kong and Macau),'' 31 March 2003, <http://www.state.gov/
g/drl/rls/hrrpt/2002/18239.htm> (8 July 2003).
    \91\ Amnesty International Report 2003: China. Available at 
<www.amnesty.org>. AI Index: POL 10/003/2003.
    \92\ Ian Williams, ``China Sells Organs of Slain Convicts,'' The 
Observer, 10 December 2000, <http://observer.guardian.co.uk/
international/story/0,6903,409218,00.html> (22 September 2002).
    \93\ Thomas Fuller, ``An Execution for a Kidney,'' International 
Herald Tribune, 15 June 2000, <http://www.iht.com/IHT/TF/00/
tf061500.html> (22 September 2002).
    \94\ ``Rare Chinese Newspaper Expose Details Prisoner Organ 
Harvests,'' Washington Post, 31 July 2001, <www.washingtonpost.com.>
    \95\ ``China Paper Sacks Organ Trade Reporter,'' Reuters, 2 August 
2001. When Yao was hired later the same year at a unit of Guangdong's 
Yangcheng Evening News, he was quickly fired on orders from central and 
provincial Propaganda authorities. ``Whistle-blower Sacked Again,'' 
South China Morning Post, 5 October 2001, <www.scmp.com>.
    \96\ ``Chinese Journalist Who Reported on Human Organ-Harvesting is 
Dismissed,'' Associated Press, 4 August 2001, <www.freedomforum.org/
templates/document.asp?documentID=14547> (24 September 2003).
    \97\ ``Shenzhen: First Domestic Regulations Passed on the Donation 
and Transplantation of Human Organs'' [Shenzhen: Guonei shoubu renti 
ziguan sunxian yizhi tiaolie huo tongguo], People's Daily [Renmin 
ribao], <http://www.people.com.cn/GB/14576/14957/2032149.html> (22 
September 2003).
    \98\ See Article 152 of the PRC Criminal Procedure Law requires 
trials to be heard in public with a few exceptions, and further 
provides that the reason for not hearing a case in public must be 
announced in court. People's Republic of China Criminal Procedure Law 
[Zhonghua renmin gonghe guo xingshi susong fa], Art. 152 enacted 1 July 
1979.
    \99\ See Congressional-Executive Commission on China Topic Paper: 
``Defense Lawyers Turned Defendants,'' 5; ``China: Trial of Shanghai 
Lawyer Accused of Passing State Secrets to Foreigners Opens,'' Hong 
Kong RTHK Radio 3, 28 August 2003, in FBIS, Doc. ID CPP20030828000132.
    \100\ ``China Bars U.S. From Activist's Trial,'' New York Times, 1 
August 2003.
    \101\ ``Chinese-Born Tycoon on Trial on Charges of Fraud, 
Bribery,'' Associated Press, 11 June 2003, <http://online.wsj.com/
article/0,SB105531118644483900,00.html?mod=home__whats__news__asia> (11 
June 2003).
    \102\ Ibid.
    \103\ Consular Convention between the United States of America and 
the People's Republic of China, 18 February 1982, art. 35(5).
    \104\ John Gittings, ``China Questions Death Penalty,'' The 
Guardian, 15 January 2003, <http://www.guardian.co.uk/international/
story/0,3604,874820,00.html> (16 January 2003).
    \105\ ``Death-row Lawyer Heads China's Execution Debate,'' Reuters, 
4 February 2003, <http://asia.cnn.com/2003/WORLD/asiapcf/east/02/04/
china.capital.punishment.reut/index.html> (4 February 2003).
    \106\ Guo Guangdong, ``Death Penalty: Keep it or Abolish it?'' 
[Sixing: Baoliu? Feichu?] Southern Weekend [Nanfang zhoumo], 9 January 
2003.
    \107\ ``International Conference on Bail Opens in Beijing,'' 
[Baoshi zhidu guoji yantaohui zai jing zhaokai], Chinese Lawyer Net 
[Zhongguo lushiwang], 3 June 2003, <http://www.acla.org.cn/pg/
lawyerShow.php?Id=541> (6 July 2003).
    \108\ See, e.g., ``Bail System: Learn From Others Or Keep What We 
Already Have? '' [Baoshi zhidu: ta shan zhi shi haishi huai bei zhi 
ji],'' Procuratorate Daily [Jiancha ribao], 24 April 2003, <http://
www.jcrb.com/zyw/n84/ca52396.htm> (7 July 2003).
    \109\ The eight core conventions are: Minimum Age Convention, 1973 
(Convention 138); Worst Forms of Child Labor Convention, 1999 
(Convention 182); Forced Labor Convention, 1930 (Convention 29); 
Abolition of Forced Labor Convention, 1957 (Convention 105); Freedom of 
Association and Protection of the Right to Organize Convention, 1948 
(Convention 87); Right to Organize and Collective Bargaining 
Convention, 1949 (Convention 98); Discrimination (Employment and 
Occupation) Convention, 1958 (Convention 111); Equal Remuneration 
Convention, 1951 (Convention 100). Text for all conventions can be 
found at the International Labour Organization's Web site at <http://
www.ilo.org>.
    \110\ Congressional-Executive Commission on China Roundtable, 
Freedom of Association for Chinese Workers, 7 July 2003, Testimony of 
Phil Fishman.
    \111\ Decision of the Standing Committee of the National People's 
Congress on Amending the Trade Union Law of the People's Republic of 
China, enacted October 27, 2001, art. 11.
    \112\ Congressional-Executive Commission on China Roundtable, 
Workplace Safety Issues in the People's Republic of China, 11 November 
2002, Testimony of Han Dongfang.
    \113\ Congressional-Executive Commission on China Roundtable, Codes 
of Conduct: U.S. Corporate Compliance Programs and Working Conditions 
in Chinese Factories, 7 July 2003, testimony of Doug Cahn.
    \114\  Congressional-Executive Commission on China Roundtable, 
Workplace Safety Issues in the People's Republic of China, 11 November 
2002, Testimony of Han Dongfang.
    \115\ Congressional-Executive Commission on China Roundtable, 
Workplace Safety Issues in the People's Republic of China, 11 November 
2002, Testimony of Trini Leung.
    \116\ People's Republic of China State Council Order Number 174, 
Decision on Amending the ``State Council Provisions on Work Hours for 
Laborers,'' [Guowuyuan guanyu xiugai ``Guowuyuan guanyu zhigong gongzuo 
shijian de guiding'' de guiding], enacted March 25, 1995, arts. 1 and 
2.
    \117\ People's Republic of China Labor Law [Zhonghua renmin 
gongheguo laodongfa], enacted 5 July 1994, arts. 41 and 44.
    \118\ ``China: A Boom in Going Bust,'' Economist Intelligence Unit 
Executive Briefing, 30 July 2003, <http://www.factiva.com> (July 7, 
2003).
    \119\ ``Nation Issues Regulation Banning Child Labor,'' China 
Daily, 16 October 2002 <http://www1.chinadaily.com.cn/en/doc/2002-10/
16/content__139877.htm> (23 September 2003).
    \120\ International Labor Organization, Ratifications of the ILO 
Fundamental Conventions (As of 23 September 2003), <http://
Webfusion.ilo.org/public/db/standards/normes/appl/appl-
ratif8conv.cfm?Lang=EN> (23 September 2003).
    \121\ Constitution of the People's Republic of China, art. 36.
    \122\ White House News Release, ``President Bush, Chinese President 
Jiang Zemin Discuss Iraq, N. Korea,'' 25 October 2002, <http://
www.whitehouse.gov/news/releases/2002/10/20021025.html> (23 September 
2003).
    \123\ Department of State Press Statement, ``Six Nations Listed As 
Severe Violators of Religious Freedom,'' 5 March 2003, <http://
usinfo.state.gov/regional/ea/uschina/hr0305.htm> (23 September 2003).
    \124\ United States Commission on International Religious Freedom, 
2003 Annual Report, 1 May 2003, <http://www.uscirf.gov/reports/02May03/
finalReport.php3?scale=800> (23 September 2003).
    \125\ ``China Arrests 12 Members of Unauthorized Church,'' Agence 
France Presse, 19 June 2003.
    \126\ Ibid.
    \127\ Erik Eckholm, ``Jailed Religious Leader in China in Poor 
Health,'' New York Times, 11 June 2003, <www.nyt.com>.
    \128\ John Pomfret, ``Evangelicals on the Rise in Land of Mao,'' 
Washington Post, 24 December 2002, <www.washingtonpost.com>.
    \129\ Ibid.
    \130\ ``Cardinal Sodano Says Relations Between Holy See, China `At 
Standstill,' '' Union of Catholic Asian News, 12 June 2003.
    \131\ ``China Tightening Its Grip on Catholics,'' Zenit.org, 28 May 
2003, <www.zenit.org/english/visualizza.phtml?sid=36290> (24 September 
2003).
    \132\ Ibid.
    \133\ Ibid.
    \134\ Congressional-Executive Commission on China Hearing, Will 
Religion Flourish Under China's New Leadership?, 24 July 2003, Written 
Statement of Randall Schriver.
    \135\ ``After Five Decades, Tibet's Monks Still Bristle Under 
Chinese Rule,'' Agence France-Presse, 18 August 2002, in FBIS, Doc ID 
CPP20020818000009. (``When the `Panchen Lama' . . . went to the 
Jokhang, the monastery at the centre of Lhasa in June [2002], soldiers 
armed with machine guns surrounded the building,'' [the monk] said. 
``Many monks were not even permitted to be there to receive him.'' 
Ibid. Another public but uncirculated report by Kate Saunders, 
``Security surrounds visit of Chinese choice of Panchen Lama to 
Kumbum,'' 18 August 2003, provides details about Gyaltsen Norbu's visit 
to Kumbum Monastery (Chinese: Ta'ersi) in August 2003.
    \136\ Congressional-Executive Commission on China Topic Paper, 
``The Execution of Lobsang Dondrub and the Case Against Tenzin Deleg: 
The Law, the Courts, and the Debate on Legality,'' 10 February 2003.
    \137\ According to a draft translation by the International 
Campaign for Tibet of Sonam Phuntsog's official sentencing document 
dated 20 November 2002 (gan zhong xin yi chu zi No. 11, 2002), ``Even 
though the accused and his lawyer denied that he delivered the words 
``Tibet independence,'' his actions showed that the accused advocated 
separating the country and undermining the unity of our 
nationalities.'' <http://www.savetibet.org/News/
News.cfm?ID=1433&c=7&Type=s> (6 August 2003).
    \138\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, ``International Religious Freedom Report--2002, China 
(Includes Hong Kong and Macau),'' 7 October 2002, <http://
www.state.gov/g/drl/rls/irf/2002/13870.htm> (8 October 2002).
    \139\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, ``Country Report on Human Rights Practices--2002, China 
(Includes Hong Kong and Macau),'' 31 March 2003, <http://www.state.gov/
g/drl/rls/hrrpt/2002/18239.htm> (1 April 2003).
    \140\ Human Rights Watch World Report 2003: China and Tibet, 
January 2003, <http://www.hrw.org/wr2k3/asia4.html> (15 January 2003).
    \141\ ``Falun Cult Condemned for Hindering SARS Control,'' People's 
Daily, (English edition) 11 June 2003, <http://
english.peopledaily.com.cn/200306/11/eng20030611__118041.shtml>
    \142\ See arts. 19, 19, and 35, respectively.
    \143\ See, e.g., Zhao Xianglin, ``A Web site in the City Posts News 
Without Authorization and is Ordered to Adjust and Reform,'' [Shiqu yi 
wangzhan shanzi dengzai xinwen beile ling zhengdun] FSOnline [Foshan 
zaixian] (online edition of the Foshan Daily), 10 September 2002, 
<http://www.fsonline.com.cn/news/foshan/hot/200209100012.htm> (2 
September 2003) . In December 2002, Chinese authorities announced that 
they would institute a national licensing system for reporters, see 
``Who is Qualified to be a Reporter? Different Reflections on the 
Media's Reporting on Various Aspects of Society'' [Shei you zige dang 
jizhe-Meiti shilu shehui geshi duici butong fanying], People's Daily 
[Renmin wang], 9 January 2003, <http://www.people.com.cn/GB/news/6056/
20030109/904328.html> (14 August 2003), and Shanghai has already put 
such a licensing system in place, see ``Shanghai Holds the First 
Journalist Qualification Examination, Questions May Stymie Older 
Journalists'' [Shanghai shouci jizhe zige kaoshi] Southern Net [Nanfang 
Wang], <http://www.southcn.com/edu/examinfo/zige/200212230075.htm> (14 
August 2003), citing Cai Yan, China Youth Daily [Qingnian bao], 23 
December 2002.
    \144\ For a list of legal provisions relating to these and other 
restrictions on freedom of expression in China, see <http://
www.cecc.gov/pages/selectLaws/PRCLaws.pdf>.
    \145\ See, e.g., Karl Marx, ``Debates on Freedom of the Press and 
Publication of the Proceedings of the Assembly of the Estates,'' 
Rheinische Zeitung, May 1842:
    ``The free press is the ubiquitous vigilant eye of a people's soul, 
the embodiment of a people's faith in itself, the eloquent link that 
connects the individual with the state and the world, the embodied 
culture that transforms material struggles into intellectual struggles 
and idealizes their crude material form. . . . It is the censored press 
that has a demoralizing effect. . . . The government hears only its own 
voice, it knows that it hears only its own voice, yet it harbors the 
illusion that it hears the voice of the people, and it demands that the 
people, too, should itself harbor this illusion.''
    Available at <http://www.marxists.org/archive/marx/works/1840/free-
press/index.htm> (14 August 2003). See also Mao Zedong, ``Discussions 
on United Government,'' [Lunlian he zhengfu] in ``Mao Zedong Makes the 
Government Report to the Seventh Plenum of the Chinese Communist 
Party'' [Mao Zedong zuoqi da zhengzhi baodao], 24 April 1945:
    ``We believe that the following demands are appropriate, and are 
the minimum acceptable: . . . We demand the elimination of all 
reactionary orders that suppress such things as the people's speech, 
press, assembly, association, thought, belief and personal freedoms, 
and that the people be able to obtain meaningful free rights.''
    Available at <http://www.people.com.cn/GB/shizheng/252/5089/5099/
20010426/452703.html> (14 August 2003).
    \146\ For a summary of this discussion see the Congressional-
Executive Commission on China Topic Paper, ``The Execution of Lobsang 
Dondrub and the Case Against Tenzin Deleg: The Law, the Courts, and the 
Debate on Legality,'' 10 February 2003.
    \147\ For example, unlike the death penalty conference discussed 
above, the Internet Society of China's 2002 Annual Conference held in 
November, 2002 in Shanghai and attended by Commission staff, was open 
to the press and the public. There was no discussion, much less debate, 
of freedom of expression as it relates to the Internet. One session was 
billed as having an ``open forum,'' where audience members could 
question leaders of China's Internet industry. However, the open forum 
consisted of the moderator calling on a reporter from China's state 
owned media, who asked the panel: ``When do you think the Spring of 
China's Internet will begin? '' After several panel members responded, 
the moderator immediately declared the open forum over, even though 20 
minutes remained before the session was scheduled to end.
    \148\ For example, although the Chinese government encourages the 
state controlled media to engage in targeted reporting on corruption, 
it will not tolerate similar criticisms from private individuals. See, 
e.g., ``An Employee is Detained [by `Internet police'] for 
Rumormongering for Exposing the Corruption of a Superior [Wangshang 
helu lingdao `fubai' yi yuangong zaoyao bei juliu],'' People's Daily 
[Renmin wang], 5 September 2003 (citing the Chu Tian Metropolitan Daily 
[Chutian dushibao]), <http://www.people.com.cn/GB/shehui/1061/
2074192.html> (5 September 2003).
    \149\ See, e.g., ``The Province Commences the Work of Province-Wide 
Rectification of Party and Government Agency Publications Abusing and 
Misusing Authority in Distribution,'' [Wo sheng kaizhan quansheng zhili 
dangzheng bumen baokan sanlan heli yongzhi quanfaxing gongzuo], Hubei 
Press and Publication Net [Hubei xinwen chuban wang], 7 August 2003, 
<http://www.hbnp.com.cn/news/show.asp?Id=1319> (28 August 2003).
    \150\ See, e.g., Zhang Jiahou, ``A Marxist View of the Press and 
`Supervising Public Opinion' '' [Makesi zhuyi xinwen guanyu xinglun 
jiandu] Hubei Media Net [Hubei zhuan mei wang], 25 August 2002, <http:/
/www.cnhubei.com/aa/ca185509.htm> (14 August 2003):
    ``When reporters write articles supervising public opinion, they 
must bang the drum and shout on behalf of the Party and the people, and 
certainly may not take the side of a single person or a small group of 
people and try to gain benefit for themselves in the name of 
supervising public opinion.''
    See also Dong Qiang, ``Chen Liangyu Emphasizes Needs to Ensure 
Implementation of Central Committees' Demand in Shanghai; Municipal 
Party Committee Convenes Standing Committee Meeting to Specifically 
Study Ways to Rectify Unorganized, Indiscriminate Press and 
Publications Distribution,'' [Chen Liangyu qiangdiao quebao zhongyang 
yaoqie zai benshi dedao guanqie luoshi zhili sanlan tanpai faxing], 
translated in FBIS, Doc. CPP20030729000046, citing Shanghai Liberation 
Daily [Shanghai jiefang ribao], 28 July 2003:
    ``We should combine the launch of the special rectification drive 
with the strengthening of the party's supervision over the press and 
publications. We should always unswervingly uphold the nature of media 
as the mouthpiece of the Party and people, always uphold the Party's 
supervision over newspapers and periodicals, and always adhere to the 
correct direction in guiding public opinion.''
    \151\ ``Destroy Fascist Publishing Laws,'' [Dadao faxicsi de 
chubanfa], Chongqing Xinhua Daily [Xinhua ribao], 29 June 1946:
    ``Modern democratic countries like England and the United States 
simply have nothing like publishing laws formulated to gag freedom of 
the press. In a publishing law, to adopt requirements that newspapers 
and periodicals must not only apply and register, but most also obtain 
permission in order to engage in distribution under a so-called special 
permit system; only fascist countries have this sort of evil.''
    \152\ See, e.g., John Milton, ``A Speech for the Liberty of 
Unlicensed Printing to the Parliament of England,'' Areopagitica 
(1644).
    \153\ Another form of prior restraint is judicial injunction. One 
political commentator explained the distinction between government 
censorship and judicial injunction as follows:
    ``The censor has no law but his superiors. The judge has no 
superiors but the law. The judge, however, has the duty of interpreting 
the law, as he understands it after conscientious examination, in order 
to apply it in a particular case. The censor's duty is to understand 
the law as officially interpreted for him in a particular case. The 
independent judge belongs neither to me nor to the government. The 
dependent censor is himself a government organ. In the case of the 
judge, there is involved at most the unreliability of an individual 
intellect, in the case of the censor the unreliability of an individual 
character.''
    Karl Marx, ``Debates on Freedom of the Press and Publication of the 
Proceedings of the Assembly of the Estates,'' Rheinische Zeitung, May, 
1842, available at <http://www.marxists.org/archive/marx/works/1840/
free-press/index.htm> (14 August 2003).
    \154\ See <http://www.cecc.gov/pages/selectLaws/PRCLaws.pdf> for a 
list of Chinese laws and regulations in this area.
    \155\ See, e.g., Wu Xuecan (former editor of the official People's 
Daily Foreign Edition), ``Let Everyone Become a Censor: The CCP's 
Multifaceted Media Control'' [Rang meige ren dou biancheng 
jianchayuan], VIP Reference [Da cankao], 12 March 2002, <http://
www.bignews.org/20020312.txt> (14 August 2003); Congressional-Executive 
Commission on China Open Forum Roundtable on Human Rights and the Rule 
of Law in China, 10 March 2003, Testimony and written statement of Chen 
Yali; and Elisabeth Rosenthal, ``Beijing in a Rear-Guard Battle Against 
a Newly Spirited Press,'' New York Times, 15 September 2002, A1.
    \156\ See Wei Xiaowei, ``Shenzhen Establishes a Publication 
Orientation Warning Mechanism'' [Shenzhen jianli chuban daoxiang yu 
jingji zhi], Gansu Xinhua <http://www.gs.xinhuanet.com/cmpd/2003-06/30/
content__659194.htm> (29 August 2003) (citing the China Press and 
Publication Daily [Zhongguo xinwen chuban bao]).
    \157\ See, e.g., ``The Central Government Prohibits the Domestic 
Media from Discussing Constitutional Reforms'' [Zhongyang jin neidi 
zhuan meiti zhenggai xiuxian] 21 August 2003, Hong Kong Sing Tao Jih 
Pao, <http://www.singtao.com/frame.html?forcepage=/yesterday/chi/
0821eo04.html> (22 August 2003).
    \158\ ``Shenzhen Editor Sacked over Article Satirizing Hu,'' The 
Straits Times, 26 November 2002. Available at <http://
www.asiamedia.ucla.edu/Weekly2002/11.26.2002/China2.htm> (14 August 
2003).
    \159\ John Pomfret, ``Chinese Newspaper Shut After Call for 
Reform,'' Washington Post, 14 March 2003, <http://
www.washingtonpost.com/ac2/wp-
dyn?pagename=article&node=&contentId=A23326-
2003Mar13&notFound=true> (14 August 2003).
    \160\ Richard McGregor, ``China Moves to Control Liberal Paper,'' 
Financial Times, 4 May 2003, <http://news.ft.com/home/asia> (5 May 
2003).
    \161\ ``A Beijing Newspaper is Censored for Criticizing the 
Government,'' [Beijing yi jia baozhi piping zhengfu zaojin], BBC.com, 
Chinese edition, 16 June 2003, (citing a report in the Hong Kong Wen 
Hui Bao), <http://news.bbc.co.uk/hi/chinese/news/newsid__2999000/
29998841.stm> (15 August 2003).
    \162\ See, e.g., Congressional-Executive Commission on China Open 
Forum Roundtable on Media Freedom in China, 24 June 2002, Transcript of 
He Qinglian, former journalist in the PRC:
    ``One of these subjects [that the government does not allow to be 
reported] is criticism of individual Chinese leaders. Also, matters 
relating to foreign affairs that the government does not wish 
foreigners to know about. Every couple of months there were a dozen or 
more different kinds of materials that were not to be discussed at all. 
One is not permitted to criticize the national economic policy or to 
discuss matters relating to Tibet, Taiwan, or Xinjiang, or about the 
Cultural Revolution. There were many such regulations.''
    (Available at <http://frWebgate.access.gpo.gov/cgi-bin/
getdoc.cgi?dbname=107__house__hearings&
docid=f:81228.wais> (18 August 2003)) For an example of such a 
regulation, see The Communist Party Propaganda Department and the 
General Administration on Press and Publication Issue a Notice 
Demanding that Book Publishing Work Welcome the 16th Party Congress in 
a Practical Manner, [Zhong xuanbu xinwen chuban zong shufachu tongzhi 
yaoqiu qieshi zuohao huanjie shiliu da tushu chuban gongzuo], issued 18 
March 2002, <www.bjppb.gov.cn/xwcbrx/2002-03-1802.htm> (18 August 
2003).
    \163\ ``China Sites Count Cost of Cyber-Control,'' CNN, 4 November 
2003 <http://edition.cnn.com/2002/TECH/11/03/china.content/> (15 August 
2003).
    \164\ For example, by impeding the efficiency of the WHO's Global 
Public Health Information Network, an electronic surveillance system 
that actively trawls the World Wide Web looking for reports of 
communicable diseases and communicable disease syndromes in electronic 
discussion groups, on news wires and elsewhere on the Web.
    \165\ Huang Liqi, ``Incident Resulting from Rumors of an Unknown 
Virus, Heyuan City Citizens Fight to Buy Antibiotics'' [Shi yin 
chuanwen chuxian weiming bingdu, Heyuan shimin zhenggou kangshengsu], 
Jinyang Net [Jinyang wang] (the online version of the Yangcheng Evening 
News [Yangcheng wan bao]), 3 January 2003 <http://www.ycwb.com/gb/
content/2003-01/03/content__474860.htm> (15 August 2003). Government-
controlled media stated that people in Guangdong began coming down with 
SARS in November of 2002. See ``What Can We Do to Defeat SARS? '' 
[Women kao shenma zhansheng ``fedian? ''], Southern Weekend [Nanfang 
zhoumou], 24 April 2003, <http://www.nanfangdaily.com.cn/zm/20030424/
xw/tb/200304240721.asp> (15 August 2003).
    \166\ ``Heyuan City Citizens go to Guangzhou in Panic Buying of 
Antibiotics'' [Heyuan ren gua Guangzhou qianggou kangshengsu], Jinyang 
Net [Jinyang wang] (the online version of the Yangcheng Evening News 
[Yangcheng wanbao]), 5 January 2003, <http://www.ycwb.com/gb/content/
2003-01/05/content__475250.htm> (15 August 2003); ``The Appearance of 
an Unknown Virus in Heyuan is a Rumor'' [``Heyuan xian weiming bingdu'' 
shi yaoyan], Jinyang Net [Jinyang wang] 9 January 2003, <http://
www.ycwb.com/gb/content/2003-01/09/content__476766.htm> (15 August 
2003).
    \167\ For example, in the same month the Ministry of Health issued 
a notice requiring government departments to concienciously report 
incidents of unknown infectious diseases to the Ministry, several 
provincial and municpal governments issued a notice threatening 
Internet users who ``distorted facts'' or ``spread rumors'' regarding 
SARS with criminal prosecution. Compare Notice Regarding Strengthening 
Work on the Prevention of Infectious Diseases [Guanyu jiaqiang 
chuanranbing zhi gongzuo de tongzhi], art. 4, issued 13 May 2003, with 
Notice Regarding Strictly Prohibiting Utilizing the Internet to Produce 
or Transmit Harmfull or False Information [Guanyu yanjin liyong 
hulianwang zhizuo, chuanbo youhai he bushi deng xinxi de gonggao], 
issued 3 May 2003 by the Shanghai Municipal Government Coordination 
Working Group Focusing on the Elimination and Rectification of Harmfull 
Information on the Internet. See also Congressional-Executive 
Commission on China Roundtable, Dangerous Secret: SARS and China's 
Health Care System, Testimony and written statement of Bates Gill: For 
the time being, it appears the mainland's initial denial and slow 
response to the SARS outbreak characterizes a political environment 
where individual initiative is discouraged and social stability is 
protected above other interests, to the detriment of social safety. 
<http://www.cecc.gov/pages/roundtables/051203/index.php> (2 September 
2003).
    \168\ See, e.g., ``Editorial: Sharing Health Info with the 
Public,'' China Daily, 27 August 2003, <http://www1.chinadaily.com.cn/
en/doc/2003-08/27/content__258532.htm> (27 August 2003): The outcome 
would have been hard to imagine, had Beijing not shared information 
with the public and the rest of the world and ordered a nationwide 
mobilization.
    But on the other hand, had local and national health authorities 
acted more resolutely and shared information with the public in a more 
timely manner, the epidemic may well have been contained within the 
borders of Guangdong Province, where SARS was first reported in China. 
See also, Ray Cheung, ``Investigative Newspaper's Virus Reports `Are 
Being Censored,' '' South China Morning Post, 9 May 2003, 
<www.scmp.com>, and ``China Gags SARS Talk on Net,'' South China 
Morning Post, 7 April 2003, <www.scmp.com>, citing AFP Beijing; Xue 
Baosheng, ``Valuable Lesson for Government to Learn,'' China Daily, 6 
June 2003, <http://www1.chinadaily.com.cn/cndy/2003-06-06/118111.html> 
(15 August 2003); Shu Xueshan, ``A Test for Government and the Media'' 
[Kaoyan zhengfu yu meiti], Jinyang Net [Jinyang wang] (the online 
version of the Yangcheng Evening News [Yangcheng wanbao]), 15 February 
2003, <http://www.ycwb.com/gb/content/2003-02/15/content__490366.htm> 
(15 August 2003).
    \169\ For a detailed discussion of the role of information control 
in the spread of SARS, see the Congressional-Executive Commission on 
China Topic Paper ``Information Control and Self-Censorship in the PRC 
and the Spread of SARS,'' 7 May 2003.
    \170\ ``An Individual Spreading Rumors that `An Unknown Epidemic is 
Spreading in Beijing' is Arrested'' [Wangshang sanbu ``Beijing you 
buming jiqing yanman'' yaoyanzhe beibu], People's Daily [Renmin wang], 
23 April 2003, citing the Beijing Youth Daily [Beijing Qingnian bao] 
<http://www.people.com.cn/GB/shehui/45/20030423/978114.html> (15 August 
2003).
    \171\ ``Two Chinese Editors Sacked Over Confidential SARS 
Document,'' South China Morning Post, 29 April 2003, <www.scmp.com>, 
citing Agence France-Presse, Beijing.
    \172\ Richard McGregor, ``China Moves to Control Liberal Paper,'' 
Financial Times, 4 May 2003, <http://news.ft.com/home/asia> (5 May 
2003).
    \173\ ``China censors CNN SARS Report,'' CNN, 15 May 2003, <http://
www.cnn.com/2003/WORLD/asiapcf/east/05/14/sars.censor/> (2 September 
2003).
    \174\ ``Media and Academics `Gagged by Officials' over SARS,'' 
South China Morning Post, 2 July 2003, <www.scmp.com>.
    \175\ Congressional-Executive Commission on China Open Forum 
Roundtable on Human Rights and the Rule of Law in China, 9 December 
2002, Testimony, written statement, and transcript of Joan Mower.
    \176\ Regulations for the Management of Ground Satellite Television 
Broadcasting Receptors [Weixing dianshi guangbo di mianjie shoushe shi 
guanli guiding], issued 5 October 1993, art. 2; Detailed Implementing 
Regulations for the Management of Ground Satellite Television 
Broadcasting Receptors [Weixing dianshi guangbo dimianjie shoushe shi 
guanli guiding shishi xize], issued 2 March 1994, art. 6.
    \177\ Interim Measures Concerning the Examination, Approval and 
Regulation of Transmission of Foreign Satellite Television Channels in 
China [Jingwai weixingdian shipin daoluo dishen piguan lizhanxing 
guiding], issued 26 December 2001.
    \178\ ``CNN Broadcast to China Cut,'' USA Today, 30 June 2003, 
<http://www.usatoday.com/news/world/2003-06-30-Broadcast-cut__x.htm> 
(15 August 2003), citing Associated Press.
    \179\ See, e.g., Congressional-Executive Commission on China 
Roundtable, China's Cyber-Wall: Can Technology Break Through?, 4 
November 2002, testimony and written statements of Avi Rubin, Co-
founder, Publius, a Web publishing system that resists censorship and 
provides publishers with anonymity; Bill Xia, President, Dynamic 
Internet Technology Inc.; Lin Hai, computer scientist from Shanghai, 
served 2 years in prison for distributing Chinese e-mail addresses to a 
dissident on-line magazine; Paul Baranowski, chief architect for the 
Peekabooty project, which seeks to bypass censorship of the World Wide 
Web.
    \180\ See, e.g., ``CIC Press Conference: Corporate America's Role 
in China's Building of an `E-Police' State,'' 17 June 2003, <http://
www.cicus.org/news/newsdetail.php?id=1237> (8 September 2003).
    \181\ Larry X. Wu, ``[W]e have our own understanding of what is a 
limitation of the freedom of speech. So we do use techniques to block 
certain Web sites . . . .'' Second Secretary for Science and Technology 
at the Embassy of the People's Republic of China in Washington, DC, 
quoted in Patrick Di Justo ``Does the End Justify the Means?'' 
Wired.com, 18 March 2003, <http://www.wired.com/news/politics/
0,1283,58082,00.html> (15 August 2003). See also Keith J. Winstein, 
``China Blocks MIT Web Addresses,'' The Tech, 22 November 2002, Volume 
122, Number 58, <http://wild-turkey.mit.edu/V122/N58/58Web.58n.html> 
(28 August 2003): ``A spokesperson for the Chinese embassy in 
Washington . . . confirmed that China was blocking access to MIT Web 
sites, but said neither he nor his colleagues in China knew why it was 
imposed.''
    \182\ ``Phonetics Institute Achieve Advance in Computer Language 
Comprehension Technology,'' [Shengxuesuo jisuanji yuyan lijie jishu 
qude jinzhan] Announcement on the Phonetics Institute, Chinese Academy 
of Sciences Web site, 18 February 2003, <http://www.cas.ac.cn/html/Dir/
2003/02/18/7228.htm> (28 August 2003).
    \183\ China Internet Network Information Center [Zhongguo 
hulianwang luxin xizhongxin], ``China Internet 2002 Annual Report'' 
[Zhongguo hulian wanglu 2002 nianjian], <http://www.cnnic.net.cn/
annual2002/42.shtml> (15 August 2003).
    \184\ See, e.g., ``15 Year Old Youth Making Reactionary Expression 
on the Internet is Subject to Administrative Punishment'' [15 sui 
shaonian wangshang fabu fandong yanlun shou chufa], People's Daily 
[Renmin wang], 10 July 2003.
    \185\ For a thorough study of how BBSs in China are censored, see 
Reporters Without Borders, ``Living Dangerously on the Net: Censorship 
and Surveillance of Internet Forums,'' 12 May 2003, <http://
www.rsf.org/article.php3?id__article=6793> (15 August 2003).
    \186\ For example, one Internet forum that the Commission has been 
monitoring first went down in early July 2003, saying it was ``under 
malicious attack.'' It came back up for a short period at the end of 
July, with the moderator citing ``content problems'' as one of the 
possible reasons for the site having been taken down, and warning 
posters that ``. . . `[Forum name]' warmly welcomes you to join, 
provided you observe the principles of `a united motherland, harmony 
between peoples, and obedience of the law.' '' Cases where the 
government has shut down BBSs for political content include ``Sleepless 
Night'' [Bumei zhiye], and ``Study and Thought'' [Xue er si]. See also 
Kathy Chen, ``China Cracks Down on Growing Debate Over Political 
Reform,'' The Wall Street Journal, 24 September 2003, <http://
online.wsj.com/article/0,,SB106434520777450300,
00.html?mod=asia%255Fbusiness%255Ffeatured%255Farticles> (24 September 
2003) (discussing how in September 2003 Chinese authorities ordered 
four Web sites that posted articles on political and constitutional 
reforms to close because the sites--www.caosy.com, 
www.libertas2000.net, www.xianzheng.net, and www.cc-forum.com--were not 
registered and did not have business licenses).
    \187\ See, e.g., Rules for the Protection of Secrets in News 
Publishing [Xinwen chuban baomi guiding], issued 13 June 1992, art 15: 
Anyone wishing to provide a foreign news publishing organization a 
report or publication with contents that relate to the nation's 
government, economy, diplomacy, technology or military shall first 
apply to their unit or their supervising organ or unit for examination 
and approval. See also Law on the Protection of State Secrets [Baoshou 
guojia mimifa], issued 25 April 1990, art 8.
    \188\ See, e.g., ``If a Nanny Can Disclose State Secrets, Then 
Average Citizens Should Raise Their Awareness of Preserving Secrets'' 
[Baomu jingran toulu guojia jimi, baixin yexu tigao baomi yishi], 
People's Daily [Renmin wang], 5 September 2003, http://
www.people.com.cn/GB/shizheng/1026/2073981.html (citing the Guangzhou 
Daily [Guangzhou ribao]), emphasizing how anyone from Internet users to 
garbage collectors can run afoul of China's state secrets legislation. 
For a more detailed discussion of China's state secrets and national 
security laws, see the Congressional-Executive Commission on China 
Topic Paper, ``Information Control and Self-Censorship in the PRC and 
the Spread of SARS,'' 7 May 2003.
    \189\ ``People's Republic of China: State Control of the Internet 
in China,'' Amnesty International Document: ASA 17/007/02, <http://
web.amnesty.org/aidoc/aidoc__pdf.nsf/index/ASA170072002ENGLISH/$File/
ASA1700702.pdf> (15 August 2003).
    \190\ See, e.g., Reporters Without Borders, ``2003 Annual Report: 
China,'' <http://www.rsf.org/article.php3?id__article=6464> (15 August 
2003); Committee to Protect Journalists, ``Attacks on the Press in 
2002: China,'' <http://www.cpj.org/attacks02/asia02/china.html> (15 
August 2003).
    \191\ See, e.g., China Detains Dissident over Reform Call, CNN.com, 
9 January 2003, <http://asia.cnn.com/2003/WORLD/asiapcf/east/01/09/
china.dissident.ap/index.html> (9 January 2003).
    \192\ Wang Shulin, ``Xinjiang Hears Case of Incitement of 
Subversion Against the State'' [Xinjiang shenli yilie shandong dianfu 
guojia zhengquanan], China Court Web [Fayuan hulianwang], 16 February 
2003, <http://www.chinacourt.org> (15 August 2003).
    \193\ The accounts of the accusations against Huang Qi are based on 
copies of official government documents made available by his 
supporters at <http://www.6-4tianwang.com> (19 May 2003--now defunct).
    \194\ The accounts of the accusations against these individuals are 
based on copies of official government documents available at <http://
peacehall.com/news/gb/china/2003/04/200304291247.
shtml> (19 May 2003).
    \195\ ``15-Year-Old Youth Making Reactionary Expression on the 
Internet is Subject to Administrative Punishment'' [15 sui shaonian 
wangshang fabu fandong yanlun shou chufa], People's Daily [Renmin 
wang], 10 July 2003, <http://www.people.com.cn/GB/shehui/1061/
1967015.html> (15 August 2003).
    \196\ See, e.g., ``Congressional-Executive Commission on China 
Selected Legal Provisions of the People's Republic of China Affecting 
the Free Flow of Information,'' available at <http://www.cecc.gov/
pages/selectLaws/PRCLaws.php>.
    \197\ Congressional-Executive Commission on China Roundtable, 
Voices of the Small Handful: 1989 Student Movement Leaders Assess Human 
Rights in Today's China, 2 June 2003, Testimony of Wang Dan.
    \198\ Population Census Office Under the State Council, Tabulation 
on the 2000 Population Census of the People's Republic of China, vol. 
3, chart 6-1 (Beijing: China Statistics Press, 2002), 1681.
    \199\ ``New Guidelines for Over-Quota Child Fines,'' The U.S. 
Embassy in Beijing Web site, <http://www.usembassy-china.org.cn/sandt/
estnews081602.htm> (17 September 2003).
    \200\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, ``Country Reports on Human Rights Practices--2002, China 
(includes Hong Kong and Macau),'' 31 March 2003 <http://www.state.gov/
g/drl/rls/hrrpt/2002/18239.htm> (16 September 2003).
    \201\ ``Basic Views and Policies Regarding Population and 
Development,'' National Population and Family Planning Commission of 
China Web site, <http://www.sfpc.gov.cn/en/basicview.htm> (18 September 
2003).
    \202\ Congressional-Executive Commission on China Roundtable, 
Women's Rights and China's New Family Planning Law, 23 September 2002, 
Testimony of Bonnie Glick.
    \203\ David Hsieh, ``China Relaxes Family Planning Controls With 
Fine,'' The Straits Times, 19 January 2002, www.straitstimes.com.
    \204\ Congressional-Executive Commission on China Roundtable, 
Women's Rights and China's New Family Planning Law, 23 September 2002, 
Testimony of Susan Greenhalgh.
    \205\ Ibid.
    \206\ The United Nations' Office of the High Commissioner for Human 
Rights identifies HIV/AIDS as an undeniable human rights concern: 
``There is clear evidence that where individuals and communities are 
able to realize their rights--to education, free association, 
information, and, most importantly, non-discrimination--the personal 
and societal impact of HIV and AIDS are reduced. The protection and 
promotion of human rights are therefore essential to preventing the 
spread of HIV and to mitigating the social and economic impact of the 
pandemic. In addition, Article 21 of the Chinese Constitution states, 
``The state develops medical and health services, promotes modern 
medicine and traditional Chinese medicine . . . all to protect the 
people's health.''
    \207\ See, e.g., Congressional-Executive Commission on China 
Roundtable, HIV/AIDS in China: Can Disaster Be Averted?, 9 September 
2002.
    \208\ See, e.g., The Center for Strategic and International 
Studies, ``Averting a Full-Blown HIV/AIDS Epidemic in China: A Report 
of the CSIS HIV/AIDS Delegation to China, 13-17 January 2003,'' 
February 2003. The Commission staff also directly received this advice 
from J. Stephen Morrison, Executive Director of the CSIS HIV/AIDS Task 
Force, and Bates Gill, Freeman Chair in China Studies at CSIS.
    \209\ Joint United Nations Programme on HIV/AIDS and World Health 
Organization, ``AIDS Epidemic Update,'' December 2002, 7, <http://
www.who.int/hiv/facts/en/epiupdate__en.pdf> (3 September 2003).
    \210\ The Center for Strategic and International Studies, 
``Averting a Full-Blown HIV/AIDS Epidemic in China: A Report of the 
CSIS HIV/AIDS Delegation to China, 13-17 January 2003,'' February 2003, 
2.
    \211\ United Nations Theme Group on HIV/AIDS in China, ``HIV/AIDS: 
China's Titanic Peril--2001 Update of the AIDS Situation and Needs 
Assessment Report,'' June 2002, 7.
    \212\ ``Chinese Vice Premier Meets UNDP Official,'' Xinhua, 5 July 
2003, <http://service.china.org.cn/link/wcm/
Show__Text?info__id=68982&p__qry=AIDS> (3 September 2003).
    \213\ CSIS, ``Averting a Full-Blown HIV/AIDS Epidemic in China: A 
Report of the CSIS HIV/AIDS Delegation to China,'' 2.
    \214\ Congressional-Executive Commission on China Roundtable, HIV/
AIDS in China: Can Disaster Be Averted?, 9 September 2002, Testimony of 
Joan Kaufman, Visiting Scholar, East Asia Legal Studies Program, 
Harvard Law School, and Bates Gill, Freeman Chair in China Studies, 
Center for Strategic and International Studies.
    \215\ See, e.g., ``Hundreds of Police Storm `AIDS Village' in 
China, Arrest 13 Farmers,'' Agence France-Presse, 3 July 2003, in FBIS, 
Doc ID CPP20030703000102; Agence France-Presse, ``Group Says China 
Increased Arrests, Violence Against HIV Positive Protestors,'' 9 July 
2003, in FBIS, Doc ID CPP20030709000038.
    \216\ Human Rights Watch, ``China: Police Violence Against HIV-
Positive Protestors Escalates--Henan Authorities Deepen AIDS Cover-
up,'' 9 July 2003, <http://www.hrw.org/press/2003/07/china070903.htm> 
(3 September 2003).
    \217\ ``China Starts Offering Free AIDS Drugs but Lacks Doctors to 
Administer Them,'' Agence France-Presse, 14 July 2003, <http://
www.aegis.com/news/afp/2003/AF030781.html> (12 August 2003).
    \218\ Congressional-Executive Commission on China Roundtable, HIV/
AIDS in China: Can Disaster Be Averted?, 9 September 2002, Testimony of 
Joan Kaufman, Visiting Scholar, East Asia Legal Studies Program, 
Harvard Law School.
    \219\ See, e.g., ibid.; Testimony of Bates Gill, Freeman Chair in 
China Studies, Center for Strategic and International Studies.
    \220\ China has included provisions for the protection and equality 
of women in a succession of laws including the Constitution, Law of 
Inheritance (1985), Compulsory Education Law (1986), Law on the 
Protection of the Rights and Interests of Women (1992), Maternal and 
Infant Health Care Law (1994); Labor Law (1994), Criminal Procedure Law 
(1996), Criminal Law (1997), Adoption Law (1998), Marriage Law (2001, 
as amended), Population and Family Planning Law (2001), and the Trade 
Union Law (2001).
    \221\ ``Woman Lawmaker Condemns Family Violence, Extramarital 
Affairs,'' People's Daily (English edition), 8 March 2001, <http://
fpeng.peopledaily.com.cn/200103/08/eng20010308__64465.html> (23 
September 2003).
    \222\ ``Peng Peiyun Appealed to the 10th NPC to Amend the Law,'' 
All-China Women's Federation Web site, <http://www.women.org.cn/
womenorg/English/english/whatisnws/2003-1.htm> (28 August 2003).
    \223\ Congressional-Executive Commission on China Roundtable, 
Holding up Half the Sky: Women's Rights in China's Changing Economy, 24 
February 2003, Testimony of Margaret Woo.
    \224\ Ibid.
    \225\ Cindy Sui, ``Beijing Woman Files Chinese Capital's First 
Sexual Harassment Suit,'' Agence France Presse, 1 July 2003.
    \226\ Holding up Half the Sky, Prepared Statement of Rangita de 
Silva.
    \227\ ``Family Violence Becomes Public Evil in China,'' Xinhua, 7 
March 2003, <http://www.china.org.cn/english/China/57629.htm> (23 
September 2003).
    \228\ ``White Ribbons to End Violence Against Women in Beijing,'' 
People's Daily (Engilsh edition), 29 November 2002, <http://
english.peopledaily.com.cn/200211/30/eng20021130__
107691.shtml> (23 September 2003).
    \229\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, ``Country Reports on Human Rights Practices--2002, China 
(includes Hong Kong and Macau),'' 31 March 2003, <http://www.state.gov/
g/drl/rls/hrrpt/2002/18239.htm> (8 July 2003).
    \230\ Holding up Half the Sky, Testimony of Rangita de Silva.
    \231\ Ibid.
    \232\ Peter Harmsen, ``China's Sex Workers Heading Blindly Towards 
AIDS Catastrophe,'' Agence France Press, 29 November 2002, <http://
www.aegis.com/news/afp/2002/AF0211C3.
html> (23 September 2003).
    \233\ Population Census Office, Tabulation on the 2000 Population 
Census of the People's Republic of China, vol. 3, Chart 6-1 
(Beijing:China Statistics Press: Beijing, 2002), 1,681.
    \234\ Joe McDonald, ``China's Trade in Baby Girls Illicit But 
Thriving,'' Associated Press, 25 March 2003.
    \235\ Human Rights Watch, ``The Invisible Exodus: North Koreans in 
the People's Republic of China,'' November 2002, <http://www.hrw.org/
reports/2002/northkorea/> (16 September 2003).
    \236\ Congressional-Executive Commission on China Roundtable, 
Clearing the Air: The Human Rights and Legal Dimensions of China's 
Environmental Dilemma, 27 January 2002, Testimony of Elizabeth Economy, 
C.V. Starr Senior Fellow and Director, Asia Studies, Council on Foreign 
Relations.
    \237\ Report of the U.S. Embassy in Beijing, ``The Cost of 
Envrionmental Degradation in China,'' December 2000, <http://
www.usembassy-china.org.cn/sandt/CostofPollution-Web.html> (22 
September 2003).
    \238\ China's Environmental Dilemma, Written Statement of Elizabeth 
Economy, C.V. Starr Senior Fellow and Director, Asia Studies, Council 
on Foreign Relations.
    \239\ Ibid., Testimony of Jennifer Turner, Senior Project Associate 
for China, Woodrow Wilson Center.
    \240\ Ibid., Written Statements of Elizabeth Economy, C.V. Starr 
Senior Fellow and Director, Asia Studies, Council on Foreign Relations, 
and Brian Rohan, Associate Director, American Bar Association Asian Law 
Initiative.
    \241\ Ibid., Testimony of Elizabeth Economy, C.V. Starr Senior 
Fellow and Director, Asia Studies, Council on Foreign Relations.
    \242\ Ibid., Testimony of Richard Ferris, Principal, Beveridge & 
Diamond, PC.
    \243\ Convention relating to the Status of Refugees, Adopted on 28 
July 1951 by the United Nations Conference of Plenipotentiaries on the 
Status of Refugees and Stateless Persons convened under General 
Assembly resolution 429 (V) of 14 December 1950.
    \244\ Joe Young, ``Hukou Reform Targets Urban-Rural Divide,'' The 
China Business Review, May-June 2002, 32.
    \245\ Ibid., 32-33.
    \246\ See, e.g., ibid., 33; Nicolas Becquelin, ``Without Residency 
Rights, Millions Wait in Limbo,'' South China Morning Post, 27 February 
2003, <http://focus.scmp.com/focusnews/ZZZZ0WR4JCD.html> (27 February 
2003).
    \247\ Human Rights in China, ``Institutionalized Exclusion: The 
Tenuous Legal Status of Internal Migrants in China's Major Cities,'' 6 
November 2002, ii, <http://iso.hrichina.org/download__repository/A/
HRIC%20Full%20Report%20Nov%202002.pdf> (2 September 2003).
    \248\ Ibid., 77.
    \249\ Hein Mallee, ``Migration, Hukou and Resistance in Reform 
China,'' in Elizabeth J. Perry and Mark Selden (eds.), Chinese Society: 
Change, Conflict and Resistance (London: Routledge, 2000), 85.
    \250\ Charles Hutzler and Susan Lawrence, ``New Rules on Migrant 
Workers Mark Major Policy Shift in China,'' The Wall Street Journal, 20 
January 2003, <http://online.wsj.com/article/
0,,SB1043003515257479704,00.html?mod=home__inside__today__asia> (22 
January 2003).
    \251\ Nicolas Becquelin, ``Without Residency Rights, Millions Wait 
in Limbo,'' South China Morning Post, 27 February 2003, <http://
focus.scmp.com/focusnews/ZZZZ0WR4JCD.html> (27 February 2003).
    \251\ See, e.g., ``Japanese Daily: 30 `Refugees' Sent Back to DPRK 
in Late January,'' Choson Ilbo, translated in FBIS, Doc. ID: 
KPP20030409000094, 10 April 2003.
    \253\ Nick Young, ``Searching for Civil Society,'' 250 Chinese NGOs 
(China Development Brief 2001), 9.
    \254\ Julia Greenwood Bentley, ``The Role of International Support 
for Civil Society Organizations in China,'' Harvard Asia Quarterly, 
Winter 2003), 11.
    \255\ Congressional-Executive Commission on China Roundtable, To 
Serve the People: NGOs and the Development of Civil Society in China, 
24 March 2003, Testimony of Ma Qiusha. This report uses the term non-
governmental organizations (NGOs) to refer to groups and organizations 
in civil society, but others reject the term in the context of China 
and prefer to use instead ``non profit organizations'' (NPOs) or 
``civil society organizations'' (CSOs).  See Bentley, at 11; see also 
To Serve the People, Testimony of Ma Qiusha, for a discussion of terms, 
definitions and the different kinds of NGOs that exist in China.
    \256\ See U.S. Embassy Beijing, ``Chinese NGO's--Carving a Niche 
Within Constraints,'' January 2003, <http://www.usembassy-china.org.cn/
sandt/ptr/ngos-prt.htm> (19 February 2003).
    \257\ Ibid., 2.
    \258\ See Congressional-Executive Commission on China Roundtable, 
Clearing the Air: The Human Rights and Legal Dimensions of China's 
Environmental Dilemma, 27 January 2003, Testimony of Jennifer Turner.
    \259\ Regulations on Legal Aid [Falu yuanzhu tiaoli], issued 16 
July 2003, arts. 7-9. An official Chinese commentator stressed that 
legal aid contributions and services from non-governmental 
organizations would be keys in providing legal services to the 
underprivileged. ``Law, How it Becomes a Consumable of the Weak'' 
[Falu, ruhe chengwei ruozhe de xiaofepin], Procuratorate Daily [Jiancha 
ribao], 18 August 2003, <http://www.jcrb.com/zyw/n194/ca110462.htm> (22 
August 2003).
    \260\ See Congressional-Executive Commission on China Roundtable, 
To Serve the People: NGOs and the Development of Civil Society in 
China, 24 March 2003, Testimony of Nancy Yuan; U.S. Embassy Beijing, 
``Chinese NGOs--Carving a Niche Within Constraints,'' January 2003, 
<http://www.usembassy-china.org.cn/sandt/ptr/ngos-prt.htm> (19 February 
2003) (``All knowledgeable interlocutors in China believe that the 
emergence of the Falun Gong movement, and the government's crackdown 
against it, significantly slowed the process of drafting and approving 
new NGO registration rules.'').
    \261\ Congressional-Executive Commission on China Roundtable, 
Clearing the Air: The Human Rights and Legal Dimensions of China's 
Environmental Dilemma, 27 January 2003, Testimony of Jennifer Turner.
    \262\ See, e.g., Congressional-Executive Commission on China 
Roundtable, To Serve the People: NGOs and the Development of Civil 
Society in China, 24 March 2003, Testimony of Ma Qiusha; U.S. Embassy 
Beijing, ``Chinese NGO's-Carving a Niche Within Constraints,'' January 
2003, <http://www.usembassy-china.org.cn/sandt/ptr/ngos-prt.htm> (19 
February 2003); and Julia Greenwood Bentley, ``The Role of 
International Support for Civil Society Organizations in China,'' 
Harvard Asia Quarterly, (Winter 2003), 13. The main regulations 
governing the registration and operation of social organizations in 
China is the Regulations for Registration and Management of Social 
Organizations [Shehui tuanti dengji guanli tiaoli], issued 25 September 
1998.
    \263\ NGOs may also register with the local Civil Affairs bureau. 
For ease of discussion, we will just use MOCA as representative of the 
Civil Affairs bureaucracy, whether national or local.
    \264\ See Julia Greenwood Bentley, The Role of International 
Support for Civil Society Organizations, Harvard Asia Quarterly (Winter 
2003).
    \265\ Edward Gargan, ``China Cracks Down on Clubs; Lit Study Group, 
Anglers Among Those Dissolved,'' 22 June 2003, Newsday, (23 June 2003); 
``Shutting Down Social Organizations Is Not an Administrative 
Punishment'' [Zhuxiao shetuan bushu xingzheng chufa], Jinghua Ribao, 20 
June 2003, <http://www.people.com.cn/GB/paper1787/9470/876267.html> (10 
July 2003).
    \266\ Professor Liang Congjie founded Friends of Nature in 1994. By 
2001, it had over 1,200 members and had engaged in a wide range of 
activities, from publishing a seven-volume series on environmental 
issues to campaigning for the banning of logging in Yunnan. See Julia 
Greenwood Bentley, The Role of International Support for Civil Society 
Organizations, Harvard Asia Quarterly (Winter 2003), 13.
    \267\ Human Rights in China Press Release, ``Activist Writer Wang 
Lixiong Dismissed from Environmental Group,'' 14 February 2003. 
According to a knowledgeable source, the Board of Friends of Nature had 
apparently asked Wang to resign, but he refused. Wang wanted to be 
fired, so that it neither be, nor appear to look, voluntary and 
compliant.
    \268\ See Bentley, 14 (``In the absence of significant tax 
incentives for charitable donations by either corporations or 
individuals, it is very difficult for CSOs [civil society 
organizations] to raise funds domestically.'').
    \269\ See Congressional-Executive Commission on China Roundtable, 
To Serve the People: NGOs and the Development of Civil Society in 
China, 24 March 2003, Testimony of Nancy Yuan. See also 
<www.chinadevelopmentbrief.com>--an impressive resource about domestic 
and international NGOs working in China.
    \270\ Multinational corporations such as Nike, Adidas, Reebok, Levi 
Strauss, Microsoft, Ford Motor Company and General Motors have also 
invested in China's civil society by supporting a wide range of 
activities, including for example, health and education programs, rule 
of law efforts and poverty alleviation projects. See Congressional-
Executive Commission on China Roundtable, To Serve the People: NGOs and 
the Development of Civil Society in China, 24 March 2003, Written 
statement of Nancy Yuan.
    \271\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, ``Country Reports on Human Rights Practices--2002, China 
(includes Hong Kong and Macau),'' 31 March 2003 <http://www.state.gov/
g/drl/rls/hrrpt/2002/18239.htm> (8 July 2003). The government-
established China Society for Human Rights does not monitor human 
rights conditions in China, but rather defends China's record and views 
on human rights.
    \272\ U.S. Embassy Beijing, ``Chinese NGOs--Carving a Niche Within 
Constraints,'' January 2003, <http://www.usembassy-china.org.cn/sandt/
ptr/ngos-prt.htm> (19 February 2003).
    \273\ Julia Greenwood Bentley, The Role of International Support 
for Civil Society Organizations, Harvard Asia Quarterly (Winter 2003), 
1.
    \274\ Constitution of the People's Republic of China, art. 57.
    \275\ See, e.g., Delegate Law of the National People's Congress and 
Various Levels of Local People's Congresses [Zhonghua renmin gongheguo 
quanguo renmin daibiao dahui he difang geji renmin daibiao dahui 
daibiao fa], enacted 3 April 1992, arts. 1-3; Election Law of the 
National People's Congress and Various Levels of Local People's 
Congresses [Zhonghua renmin gongheguo quanguo renmin daibiao dahui he 
difang geji renmin daibiao dahui xuanju fa], enacted, 1 July 1979, 
arts. 1-4; Organic Law of the National People's Congress [Zhonghua 
renmin gongheguo quanguo renmin daibiao dahui zuzhi fa], enacted 10 
February 1982; Organic Law of the Various Levels of Local People's 
Congresses and Governments [Zhonghua renmin gongheguo difang geji 
renmin daibiao dahui he difang geji renmin zhengfu zuzhi fa], enacted 1 
July 1979.
    \276\ Peter Howard Corne, ``Creation and Application of Law in the 
PRC,'' Am. J. of Comp. L. (2002): 369, 378.
    \277\ Constitution of the People's Republic of China, art. 60; 
Election Law of the National People's Congress, ch. 3.
    \278\ Organic Law of the National People's Congress, arts. 1-4.
    \279\ Perry Keller, ``The National People's Congress and the Making 
of National Law,'' in Law-Making in the People's Republic of China 
(Boston: Kluwer Law International, 2000).
    \280\ See Murray Scot Tanner, ``The National People's Congress'' in 
Merle Goldman and Roderick MacFarquhar (eds.) The Paradox of China's 
Post-Mao Reforms (Cambridge, MA: Harvard University Press 1999), 101.
    \281\ People's Republic of China Legislation Law [Zhonghua renmin 
gongheguo lifa fa], enacted 15 March 2001, art. 7.
    \282\ Ibid., ch. 2.
    \283\ Organic Law of the National People's Congress, ch. 2.
    \284\ The 2003 announcement stated that ``the National People's 
Congress establishes an ethnic specialized committee, a law specialized 
committee, an internal judicial committee, a finance and economics 
committee, an education, science, culture and healthcare committee, a 
foreign affairs committee, an overseas Chinese committee, an 
environmental and natural resources protection committee, and a 
agricultural enterprise and village committee.'' The decision of the 
10th National People's Congress on the Establishment of Specialized 
Committees [Dishijie quanguo renmin daibiao dahui diyi ci huiyi guanyu 
sheli dishijie quanguo renmin daibiao dahui zhuanmen weiyuanhui de 
jueding], issued 6 March 2003, <http://www.law-lib.com/law/
law__view.asp?id=42898> (14 August 2003).
    \285\ Legislation Law, ch 2.
    \286\ Corne, ``Creation and Application of Law in the PRC,'' 279.
    \287\ Legislation Law, arts. 34 and 35.
    \288\ One noted case in which the NPC did in fact solicit public 
opinion was in the drafting of amendments for the Marriage Law of 2001. 
``Public Replies to New Marriage Law,'' People's Daily (English 
edition), 2 March 2001, <http://fpeng.peopledaily.com.cn/200103/02/
print20010302__63854.html> (25 September 2003).
    \289\ See, e.g., Young Nam Cho, ``From `Rubber Stamps' to `Iron 
Stamps': The Emergence of Chinese Local Congresses as Supervisory 
Powerhouses,'' China Quarterly 171 (2002): 724.
    \290\ Constitution of the People's Republic of China, ch. 5. 
Certain areas, such as Tibet (Xizang), Xinjiang, Inner Mongolia, and 
the Shenzhen special economic zone, have special legislative powers 
superior to those of other provincial and directly administered 
municipalities. The local congresses in these areas have the power, 
within their specific NPC mandates, to enact legislation that conflicts 
with the law promulgated by the NPC and NPSC. Legislation Law, ch. 4, 
sec. 1.
    \291\ Legislation Law, art. 68.
    \292\ Commission Staff Interview.
    \293\ Ibid.
    \294\ Ibid.
    \295\ Ibid.
    \296\ Ibid.
    \297\  Congressional-Executive Commission on China 2002 Annual 
Report.
    \298\ Zhang Tingting, ``The Public Solicited for Legislative Items 
and Drafts,'' China Internet Information Network, 12 August 2002, 
<www.china.org.cn/english/2002/Aug/39228.htm> (24 September 2003).
    \299\ Ibid.
    \300\ Alex Xu, ``Nine Proposals by Public Representatives Adopted 
in Sichuan,'' China Internet Information Network, 3 January 2002, 
<www.china.org.cn/english/2003/Jan/52699.htm> (24 September 2003).
    \301\ ``Citizens Invited to Participate in Lawmaking in SW China 
Province,'' Xinhua, 25 December 2002, <http://www.china.org.cn/english/
government/52072.htm> (24 September 2003).
    \302\ ``Zhejiang: Citizens Have the Right to Attend Provincial 
People's Congress Meetings,'' Zhejiang Daily [Zhejiang Ribao], 28 June 
2003, <http://www.zjdaily.com.cn> (14 August 2003).
    \303\ Conclusions from Commission staff observation of village 
elections.
    \304\ Constitution of the People's Republic of China, art. 89 
(1982).
    \305\ Ibid., art. 89.
    \306\ Peter Howard Corne, ``Creation and Application of Law in the 
PRC,'' Am. J. of Comp. L. (2002): 381.
    \307\ See generally Organic Law of the State Council of the 
People's Republic of China [Zhonghua renmin gongheguo guowuyuan zuzhi 
fa], enacted 10 December 1982; Constitution of the People's Republic of 
China, sec. 3.
    \308\ The State Council set legislative competence as a high 
priority in 1998 even before the National People's Congress enacted the 
Legislation Law for that specific purpose. General Office of the State 
Council, Notice on Several Opinions Regarding Improving the Legislative 
Work of the State Council and the 1998 State Council Legislative Plan 
[Guanyu yin fa guowuyuan lifa gongzuo ruogan yijian he 1998 nian lifa 
gongzuo anpai de tongzhi] in The State Council Gazette [Guowuyuan 
gongbao], No. 14 (1998): 588-91 (stating that the goal of improving 
government legislation is a central component of Deng Xiao Ping theory 
and the basic CCP line of thought).
    \309\ ``Specialists' Discussion: The Ministry of Commerce and a New 
Era of Trade'' [Zhuanjia fangtan: shangwu bu zhuzheng xin maoyi 
shidai], People's Daily [Renmin wang], 3 March 2003, <http://
www.peopledaily.com.cn/GB/shizheng/252/10434/44> (1 July 2003).
    \310\ Wen Lei Ma et. al., ``The State Capital Commission, the 
Banking Supervision Commission, and the Ministry of Commerce'' [Guozi 
wei, yinjian hui, shangwu bu deng si bumen fuxian], People's Daily 
[Renmin wang] 7 March 2003, <http://www.peopledaily.com.cn/GB/shizheng/
252/10434/72> (1 July 2003).
    \311\ Ibid.
    \312\ ``Shenzhen to Lead PRC's Pilot Reform Toward `Tripartite 
Administration,' '' Shanghai Wenhui Bao, translated in FBIS, Doc. ID 
CPP20030203000034 (30 January 2003).
    \313\ Ibid.
    \314\ Within the listed categories, only Jiangsu Province, the 
Tibet Autonomous Region, Lhasa (the capital of the Tibet Autonomous 
Region), and Nanning City (the capital of Guangxi Autonomous Region) 
did not have Web sites when this report went to print. See ``CECC E-
Government Directory'' <http://www.cecc.gov/pages/prcEgovdir/
dirEgovPRC.php> (14 August 2003).
    \315\ Beijing Municipality, Chongqing Municipality, Fujian 
Province, and Anhui Province provide links to draft legislation on 
their Web sites. See <http://www.cecc.gov/pages/prcEgovdir/
dirEgovPRC.php> (14 August 2003).
    \316\ Five Year People's Court Reform Plan, Legal Daily [Fazhi 
ribao], 23 October 1999, translated in FBIS Doc. ID CPP20000505000668.
    \317\ Constitution of the People's Republic of China, arts. 57, 58, 
62, 67.
    \318\ Stanley Lubman, Bird in a Cage: Legal Reform in China After 
Mao (Stanford: Stanford University Press, 1999), 282.
    \319\ For example, the Minister of Public Security is the current 
head of the CCP's national Political-Legal Committee. See John Pomfret, 
``Child's Death Highlights Problems in Chinese Criminal Justice,'' 
Washington Post, 3 July 2003.
    \320\ ``New `Enforcement Notices' Designed to Increase Legal 
Transparency,'' Xinhua (English edition), in FBIS, Doc ID: 
CPP20030703000060.
    \321\ Supreme People's Court 2003 Work Report, 11 March 2003; 
Supreme People's Court Opinions on Strengthening the Construction of 
Grassroots People's Courts [Zuigao renmin fayuan guanyu jiaqiang renmin 
fayuan jiceng jianshe de ruogan yijian], issued 13 August 2000].
    \322\ Lubman, Bird in a Cage, 253.
    \323\ These figures include judges who hold degrees in any subject, 
not necessarily law. For number of judges in China at the end of 2002, 
see ``PRC's Top Judge Xiao Yang: Numbers of Judges to be Cut Back,'' 
Xinhua, 7 July 2002, translated in FBIS, Doc. ID CPP20020707000050. For 
the number of judges in China in 1998 and their educational level, see 
1998 Law Yearbook of China [1998 Zhongguo falu nianjian], (Beijing: Law 
Yearbook of China Press, 1998), 71. According to Chinese sources, in 
the five-year period ending in February 2003, the number of judges 
holding graduate degrees increased from 1,591 to 3,774 and the number 
of judges holding four-year college degrees increased from 52,117 to 
82,764. ``Chinese Courts Have 3,774 People with Ph.Ds: Judicial Ranks 
Stride Towards Professionalization,'' [Zhongguo fayuan you boshi 3,774 
ren, fayuan duiwu maixiang zhiyehua], Isinolaw, 4 April 2003, <http://
www.sinolaw/net.cn/news/fzxw/jctj/200344133215.htm> (17 June 2003).
    \324\ Supreme People's Court 2003 Work Report, 11 March 2003; 
Supreme People's Court Opinions on Strengthening the Construction of 
Grassroots People's Courts [Zuigao renmin fayuan guanyu jiaqiang renmin 
fayuan jiceng jianshe de ruogan yijian], issued 13 August 2000.
    \325\ Randall Peerenboom, China's Long March toward Rule of Law, 
(Cambridge, U.K.: Cambridge University Press, 2002), 290.
    \326\ ``PRC's Top Judge Xiao Yang: Numbers of Judges to be Cut 
Back,'' Xinhua, 7 July 2002, translated in FBIS, Doc. ID 
CPP20020707000050; Veron Hung, ``China's Commitment on Independent 
Judicial Review: An Opportunity for Political Reform,'' Working Paper, 
Carnegie Endowment for International Peace, No. 32, November 2002, 11; 
Shao Zongwei, ``Courts to Guarantee Fair Trials,'' 25 December 2002, 
translated in FBIS, Doc. ID CPP20021225000028.
    \327\ Jerome A. Cohen, ``Reforming China's Civil Procedure: Judging 
the Courts,'' Am. J. of Comp. L. (1997): 802.
    \328\ ``PRC Chief Justice Xiao Yang Promotes Concept of `People's 
Justice,''' Xinhua, 24 August 2003, in FBIS, Doc. ID CPP20030824000055; 
Xu Xun, ``Analysis on Relationship Between Chinese Media and the 
Judiciary,'' Legal Studies [Faxue Yanjiu], 10 December 2001, translated 
in FBIS, Doc. ID CPP200112310000159; Bei Hu, Gary Cheung, and Fong Tak-
ho, ``Concern over Law and Order Efforts,'' South China Morning Post, 
19 March 2003; Hung, ``China's Commitment on Independent Judicial 
Review,'' 7.
    \329\ Supreme People's Court 2003 Work Report, 11 March 2003.
    \330\ Hu, Cheung, and Fong, ``Concern Over Law and Order Efforts.'' 
13 percent of delegates rejected the report and 7 percent abstained.
    \331\ Commission Staff Interview.
    \332\ People's Republic of China Judges Law [Zhonghua renmin 
gongheguo faguan fa], enacted 28 February 1995, art. 9; Supreme 
People's Court, Several Opinions on Strengthening the 
Professionalization of the Judicial Corps [Zuigao renmin fayuan guanyu 
jiaqiang faguan duiwu zhiyehua de ruogan yijian], issued 18 July 2002. 
Judicial authorities held China's first national judicial examination 
in the spring of 2002, but the passage rate was only 7 percent. Shi 
Fei, ``Malfeasance in Judicial Exams Begins to Show: This Year Pattern 
the Pattern is Changed'' [Si kaoshi biduan chulu: jin nian geng 
fangshi], 21st Century World Herald [21 shiji huanqiu baodao], 13 
January 2002.
    \333\ ``China's Judges Must Pass Exam to Keep Jobs,'' Xinhua, 20 
July 2001, in FBIS, Doc. ID CPP20010720000074.
    \334\ Judges Law, art. 9; Supreme People's Court, Several Opinions 
on Strengthening the Professionalization of the Judicial Corps; Tian 
Yu, ``Judicial Professionalization: The New Image of Chinese Judges'' 
[Faguan whiyehua: zhongguo faguan xin xianxiang, 19 February 2003, 
People's Daily [Renmin wang], <http://www.npcnews.com.cn/gb/paper8/23/
class00800007/hwz229120.htm> (25 June 2003). Judges in this category 
who are over the age of 40 must complete at least 6 months of college-
level legal training within this 5 year-period, while younger judges 
must obtain a 4-year degree.
    \335\ See, e.g., Measures (Experimental) on Appointing Presiding 
Judges [Renmin fayuan shenpanzhang xuanren banfa], issued 11 July 2000.
    \336\ Supreme People's Court 2003 Work Report, 11 March 2003.
    \337\ Supreme People's Court Circular on on Enforcing PRC Judges 
Law [Zuigao renmin fayuan guanyu guancheluoshi ``Zhonghua renmin 
gongheguo faguanfa'' de tongzhi], issued 11 July 2001; Judicial 
Training Regulations [Faguan peixun tiaolie], issued 20 October 2000.
    \338\ See, e.g., Randall Peerenboom, China's Long March toward Rule 
of Law, (Cambridge: Cambridge University Press, 2002), 321.
    \339\ Ibid., 295; Veron Hung, ``China's Commitment on Independent 
Judicial Review: An Opportunity for Political Reform,'' Working Paper, 
Carnegie Endowment for International Peace, No. 32, November 2002, 12; 
Stanley Lubman, Bird in a Cage: Legal Reform in China After Mao 
(Stanford: Stanford University Press, 1999), 279-80.
    \340\ See, e.g., Supreme People's Court, Methods on Strict 
Observance of the Recusal System [Zuigao renmin fayuan, guanyu shenpan 
renyuan yange zhixing huibi zhidu de ruogan guiding], issued 31 January 
2001; People's Republic of China Basic Code of Professional and Ethical 
Conduct for Judges [Zhonghua renmin gongheguo faguan zhiye daode jiben 
zhunze], issued 18 October 2001; Amendments to the Judges Law [Faguan 
fa], enacted in 2001; Measures (Experimental) on Courts Enforcing Work 
Discipline [Renmin fayuan zhixing gongzuo jilu chufen banfa (shixing)], 
issued 12 September 2002; Several Provisions on Strictly Enforcing the 
Relevant Punishment Systems of the PRC Judges Law [Zhigao renmin fayuan 
guanyu yange zhixing ``Zhonghua renmin gongheguo faguanfa'' youguan 
chengjie zhidu de ruogan guiding], issued 10 June 2003.
    \341\ See, e.g., Xu Xun, ``Analysis on Relationship Between Chinese 
Media and the Judiciary,'' Legal Studies [Faxue Yanjiu], 10 December 
2001, translated in FBIS, Doc. ID CPP200112310000159; Fong Tak-ho, 
``Judiciary to Undergo Anti-Graft Inspections,'' South China Morning 
Post, 9 October 2002, <www.scmp.com>; ``PRC, Former Court President 
Sentenced to 1 Years for Bribery, Illegal Gains,'' Xinhua, 6 July 2003, 
translated in FBIS, Doc. ID CPP20030705000113.
    \342\ See, e.g., Supreme People's Court, Work Reports, 1999-2003; 
``Xiao Yang Says that People's Courts Should Strive to Do Six Tasks 
Well,'' Xinhua, 11 March 2003, translated in FBIS, Doc. ID 
CPP20030211000203.
    \343\ Fong Tak-ho, ``Judiciary to Undergo Anti-graft Inspections.''
    \344\ Provisional Measures on Liability for Judgments Not in 
Accordance with the Law [Renmin fayuan shenpan renyuan weifa shenpan 
zeren zhuijiu banfa], issued 4 September 1998.
    \345\ Supreme People's Court, Several Provisions on Strictly 
Enforcing the Relevant Punishment Systems of the Judges Law, ``The 
Whole Country's Court System Begins a Major Judicial Inspection 
[Quanguo fayuan xitong kaizhan sifa da jiancha],'' People's Daily 
[Renmin wang], 20 June 2003, <http://www.people.com.cn/GB/paper464/
9472/876494.html> (25 June 2003).
    \346\ Stanley Lubman, Bird in a Cage: Legal Reform in China After 
Mao (Stanford: Stanford University Press, 1999), 288, 291; Colin Hawes, 
``Dissent and Transparency in Recently Published Chinese Court 
Judgments,'' Paper Presented at the Association of Asian Studies Annual 
Meeting, New York, March 2003, 1.
    \347\ Supreme People's Court, Reply on People's Courts Using 
Standardized Legal Documents When Making Judgments [Zuigao renmin 
fayuan guanyu renmin fayuan zhizuo falu wenshu renhe yinyong falu 
guifanxing wenjian de pifu], issued 28 October 1986.
    \348\ Lubman, Bird in a Cage, 39, 42; Hawes, ``Dissent and 
Transparency in Recently Published Chinese Court Judgments,'' 1.
    \349\ Supreme People's Court Notice Regarding the Promulgation of 
``Forms for Criminal Judgments by People's Courts'' [Zuigao renmin 
fayuan guanyu yinfa ``fayuan xingshi susong wenjian yangshi''], issued 
30 April 1999.
    \350\ Supreme People's Court, Measures on the Management of 
Publication of Judgment Documents [Zuigao renmin fayuan panjue wenshu 
gongbu guanli banfa], issued 15 June 2000.
    \351\ Zhai Jianxiong, Judicial Information of the PRC: A Survey, 
<http://www.llrx.com/features/chinajudicial.htm> (1 October 2002).
    \352\ See, e.g., <www.chinacourt.org>. As of June 2003, the Supreme 
People's Court Web site contained hundreds of typical case decisions.
    \353\ Hawes, ``Dissent and Transparency in Recently Published 
Chinese Court Judgments,'' 1, 13.
    \354\ These include the Guangzhou Maritime Court and the Tianjin 
High People's Court, and the Zhongyuan District Court in Zhengzhou. 
Hawes, at 8; ``Tianjin Becomes First PRC Higher Court to Set Legal 
Precedents,'' Xinhua, 1 August 2003, in FBIS, Doc. ID 
CPP20030801000164.
    \355\Supreme People's Court 2003 Work Report, 11 March 2003; 
Supreme People's Court 2002 Work Report, March 2002; Randall 
Peerenboom, China's Long March toward Rule of Law, (Cambridge: 
Cambridge University Press, 2002), 294.
    \356\ Supreme People's Court, Measures on the Management of 
Publication of Judgment Documents, arts. 2(4) and 4.
    \357\ Peerenboom, China's Long March Toward Rule of Law, 286.
    \358\ Lubman, Bird in a Cage: Legal Reform in China After Mao 
(Stanford: Stanford University Press, 1999), 12-13; Five-Year People's 
Court Reform Plan, Legal Daily [Fazhi ribao], 2 October 1999, No. 1; 
Supreme People's Court 2003 Work Report, 11 March 2003. In fact, 
Chinese law provides for the Adjudication Committees and tasks them 
with ``discussing'' important or difficult cases. Organic Law of the 
People's Courts [Zhonghua renmin gongheguo renmin fayuan zuzhifa], 
enacted 1 July 1979, amended 2 September 1983, art. 11.
    \359\ Commission Staff Interview. Critics of the practice argue 
when higher courts are consulted in this manner, they often reach 
decision about the case before the parties have had an opportunity to 
present arguments on appeal.
    \360\ While some scholars report that this practice is on the 
decline, others argue that recent rules imposing personal liability on 
judges for wrongly decided cases have made it more common. Veron Hung, 
``China's Commitment on Independent Judicial Review: An Opportunity for 
Political Reform,'' Working Paper, Carnegie Endowment for International 
Peace, No. 32, November 2002, 12; Peerenboom, China's Long March Toward 
Rule of Law, 315.
    \361\ Hung, ``China's Commitment on Independent Judicial Review: An 
Opportunity for Political Reform,'' 8; Peerenboom, China's Long March 
Toward Rule of Law, 311.
    \362\ Ibid. at 9. Formally, people's congresses appoint court 
presidents at the corresponding level, who then nominate assistant 
judges. In practice, however, local governments and Party committees 
control the appointment process.
    \363\ Zhu Qiwen, ``Elevate Quality of Judges,'' China Daily, 9 
March 2002, <www.Chinadaily.com.cn.>.
    \364\ See, e.g., Supreme People's Court 2003 Work Report, 11 March 
2003; Supreme People's Court 2002 Work Report, March 2002; Five Year 
Plan for PRC Court Reform, Legal Daily [Fazhi ribao], 23 October 1999, 
No. 1.
    \365\ Peerenboom, China's Long March Toward Rule of Law, 303.
    \366\ Ibid., 305.
    \367\ Cohen, ``Reforming China's Civil Procedure,'' 797.
    \368\ Stanley Lubman, Bird in a Cage: Legal Reform in China After 
Mao (Stanford: Stanford University Press, 1999), 264.
    \369\ Cohen, ``Reforming China's Civil Procedure,'' 798.
    \370\ Ibid.; Lubman, Bird in a Cage, 252. PLCs typically exert 
their influence through court presidents, which sit on the PLCs, or by 
making a direct ``recommendation'' to judges. Hung, ``China's 
Commitment on Independent Judicial Review,'' 8.
    \371\ Peerenboom, China's Long March Toward Rule of Law, 307.
    \372\ Constitution of the People's Republic of China,, arts. 67(6), 
129; People's Republic of China Organic Law of the People's 
Procuratorates [Zhonghua renmin gongheguo renmin jianchayuan zuzhifa], 
enacted 1 July 1979, arts. 5-6; People's Republic of China Criminal 
Procedure Law [Zhonghua renmin gongheguo xingshi susongfa], enacted 1 
July 1979, art. 8, chapter V; People's Republic of China Civil 
Procedure Law [Zhonghua renmin gongheguo minshi susongfa], enacted 9 
April 1991, arts. 185-6.
    \373\ See, e.g., the working document of the 16th Party Congress, 
stating that ``we should institutionally ensure that the judicial and 
procuratorial organs are in a position to exercise adjudicative and 
procuratorial powers independently and impartially in accordance with 
the law.'' Documents of the 16th National Congress of the Communist 
Party of China (Beijing: Foreign Languages Press, 2002), 43. See also 
People's Court Reform Plan, Legal Daily [Fazhi ribao], 2 October 1999, 
No. 1; Supreme People's Court 2003 Work Report, 11 March 2003.
    \374\ Supreme People's Court 2003 Work Report; Peerenboom, China's 
Long March Toward Rule of Law, 286.
    \375\ Commission Staff Interview.
    \376\ Peerenboom, China's Long March Toward Rule of Law, 286.
    \377\ Constitution of the People's Republic of China, art. 126.
    \378\ For importance of Party leadership, see, e.g., Xiao Yang, 
``Vigorously Proceed with Professionalization Constructions of the Body 
of Judges,'' Seeking Truth [Qiushi], 1 May 2003, translated in FBIS, 
Doc. ID: CPP20021023000078; Supreme People's Court Opinions on 
Strengthening the Construction of Grassroots People's Courts [Zuigao 
renmin fayuan guanyu jiaqiang renmin fayuan jiceng jianshe de ruogan 
yijian], issued 13 August 2000]; Five Year Plan for PRC Court Reform. 
On the supervision of the NPC and the Procuratorate, see ``Senior 
Procurator: Judicial Reforms should Support and Perfect Judicial 
Independence with Chinese Characteristics'' [Gao jian: sifa gaige yao 
jianchi he wanshan zhongguo tese de sifa duli], Xinhua, 12 June 2003.
    \379\ See, e.g., Tian Yu, ``Supreme People's Court to Strengthen 
Supervision and Guidance of Courts Nationwide in `Three Respects' '' 
Xinhua, 2 April 2003, translated in FBIS, Doc. ID CPP20030404000058; 
Supreme People's Court 2003 Work Report, 11 March 2003; Supreme 
People's Court 2002 Work Report, March 2002.
    \380\ Peerenboom, China's Long March toward Rule of Law, 282.
    \381\ Veron Hung, ``China's Commitment on Independent Judicial 
Review: An Opportunity for Political Reform,'' Working Paper, Carnegie 
Endowment for International Peace, No. 32, November 2002, 18; 
Commission Staff Interviews.
    \382\ Peerenboom, China's Long March toward Rule of Law, 330.
    \383\ Commission Staff Interview.
    \384\ American Chamber of Commerce in the People's Republic of 
China, ``WTO Implementation Report-Fall 2002,'' 2002, 12.
    \385\ James Kynge, ``China's bold political reform,'' Financial 
Times, 12 January 2003.
    \386\ Ibid.
    \387\ ``PRC Scholar on Shanghai's Decision To Introduce Press 
Spokesman System,'' translated in FBIS, Doc. ID No. CPP20030605000068, 
Hong Kong Ta Kung Pao (Internet Version-WWW) in Chinese 5 June 2003.
    \388\ ``China-U.S. Trade Issues,'' CRS Report No. IB91121, 16 May 
2003.
    \389\ Regulations to Prohibit Local Protectionism in Market Economy 
Activities [Guowuyuan jinzhi zai shichang jingji huodong zhong shixing 
diqu fengsuo de guiding], issued 29 April 2001, arts. 1-3.
    \390\ U.S. Chamber of Commerce, ``First Steps: a U.S. Chamber 
Report on China's WTO Progress,'' September 2002, 5.
    \391\ See Protocol on the Accession of the People's Republic of 
China to the World Trade Organization, paras. 3, 8.2; Working Party 
Report on the Accession of the People's Republic of China to the World 
Trade Organization, para. 111.
    \392\See ``China-U.S. Trade Issues,'' CRS Report No. IB91121, 16 
May 2003, 9; U.S.-China Business Council, ``China's WTO Implementation: 
a Mid-Year Assessment,'' 2 (2003).
    \393\ Supreme People's Court, Regulations on Several Problems in 
the Trial of Trade-Related Administrative Litigation Cases [Zuigao 
renmin fayuan guanyu shenli guoji maoyi xingzheng anjian ruogan wenti 
de guiding], issued 8 August 2002; Supreme People's Court Regulations 
on the Application of Law in the Trial of Anti-Subsidy Administrative 
Litigation Cases [Zuigao renmin fayuan guanyu shenli fan butie 
xingzheng anjian ying yong falu ruogan wenti de guiding], issued 11 
September 2002; Supreme People's Court Regulations on the Application 
of Law in the Trial of Anti-Dumping Administrative Litigation Cases 
[Zuigao renmin fayuan guanyu shenli fan qingxiao xingzheng anjian ying 
yong falu ruogan wenti de guiding], issued 1 January 2003.
    \394\ People's Republic of China Administrative Licensing Law 
[Zhonghua renmin gongheguo xingzheng xukefa], enacted 27 August 2003.
    \395\ Constitution of the People's Republic of China, arts. 57, 58, 
62, 67.
    \396\ Peter Howard Corne, ``Creation and Application of Law in the 
PRC,'' American Journal of Comparative Law (Spring 2002), 409.
    \397\ Organic Law of the People's Courts, art. 33. Under Article 
33, the Supreme People's Court has the power to issue interpretations 
of law that are binding on lower courts. However, the procedure and 
scope of this power is not precisely defined.
    \398\ Commission Staff Interview; Shen Kui, ``Is it the Beginning 
or the End of the Era of the Run of the Constitution? Reinterpreting 
China's `First Constitutional Case,' '' Pacific Rim Law & Policy 
Journal 12 (January 2003), 200, 209-10; Randall Peerenboom, China's 
Long March toward Rule of Law, (Cambridge: Cambridge University Press, 
2002), 317.
    \399\ Donald C. Clarke, ``Puzzling Observations in Chinese Law: 
When Is a Riddle Just a Mistake? '' in Understanding China's Legal 
System, Steven Hsu (ed.) (New York: New York University Press, 2003), 
106.
    \400\ Constitution of the People's Republic of China, art. 5.
    \401\ See, e.g., Constitution of the Communist Party of China 
(Adopted and Amended at the 16th National Congress of the Communist 
Party of China, November 14, 2002), General Program; ``Build a Well-Off 
Society in an All-Around Way and Create a New Situation in Building 
Socialism with Chinese Characteristics,'' Jiang Zemin, Report to the 
16th National Congress of the Communist Party of China, 8 November 
2002.
    \402\ People's Republic of China of Legislation Law [Zhonghua 
renmin gongheguo lifa fa], enacted 15 March 2001, art. 90.
    \403\ Shen Kui, ``Is it the Beginning or the End of the Era of the 
Run of the Constitution? Reinterpreting China's `First Constitutional 
Case,' '' 200, 209-10.
    \404\ Commission Staff Interviews. One such case was brought in 
Sichuan Province in April 2002, where a plaintiff sued the Chengdu 
branch of the People's Bank, arguing that height requirements in the 
bank's job advertisements violated his constitutional rights to equal 
treatment under the law. The lawsuit was dismissed primarily on 
technical grounds. ``Record of the Court Hearing of China's First 
Constitutional Case on the Right to Equal Protection'' [``Zhongguo 
xianfa pingdengquan di yi an'' tingshen tou lu], China Lawyer Net 
[Zhongguo falu zixun wang], 12 December 2002, <http://www.law.com.cn/
pg/newsShow.php?Id=6457> (20 June 2003).
    \405\ Both Chinese and foreign observers attached significance to 
Hu's choice of this occasion for his first major policy address.
    \406\ ``Hu Jintao Stresses Moving Forward to Establish 
Consciousness and Authority of the Constitution (Full Text) [Hu jintao 
qiandiao jinyibu shuli xianfa yishi yu quanwei (fu quanwen),'' 
Chinanews.com [Zhongguo xinwen wang], 4 December 2002, <http://
www.chinanews.com.cn/2002-12-04/26/250121.htmlb> (30 May 2003).
    \407\ Zhai Wei ``Hu Jintao Stresses Importance of Study at CPC 
Politburo's Group Study Session,'' Xinhua, 26 December 2002, translated 
in FBIS, Doc. ID CPP20021226000099; Kathy Chen, ``Chinese Leaders 
Consider Overhaul for the Constitution,'' The Wall Street Journal, 13 
June 2003, <www.wsj.com>.
    \408\ Wang Leiming, Shen Lutao, and Zou Shengwen, ``Supervision: A 
Force That Bears Witness to Democracy--Shining the Spotlight on Five 
Bright Spots in the Supervision Work of the Ninth National People's 
Congress,'' Xinhua, 2 February 2003, translated in FBIS, Doc. ID 
CPP20030223000012.
    \409\ Commission Staff Interview.
    \410\ Ibid.
    \411\ Along with efforts to control the outbreak of SARS, news and 
debate about the Sun Zhigang case and its implications dominated the 
Chinese media in May and June 2003.
    \412\ Proposal to Examine the ``Measures for Custody and 
Repatriation of Urban Vagrants and Beggars,'' Submitted to the National 
People's Congress Standing Committee on 14 May 2003 [Guanyu shencha 
``chengshi liulang qitao renyuan shourong yisong banfa de jueyishu''], 
available at <http://www.southcn.com/weekend/commend/200305220015.htm> 
(20 June 2003). The scholars argued that the regulations were illegal 
because (1) under Articles 8 and 9 of the Legislation Law and Article 8 
of the Administrative Punishments Law because the freedom of citizens 
can only be restricted by law (not by administrative regulations such 
as the Measures for Custody and Repatriation of Urban Vagrants and 
Beggars) and (2) under Article 37 of China's Constitution, no citizen 
may be arrested except with the approval of a people's procuratorate or 
people's court, and unlawful deprivation of freedom by detention or 
other means is prohibited. As such, the Measures were illegal under the 
Article 87 of the Legislation Law, which states that administrative 
regulations may not contravene the Constitution or the law.
    \413\ Proposal Submitted to the Standing Committee of the National 
People's Congress on Initiating a Special Investigation into the Sun 
Zhigang Case and the Implementation of the Custody and Repatriation 
System [Tiqing quanguo changweihui jiu Sun zhigang an ji shourong 
yisong zhidu shishi zhuangkuang qidong tebie diaocha chengxu de 
jianyishu], submitted to the National People's Congress, 22 May 2003, 
available at <http://www.china-review.com/everyday/jianyishu.htm> (20 
June 2003).
    \414\ See, e.g., Erik Eckholm, ``Petitioners Urge China to Enforce 
Legal Rights,'' New York Times, 2 June 2003 (quoting He Weifang and 
petitioners); ``Hu Jintao Overseas Tour; Sun Zhigang Case Driving 
Constitutional Change,'' Hong Kong Feng Huang Wei Shih Chung Wen Tai, 5 
June 2003, translated in FBIS, Doc. ID CPP20030609000100.
    \415\ ``Start with Respecting the Constitution [Cong zunzhong 
xianfa kaishi]'' Southern Weekend [Nanfang zhoumo], 13 March 2003, 1.
    \416\ Commission monitoring of legal newspapers and Web sites. In 
June 2003, for example, a nongovernmental symposium on constitutional 
amendment held by 40 well-known scholars put forth a series of five-
year and ten-year constitutional reform proposals to the NPC. ``Non-
Governmental Sector Submits to the Central Authorities a Proposal on 
Constitutional Amendment: Forty Scholars Call for Abrogation of 
Dictatorship,'' Hong Kong Ming Pao, 30 June 2003, translated in FBIS, 
Doc. ID 20030708000048.
    \417\ People's Republic of China Administrative Litigation Law 
[Zhonghua renmin gongheguo xingzheng susong fa], enacted 4 April 1989, 
arts. 2, 11. The law applies only to a range of ``concrete 
administrative acts'' that target a specific person or entity, and not 
to government acts that are binding generally. However, the scope of 
the law has gradually been expanded under SPC Interpretations. See 
Supreme People's Court Opinion on Several Questions Related to the 
Implementing the PRC Administrative Litigation Law [Zuigao renmin 
fayuan guanyu guanche zhixing ``zhonghua renmin gongheguo xingzheng 
susongfa'' ruogan wenti de yijian], issued 11 June 1991, Section 1; 
Supreme People's Court Interpretation on Several Problems in 
Implementing the PRC Administrative Litigation Law [Zuigao renmin 
fayuan guanyu zhixing ``zhonghua renmin gongheguo xingzheng susongfa'' 
ruogan wenti de jieshi], issued 24 November 1999.
    \418\ Administrative Litigation Law, art. 11. Under the ALL, courts 
also have the power to grant compensation to claimants. The right to 
compensation was clarified by the SCL, which was enacted 5 years later.
    \419\ People's Republic of China State Compensation Law [Zhonghua 
renmin gongheguo guojia peichanfa], enacted 12 May 1994, art. 2.
    \420\ Ibid., chapter 3. Both the scope of and process for criminal 
compensation is more restrictive than that for administrative 
compensation. For example, while administrative compensation claimants 
may file their claims directly with a people's court as part of an 
administrative lawsuit, criminal compensation claimants must first 
petition the criminal justice organ that is accused of violating the 
claimant's rights. Only if such claims are denied do claimants have a 
right to review in a people's court, and even then review is conducted 
by a ``people's court compensation committee,'' not by the court 
itself. State Compensation Law, chapter 3.
    \421\ Minxin Pei, ``Citizens vs. Mandarins: Administrative 
Litigation in China'' The China Quarterly (1997), 385; Ding Yuechao, 
et. al., State Compensation Law Principles and Practice [Guojia 
peichangfa yuanli yu shiwu], (Beijing, 1998), 72. Note, however, that 
if administrative regulations violate the Constitution or the law, 
citizens can petition the NPC Standing Committee for such laws to be 
annulled under Article 90 of the Legislation Law.
    \422\ Commission Staff Interview.
    \423\ Veron Hung, ``China's Commitment on Independent Judicial 
Review: An Opportunity for Political Reform,'' Working Paper, Carnegie 
Endowment for International Peace, No. 32, November 2002, 5-10; Kevin 
O'Brien, ``Suing the Local State: Administrative Litigation in Rural 
China,'' 4 November 2002 (draft paper on file with author); ``If You 
Damage Things you Must Pay! A Look Back on Four Years of Implementing 
the State Compensation Law, Commentary on Democracy and the Rule of Law 
[Sunhai dongxi yao pei! Guojia peichangfa shishi si nian huimou, minzhu 
fazhi shuping]'' People's Daily [Renmin Wang], 8 December 1999, 
<www.people.com.cn>.
    \424\ De Hengbei, ``An Analysis of Basic Concepts in the 
Controversy over Seeking Criminal Liability of Lawyers'' [Lushi xingshi 
zeren zhuijiu zhenglun de jichu guannian pingxi], Legal Daily [Fazhi 
ribao], 16 January 2003.
    \425\ Passage of the Administrative Litigation Law was hailed as a 
positive reform by both Chinese and foreign legal observers. Pei, 
``Citizens vs. Mandarins: Administrative Litigation in China,'' 832.
    \426\ China Law Yearbooks, 1991-2002; Situation of Judgment Work 
and the Building of Judicial Cadres of the People's Courts, 1998-2002 
[1998-2002 nian renmin fayuan shenpan gongzuo he duiwu jianshe 
qingkuang], <http://211.147.1.70/public/detail.php?id=47770> (17 March 
2003). From 13,006 cases in 1990, the number of Administrative 
Litigation Law cases accepted in China grew to 52,596 in 1995 and 
84,942 in 2002. 1991 China Law Yearbook [1991 Zhongguo falu nianjian], 
(Beijing: China Law Yearbook Press, 1992), 933; 1996 China Law 
Yearbook, 1055. In 2000 and again in 2002, there was a dip in the 
number of ALL cases accepted. The Supreme People's Court has monitored 
this situation closely and ordered courts in provinces that experienced 
such decreases to study the causes and report to the SPC. Commission 
Staff Interview.
    \427\ See Pei, ``Citizens vs. Mandarins: Administrative Litigation 
in China,'' 841-43; 2001 China Law Yearbook, 156. In 1995, for example, 
the success rate was 36.7 percent. For 2001, it was 39.4 percent.
    \428\ The lack of complete State Compensation Law statistics makes 
a comprehensive evaluation of State Compensation Law implementation 
difficult, but official Chinese sources report that the number of 
criminal compensation cases accepted by the people's courts grew from 
398 in 1996 to 2,818 in 2002, while the number of such cases accepted 
for review by procuratorial offices increased from 379 to 1996 to 1,361 
in 2001. See Situation of Judgment Work and the Building of Judicial 
Cadres of the People's Courts, 1998-2002 [1998-2002 nian renmin fayuan 
shenpan gongzuo he duiwu jianshe qingkuang], <http://211.147.1.70/
public/detail.php?id=47770> (17 March 2003); 1997 China Law Yearbook, 
at 183; 2002 China Law Yearbook, at 184. There is some likely some 
overlap in the number for criminal compensation cases accepted by the 
courts and the procuratorate, since claimants may appeal to a people's 
court compensation committee if the procuratorate denies their claims. 
State Compensation Law, art. 13. Public security and procuratorial 
organs review criminal compensation cases because claimants must first 
petition the criminal justice organ that is accused of violating the 
claimant's rights.
    \429\ According to official sources, in 2001, people's courts 
granted claimants compensation in about 22 percent of the 4,048 
administrative compensation cases decided and in 34 percent of the 
2,705 criminal compensation cases decided. 2002 China Law Yearbook, at 
158.
    \430\ Congressional-Executive Commission on China Roundtable, Rule 
of Law in China: Lawyers without Law, 1 April 2003, Testimony of James 
V. Feinerman, Georgetown University Law Center.
    \431\ Foreign legal observers have criticized procedural 
deficiencies in the Legislation Law review mechanism. Randall 
Peerenboom, China's Long March toward Rule of Law, (Cambridge: 
Cambridge University Press, 2002), 264-5. Indeed, Chinese scholars 
concluded that the NPCSC was unlikely to act on the scholars' petition 
in the Sun Zhigang case due to a lack of detailed procedures for 
handling such petitions. The Commission is unaware of any 
administrative regulations that have been formally overturned in 
response to a citizen petition filed under the Legislation Law. 
According to Commission sources, however, the NPC Standing Committee 
has in some cases called local people's congresses and regulatory 
agencies informally and suggested that local laws or regulations should 
be repealed.
    \432\ Constitution of the People's Republic of China, art. 33. 
``Every citizen enjoys the rights and at the same time must perform the 
duties prescribed by the Constitution and the law.''
    \433\ See, e.g., Congressional-Executive Commission on China 
Roundtable, Rule of Law in China: Lawyers without Law, 1 April 2003, 
Testimony of Randall Peerenboom, Professor of Law, University of 
California at Los Angeles.
    \434\ Constitution of the People's Republic of China, Preamble.
    \435\ ``Constitutional Governance: Selecting the Path of Modern 
Political Civilization [Xianzheng: Xiandai zhengzhi wenming lujing de 
xuanze],'' Guangming Daily [Guangming ribao], 13 August 2003, <http://
www.chinacourt.org/public/detail.php?id=74712> (13 August 2003).
    \436\ ``Hu Jintao Stresses Moving Forward to Establish 
Consciousness and Authority of the Constitution (Full Text)'' [Hu 
jintao qiandiao jinyibu shuli xianfa yishi yu quanwei (fu quanwen)], 
Chinanews.com [Zhongguo xinwen wang], 4 December 2002, <http://
www.chinanews.com.cn/2002-12-04/26/250121.html> (30 May 2003).
    \437\ Vivian Pik-kwan Chan, ``Hu Uses Constitution to Tighten Grip 
on Power,'' South China Morning Post, 20 January 2003, in FBIS, Doc. ID 
CPP20030120000048; ``Nailene Chou Wiest, ``Hu Delivers on a Promise to 
Uphold Rule of Law,'' South China Morning Post, 16 June 2003, in FBIS, 
Doc. ID CPP20030616000085; Hugo Restall, ``Why China's Glass is Half 
Full,'' The Wall Street Journal, 13 June 2002; Kevin O'Brien, ``Suing 
the Local State: Administrative Litigation in Rural China,'' 4 November 
2002 <www.wsj.com>, (draft paper on file with author), at 19-20.
    \438\ ``The Central Authorities Have Forbidden Media from Bringing 
Political Reform and Constitutional Amendment to Discussion,'' Hong 
Kong Xing Dao Ri Bao, 21 August 2003, translated in FBIS, Doc ID 
CPP20030821000078.
    \439\ According to one Commission source, for example, after the 
State Council repealed the custody and repatriation regulations, legal 
scholars filed a second petition with the NPC Standing Committee 
arguing that regulations on re-education through labor should be 
repealed. The legal arguments were reportedly similar to those make in 
the petition on custody and repatriation. Reportedly, the NPC Standing 
Committee denied the petition and authorities barred the Chinese media 
from reporting on it.
    \440\ See, e.g., commentary by Chinese legal scholar Xiao Han at 
<http://www.china-review.com/everyday/everyday-79.htm>; Eckholm, 
``Petitioners Urge China to Enforce Legal Rights.''
    \441\ See generally Hearts and Minds: Information for Change 
<http://www.heartsandminds.org/articles/sweat.htm> (24 September 2003); 
Sweatshopwatch.org <http://www.sweatshopwatch.org/> (24 September 
2003); <http://www.uniteunion.org/sweatshops/sweatshop.html> (24 
September 2003).
    \442\ See, e.g., Global Exchange China Campaign, <http://
www.globalexchange.org/campaigns/sweatshops/china/index.html>, (24 
September 2003); National Labor Committee for Worker and Human Rights, 
``New Balance in China Freetrend Factory Shenzhen, Guangdong Province, 
China'' (24 September 2003), Hong Kong Christian Industrial Committee 
reports, <http://www.www.cic.org.hk/research.htm#h> (23 September 
2003).
    \443\ Business Roundtable, ``Corporate Social Responsibility in 
China: Practices by U.S. Companies,'' 16 February 2000, 
<www.brtable.org/pdf/377.pdf> (24 September 2003).
    \444\ See, e.g., Business for Social Responsibility, Issue Brief, 
``Overview of Corporate Social Responsibility,'' <http://www.bsr.org/
BSRResources/IssueBriefDetail.cfm?DocumentID=48809>; see also 
``Corporate Social Responsibility-What Does it Mean?'' Mallenbaker.net, 
<www.mallenbaker.net/csr/CSRfiles/definition.html> (24 September 2003).
    \445\ Kenan Institute Corporate Social Responsibility Study Group, 
Washington, DC.
    \446\ Congressional-Executive Commission on China Roundtable, Codes 
of Conduct: U.S. Corporate CompliancePrograms and Working Conditions in 
Chinese Factories, 28 April 2003, Testimony of Doug Cahn.
    \447\ See generally BRT Report.
    \448\ Commission Staff Interview.
    \449\ Congressional-Executive Commission on China Roundtable, Codes 
of Conduct: U.S. Corporate Compliance Programs and Working Conditions 
in Chinese Factories, 28 April 2003.
    \450\ Social Accountability International, SA8000 Standard 
Elements, Section 4, <http://www.sa-intl.org/SA8000/
SA8000.htm#StandardElements,> (24 September 2003).
    \451\ Congressional-Executive Commission on China Roundtable, Codes 
of Conduct: U.S. Corporate Compliance Programs and Working Conditions 
in Chinese Factories, 28 April 2003, Testimony of Doug Cahn.
    \452\ Congressional-Executive Commission on China Roundtable, 
Freedom of Association for Chinese Workers, 7 July 2003, Testimony of 
Phil Fishman.
    \453\ Congressional-Executive Commission on China Roundtable, 
Health and Safety in Chinese Workplaces, 7 November 2002, Testimony of 
Han Dongfang.
    \454\ Zhang Lifen, ``Dalai Lama: Holding out Hope,'' BBC, 4 
February 2003, <http://news.bbc.co.uk/2/hi/asia-pacific/2723395.stm> (9 
July 2003). (``I am not seeking separation or independence of Tibet 
from the People's Republic of China. All I want is a genuine self-rule 
for Tibet within China. This is my `middle way' approach.'')
    \455\ ``Tibetan Chairman Condemns Dalai's Separatist Acts,'' China 
Daily, 13 November 2002, <http://www3.chinadaily.com.cn/en/doc/2002-11/
13/content__143579.htm> (9 July 2003). While attending the 16th CCP 
Congress, the Chairman of the TAR government, Legchog, said, ``[T]he 
Dalai Lama now adopts a new strategy of playing down separatist 
sentiments while trumpeting the highest degree of autonomy of the so-
called `greater Tibet.' '' Legchog labeled the Dalai Lama's initiative 
``another form of his separatist stance.'' Ibid.
    \456\ People's Republic of China Regional National Autonomy Law 
[Zhonghua renmin gongheguo minqu quyufa], enacted 31 May 1984, art 2. 
``Regional autonomy shall be practiced in areas where minority 
nationalities live in concentrated communities. National autonomous 
areas shall be classified into autonomous regions, autonomous 
prefectures and autonomous counties. All national autonomous areas are 
integral parts of the People's Republic of China.''
    \457\ Regional National Autonomy Law, art. 7.
    \458\ Steven D. Marshall and Susette Ternent Cooke, Tibet Outside 
the TAR: Control, Exploitation and Assimilation: Development with 
Chinese Characteristics (Washington D.C.: self-published CD-ROM, 1997), 
Table 7. The 13 areas total 2.24 million square kilometers (865,000 
square miles).
    \459\ Tibetan Government-in-Exile, ``Facts - Occupied Tibet,'' 
<http://www.tibet.net/tgie/eng/tibet/> (13 August 2003). 
``Background,'' <http://www.tibet.net/eng/tgie/background/> (13 August 
2003). ``Tibet at a Glance,'' <http://www.tibet.com/glance.html> (13 
August 2003). The area of ``occupied Tibet'' is reported as 2.5 million 
square kilometers (965,000 square miles) with Lhasa as the capital.
    \460\ Department of State International Religious Freedom Report on 
Tibet, 2003.
    \461\ The Tibetan government-in-exile's representation of Tibet 
exceeds the total area of Chinese-designated Tibetan autonomy by about 
100,000 square miles. Aside from pockets of long-term Tibetan 
settlement in Qinghai, most of that is made up of autonomous 
prefectures or counties allocated to other ethnic groups. These include 
the Nu, Lisu, Bai, and Naxi in Yunnan Province; the Yi and Qiang in 
Sichuan Province; the Hui, Kazak, Mongol, and Yugur in Gansu Province; 
the Hui, Tu, Salar, and Mongol in Qinghai Province; and, according to 
some maps, Mongol in Xinjiang. Substantial Han Chinese populations are 
also included, some established for centuries.
    \462\ According to 1990 census data there were 4.6 million Tibetans 
in China, of whom 4.3 million lived in autonomous Tibetan areas. More 
than half of Tibetans living outside autonomous Tibetan areas were in 
Haidong Prefecture and Xining, in Qinghai Province, where they make up 
about 7 percent of the population. In parts of Gansu, Sichuan, and 
Yunnan Provinces that the Tibetan government-in-exile represents as 
``Tibet,'' but that are not within autonomous Tibetan areas, Tibetans 
generally make up 1 percent or less of prefectural populations.
    \463\ International Campaign for Tibet (ICT), <http://
www.savetibet.org> (13 August 2003). Lodi Gyari is also the Executive 
Chairman of ICT. ICT has offices in Washington, Amsterdam, and Berlin 
and ``works to promote human rights and self-determination for Tibetans 
and to protect their culture and environment.''
    \464\ Tibetan Government-in-Exile, ``Statement by Special Envoy 
Lodi Gyari, Head of the Delegation Sent by His Holiness the Dalai Lama 
to China,'' 11 June 2003, <http://www.tibet.com/NewsRoom/
delegation2.htm> (13 August 2003); ``Statement by Special Envoy Lodi 
Gyari, Head of the Delegation,'' 28 September 2002, <http://
www.tibet.net/tibbul/0207/news6.html> (13 August 2003).
    \465\ In September 2002 the envoys met with United Front Work 
Department Director Wang Zhaoguo in Beijing. In May 2003 the delegation 
met Liu Yandong, Wang's successor as head of the UFWD. Ibid. The UFWD 
is the Party organ charged with dealing with groups outside of the 
Chinese communist mainstream, including ethnic and religious groups, 
non-communist political parties, and non-Party leaders and 
intellectuals.
    \466\ In September 2002 the envoys met with Tibetans Ragdi and 
Legchog (Chinese: Raidi and Lieque) in Lhasa. Ibid. Ragdi was then 
Chairman of the TAR People's Congress and is now a Vice-chairman of the 
NPC. Legchog was then Chairman of the TAR government and is now 
Chairman of the Standing Committee of the TAR People's Congress. Both 
are Deputy Secretaries of the TAR Party Committee.
    \467\ Tibetan Government-in-Exile, ``Statement by Special Envoy 
Lodi Gyari, Head of the Delegation,'' 28 September 2002, <http://
www.tibet.net/tibbul/0207/news6.html> (9 July 2003).
    \468\ Tibetan Government-in-Exile, ``Statement by Special Envoy 
Lodi Gyari, Head of the Delegation sent by his Holiness the Dalai Lama 
to China,'' 11 June 2003, <http://www.tibet.com/NewsRoom/
delegation2.htm> (9 July 2003).
    \469\ Constitution of the People's Republic of China, art. 54.
    \470\ ``Changes in pattern of political detention,'' Tibet 
Information Network, 10 March 2003, <http://www.tibetinfo.net/news-
updates/2003/1003.htm> (9 July 2003).
    \471\ Congressional-Executive Commission on China Staff Paper, The 
Execution of Lobsang Dondrub and the Case Against Tenzin Deleg: The 
Law, the Courts, and the Debate on Legality, 10 February 2003, <http://
www.cecc.gov/pages/news/lobsang.php> (13 August 2003). Tenzin Deleg was 
sentenced to death with a two-year suspension and is believed to be 
held in Sichuan.
    \472\ Ngawang Sangdrol's statements were made at an interview 
conducted by Commission staff.
    \473\ Chinese authorities rarely grant permission for Tibetans to 
travel to India. Tibetans wishing to do so often apply to travel to 
Nepal and then make the onward journey to India without official 
documentation.
    \474\ Press Statement of Philip T. Reeker, Deputy Spokesman, U.S. 
Department of State, 2 June 2003, <http://www.state.gov/r/pa/prs/ps/
2003/21136.htm> (9 July 2003): ``We condemn the behavior of Nepalese 
officials and Chinese diplomats for their role in forcibly returning 
the asylum seekers to China. We call on Nepal to return to its previous 
long-term practice of allowing Tibetans to seek protection in Nepal for 
onward resettlement.''
    \475\ International Campaign for Tibet, ``Nepal Adopts New Policy 
on Tibetan Refugees,'' 26 August 2003, <http://www.savetibet.org/News/
News.cfm?ID=1960&c=7> (27 August 2003). The ICT report includes a 
letter dated August 4, 2003, from Nepal's Foreign Secretary Madhu Raman 
Acharya to Senator Dianne Feinstein which sets out the policy.
    \476\ ``Raidi Meets Hong Kong Journalists, Gives Interview,'' Lhasa 
Tibet Daily [Lasa Xizang Ribao], 7 August 2001, translated in FBIS, 
Doc. ID CPP20010809000073.
    \477\ ``Chinese to Outnumber Tibetans in Lhasa,'' Reuters, 8 August 
2002, <http://www.washingtonpost.com/wp-dyn/articles/A57467-
2002Aug7.html> (30 August 2003). Jin Shixun, deputy director general of 
the TAR Development and Planning Commission, said at a news conference, 
``At the moment the population here in Lhasa stands at around 200,000. 
About half of them are the [Han] migrant population. There will 
certainly be a large increase in these numbers.''  Ibid.
    \478\ ``Notes from the Editor,'' Population Census Office, National 
Bureau of Statistics of the People's Republic of China, Major Figures 
on 2000 Population Census of China, 1 June 2001. ``The 2000 population 
census covered all persons with the nationality of, and a permanent 
residing place in, China. The census took the de jure approach by which 
each person should be enumerated at his/her permanent residence and 
should be enumerated at only one place.''
    \479\ Tabulation on 1990 Census of TAR; China Population Statistics 
Yearbook 1990; Tabulation on the 2000 Population Census of the People's 
Republic of China, China Statistics Press, Beijing, August 2002. Han 
population in the TAR increased from 3.7 percent in 1990 to 6.1 percent 
in 2000; the Han proportion of Qinghai's population fell from 57.9 
percent to 54.0 percent. In Qinghai the official number of Han 
increased from 2.580 million in 1990 to 2.606 million in 2000, an 
increase of only 1 percent in 10 years.
    \480\ ``Environmental Concerns Paramount in Qinghai-Tibet Railway 
Construction,'' People's Daily, June 2003, <http://
english.peopledaily.com.cn/200306/03/eng20030603__117590.shtml> (7 
August 2003).
    \481\ ``Laying Tracks To China's Future,'' Associated Press, 23 
December 2002, <http://www.cbsnews.com/stories/2002/12/23/world/
main534151.shtml> (30 August 2003).
    \482\ ``Tibet Reports Double-digit Economic Growth,'' Xinhua, 13 
January 2003, <http://www.china.org.cn/english/2003/Jan/53426.htm> (9 
July 2003).
    \483\ ``Deciphering Economic Growth in the Tibet Autonomous 
Region,'' Tibet Information Network, 8 April 2003, <http://
www.tibetinfo.net/news-updates/2003/0804.htm> (9 July 2003). ``In 2001, 
the average urban income in the TAR was more than five and a half times 
the average rural income. In 1990 this ratio was only about two and a 
half to one.'' Ibid. ``Despite economic boom, rural standards of living 
in the Tibet Autonomous Region still below 1992 levels,'' Tibet 
Information Network, 6 February 2003, <http://www.tibetinfo.net/news-
updates/2003/0602.htm> (9 July 2003). ``The consumer price index of the 
rural areas, available from the official Tibet Bureau of Statistics, 
shows that the cost of living in rural TAR rose by 97 percent between 
1992 and 2001. However, rural incomes rose by only 69 percent over the 
same period.''  Ibid.
    \484\ Four articles presented together under the title, ``There 
Must Be New Ideas for the Large-scale Development of the Western 
Region,'' Seeking Truth [Qiushi], 16 February 2003, translated in FBIS, 
Doc. ID CPP20030222000011 (also available at <http://
www.qsjournal.com.cn/qs/20030216/GB/qs%5E353%5E0%5E11.htm >). Article 
1, ``Blaze a New Road of Faster Development,'' Li Zibin, Vice-minister, 
State Development Planning Commission.
    \485\ Ibid. Article 2, ``Industrialize Ecological Construction and 
Make Industrial Development Eco-Friendly,'' Professor Shi Peijun, Vice-
president, Beijing Teachers' University, and Professor Liu Xuemin, 
Institute of Resource Science, Beijing Teachers' University.
    \486\ Population Census Office, National Bureau of Statistics of 
the People's Republic of China, Major Figures on 2000 Population Census 
of China, 1 June 2001. Educational statistics, Tables 9-13, pages 24-
29.
    \487\ ``TAR Regulations on the Study, Use and Development of the 
Tibetan Language'' [Xizang zizhiqu xuexi: shiyong he fazhan zangyuwen 
de ruogan guiding], passed 22 May 2002, art. 4: ``Important conferences 
and meetings of state organs at all levels in the TAR are to 
simultaneously use the Tibetan and common national languages, or to use 
one of them. Work meetings of units in TAR enterprises will, according 
to need, use one or both of the commonly used languages. . . .''
    \488\ Congressional-Executive Commission on China Roundtable: 
Teaching and Learning Tibetan: The Role of Tibetan Language in Tibet's 
Future, 7 April 2003. Prepared Statement of Professor Nicolas 
Tournadre, Associate Professor of Linguistics, University of Paris 8. 
First published in China Perspectives, No. 45 January-February 2003, 
Hong Kong.
    \489\ Johann Wong for Secretary for Security, letter to the editor, 
Washington Times, 19 June 2003, <www.scmp.com>.
    \490\ ``Why China will Lose with Article 23's Passage,'' South 
China Morning Post, 3 July 2003, <www.scmp.com>.
    \491\ ``Legal Blind Spot,'' South China Morning Post, 20 June 2003, 
<www.scmp.com>.
    \492\ ``Hong Kong Delays Security Bill After Cabinet Member 
Quits,'' New York Times, 7 July 2003, <www.nyt.com>.
    \493\ Chief Executive Tung Chee-hwa in Hong Kong government 
statement dated 28 July 2003, <http://www.info.gov.hk/gia/general/
200307/28/0728198.htm> (8 September 2003).
    \494\ Hong Kong government statement, 29 July 2003, <http://
www.info.gov.hk/gia/general/200307/29/0729220.htm> (8 September 2003).
    \495\ These efforts included a 3-month public notice and comment 
period, publications, and establishing Web sites. See, e.g., <http://
www.basiclaw23.gov.hk/> and <http://www.legco.gov.hk/yr02-03/english/
bc/bc55/general/bc55.htm> (8 September 2003).


</pre></body></html>
